APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion and Judgment on Rehearing
En Banc in the United States Court of
Appeals for the Fifth Circuit
(September 6, 2019) . . . . . . . . . . . App. 1
Appendix B Order
Granting
Petitions for
Rehearing En Banc in the United
States Court of Appeals for the Fifth
Circuit
(November 12, 2018) . . . . . . . . . App. 164
Appendix C Opinion and Judgment in the United
States Court of Appeals for the Fifth
Circuit
(July 16, 2018) . . . . . . . . . . . . . App. 166
Appendix D Memorandum and Order with Final
Judgment in the United States
District Court for the Southern
District of Texas, Houston Division
(May 22, 2017) . . . . . . . . . . . . . App. 283

App. 1

APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 17-20364
[Filed September 6, 2019]
___________________________________
PATRICK J. COLLINS;
)
MARCUS J. LIOTTA;
)
WILLIAM M. HITCHCOCK,
)
)
Plaintiffs–Appellants,
)
)
v.
)
)
STEVEN T. MNUCHIN,
)
SECRETARY, U.S.
)
DEPARTMENT OF TREASURY;
)
DEPARTMENT OF THE
)
TREASURY; FEDERAL HOUSING )
FINANCE AGENCY; MARK A.
)
CALABRIA, DIRECTOR OF THE
)
FEDERAL HOUSING FINANCE
)
AGENCY,
)
)
Defendants–Appellees.
)
___________________________________ )
Appeal from the United States District Court
for the Southern District of Texas
_______________

App. 2
Before STEWART, Chief Judge, JONES, SMITH,
DENNIS, OWEN, ELROD, SOUTHWICK, HAYNES,
GRAVES, HIGGINSON, COSTA, WILLETT, HO,
DUNCAN, ENGELHARDT, and OLDHAM, Circuit
Judges.
DON R. WILLETT, Circuit Judge, joined by JONES,
SMITH, OWEN, ELROD, HO, DUNCAN,
ENGELHARDT, and OLDHAM, Circuit Judges:
The bicentennial of the United States Constitution
in 1987 celebrated our Founding generation’s ingenious
system of separated powers: legislative, executive, and
judicial. The Constitution inaugurated a revolutionary
design. Madisonian architecture infused with
Newtonian genius—three separate branches locked in
synchronous orbit by competing interests. “Ambition
. . . made to counteract ambition,” explained Madison,
making clear that this law of constitutional motion,
using friction to combat faction, was a feature, not a
bug.1 Our Constitution’s most essential attribute, the
separation of powers, presumes conflict, which,
counterintuitively, produces equilibrium as the
branches behave not as willing partners but as wary
rivals. And our Constitution’s paramount aim,
preserving individual liberty, presumes that branches
will behave neither centripetally (seizing other

1

THE FEDERALIST NO. 51, at 349 (James Madison) (J. Cooke ed.,
1961); see also Mistretta v. United States, 488 U.S. 361, 380 (1989)
(“This Court consistently has given voice to, and has reaffirmed,
the central judgment of the Framers of the Constitution that,
within our political scheme, the separation of governmental powers
into three coordinate Branches is essential to the preservation of
liberty.”).

App. 3
branches’ powers) nor centrifugally (ceding their own),
but jealously (defending their assigned powers against
encroachment). No mere tinkerers, the Framers
upended things. Three rival branches deriving power
from three unrivaled words—“We the People”—
inscribed on the parchment in supersize script. In an
era of kings and sultans, nothing was more audacious
than the Preamble’s first three words, a script-flipping
declaration that ultimate sovereignty resides not in the
government but in the governed.
The Constitution’s 200th birthday coincided with a
centennial, the 100th birthday of the federal
administrative state.2 Congress’s passage in 1887 of the
Interstate Commerce Act, making railroads the first
industry subject to federal regulation, and the Act’s
creation of the nation’s first federal regulatory body,
the Interstate Commerce Commission, profoundly
altered the Framers’ tripartite structure. The ICC was
an amalgam of all three powers, blending functions of
all three branches. The administrative state has
sprouted since then. But this iron truth endures: Even
the most well-intentioned bureaucrats, no less than
presidents, legislators, and judges, are bound by
constitutional principles. An agency is restrained by
the four corners of its enabling statute and “literally
has no power to act . . . unless and until Congress
2

An Act to Regulate Commerce (Interstate Commerce Act), ch.
104, 24 Stat. 379 (1887). While many scholars peg the birth of the
federal administrative state to the Interstate Commerce
Commission, others point to other enactments, like the Pendleton
Civil Service Reform Act of 1883, which created the United States
Civil Service Commission, or the Steamboat Act of 1852, which
created the Steamboat Inspection Service.

App. 4
confers power upon it.”3 And Congress, when creating
agencies, is itself constrained—at all times—by the
separation of powers.
***
The plaintiffs (the Shareholders) own shares in
Fannie Mae and Freddie Mac. In 2008 Fannie and
Freddie’s new regulator, the Federal Housing Finance
Agency, placed them in conservatorship. FHFA secured
financing from the Treasury to keep Fannie and
Freddie afloat. That relationship continued, and in
2012 FHFA and Treasury adopted a Third Amendment
to their financing agreements. Under the Third
Amendment, Fannie and Freddie give Treasury nearly
all their net worth each quarter as a dividend.
The Shareholders have two principal objections to
this arrangement:
First, the Third Amendment exceeded FHFA’s
statutory powers. FHFA’s enabling statute gives it
general powers to use as either conservator or receiver.
The statute grants other, more directed powers to
FHFA as conservator or receiver respectively. As
conservator, the agency may take actions “(i) necessary
to put the regulated entity in a sound and solvent
condition; and (ii) appropriate to carry on the business
of the regulated entity and preserve and conserve the
assets and property of the regulated entity.”4 These

3

New York v. FERC, 535 U.S. 1, 18 (2002) (quoting La. Pub. Serv.
Comm’n v. FCC, 476 U.S. 355, 374 (1986)).
4

12 U.S.C. § 4617(b)(2)(D).

App. 5
enumerated conservator powers don’t vanish in the
glare of the more general ones. Congress created
FHFA amid a dire financial calamity, but expedience
does not license omnipotence. The Shareholders
plausibly allege that the Third Amendment exceeded
FHFA’s conservator powers by transferring Fannie and
Freddie’s future value to a single shareholder,
Treasury. In Parts I–VI of this opinion, a majority of
the en banc court holds that this claim survives
dismissal under Federal Rule of Civil Procedure
12(b)(6).
Second, the Shareholders argue that FHFA lacked
authority to adopt the Third Amendment because its
Director was not removable by the President. We
adhere to the panel’s reasoning and conclusion that
FHFA’s design, an independent agency with a single
Director removable only “for cause,” violates the
separation of powers.5 In Parts VII–VIII of this opinion,
a majority of the en banc court holds that the Director’s
“for cause” removal protection is unconstitutional.
The remaining question is what remedy the
Shareholders are entitled to. A different majority of the
en banc court holds that prospective relief is the proper
remedy. In Judge Haynes’s opinion,6 a majority holds
that the Shareholders can only obtain a declaration
that the FHFA’s structure is unconstitutional.

5

6

Id. § 4512(b)(2).

Chief Judge Stewart, Judge Dennis, Judge Owen, Judge
Southwick, Judge Graves, Judge Higginson, Judge Costa, and
Judge Duncan join Judge Haynes’s constitutional remedy opinion.

App. 6
We REVERSE the judgment dismissing Count I and
REMAND that claim for further proceedings. We
AFFIRM the judgment dismissing Counts II and III.
The court REVERSES the judgment as to Count IV and
REMANDS that claim for entry of judgment that the
“for cause” removal limitation in 12 U.S.C. § 4512(b)(2)
is unconstitutional.
I
During last decade’s housing-market crisis,
Congress passed and President George W. Bush signed
the Housing and Economic Recovery Act of 2008
(HERA).7 The statute created FHFA as an independent
agency to oversee the Federal National Mortgage
Association (Fannie Mae) and the Federal Home Loan
Mortgage Corporation (Freddie Mac). Fannie and
Freddie are government-sponsored entities (GSEs) that
also have private shareholders, including the plaintiffs
in this case. Some background on FHFA and the GSEs
is useful.8

7

Pub. L. No. 110-289, 122 Stat. 2654 (codified in various sections
of 12 U.S.C.).
8

The facts relevant to Counts I–III (the APA claims) are taken
from the Shareholders’ complaint and are viewed in the light most
favorable to them as the nonmovants. See Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009). The facts relevant to Count IV (the
constitutional claim) are undisputed unless otherwise noted. See
Celotex Corp. v. Catrett, 477 U.S. 317, 323–24 (1986).

App. 7
A
Congress created Fannie Mae in 1938.9 Its purposes
include “provid[ing] stability in the secondary market
for residential mortgages,” “increasing the liquidity of
mortgage investments,” and “promot[ing] access to
mortgage credit throughout the Nation.”10 Congress
created Freddie Mac in 1970 to “increase the
availability of mortgage credit for the financing of
urgently needed housing.”11 Among other activities,
Fannie and Freddie purchase mortgages originated by
private banks, bundle the mortgages into incomeproducing securities, and sell the securities to
investors.
In 2007, mortgage delinquencies and defaults
sparked a bank liquidity crisis that kindled a recession.
At the time, Fannie and Freddie controlled combined
mortgage portfolios of approximately $5
trillion—nearly half the United States mortgage
market. They suffered multi-billion dollar losses.
Indeed, the GSEs lost more in 2008 ($108 billion) than
they had earned in the previous thirty-seven years
combined ($95 billion).12 But they remained solvent

9

National Housing Act Amendments of 1938, Pub. L. No. 75-424,
52 Stat. 8, 23.
10

12 U.S.C. §§ 1716, 1717.

11

Federal Home Loan Mortgage Corporation Act, Pub. L. No. 91351, preamble, 84 Stat. 450.
12

Office of Inspector General (OIG), FHFA, Analysis of the 2012
Amendments to the Senior Preferred Stock Purchase Agreements 5

App. 8
because they had taken a relatively conservative
mortgage-investing approach. They continued to
support the United States home-mortgage system as
distressed banks failed.
In 2008, the President signed HERA into law to
protect the national economy from further losses.
HERA established FHFA as an “independent agency of
the Federal Government” and classified Fannie and
Freddie as “regulated entit[ies]” under FHFA.13
B
A single Director leads FHFA.14 He is “appointed by
the President, by and with the advice and consent of
the Senate.”15 The Director serves a term of five years,
“unless removed before the end of such term for cause
by the President.”16 The Director designates three
Deputy Directors.17 In case of a vacancy in the Director
office, “the President shall designate [one of the Deputy

(Mar. 20, 2013), https://www.fhfaoig.gov/Content/Files/WPR-2013002_2.pdf.
13

12 U.S.C. § 4511(a), (b).

14

Id. § 4512(a).

15

Id. § 4512(b)(1).

16

Id. § 4512(b)(2).

17

Id. § 4512(c)–(e) (providing for Deputy Director of the Division of
Enterprise Regulation, Deputy Director of the Division of Federal
Home Loan Bank Regulation, and Deputy Director for Housing
Mission and Goals).

App. 9
Directors] to serve as acting Director until the return
of the Director, or the appointment of a successor.”18
Other features strengthen FHFA’s independence. It
runs on annual assessments collected from the GSEs,
not public or appropriated money.19 It is “advise[d]” by
the Federal Housing Finance Oversight Board: the
Secretary of the Treasury, the Secretary of Housing
and Urban Development, the Chairman of the
Securities and Exchange Commission, and the FHFA
Director.20 But the Board’s power is Lilliputian. It “may
not exercise any executive authority, and the Director
may not delegate to the Board any of the functions,
powers, or duties of the Director.”21
FHFA regulates normal GSE operations. The
Director must issue regulations, guidelines, or orders
necessary to oversee the GSEs and ensure their sound
operations.22 FHFA also has enforcement authority.
The Director may bring charges against a GSE for
unsound practices or violating the law.23 He may issue

18

Id. § 4512(f).

19

Id. § 4516.

20

Id. § 4513a(a)–(c).

21

Id. § 4513a(b).

22

Id. § 4526(a); see id. § 4513.

23

Id. § 4631(a)(1).

App. 10
cease-and-desist orders, require the GSE to remedy any
violations, and impose penalties.24
C
FHFA is not just a regulator. Under 12 U.S.C.
§ 4617 it may serve as conservator or receiver for the
GSEs. FHFA has discretion to appoint itself
conservator or receiver in some cases, and receivership
is mandatory in other critical insolvency situations.25
Conservatorship and receivership are mutually
exclusive: Appointing FHFA as receiver “shall
immediately terminate any conservatorship established
for the regulated entity under this chapter.”26
D
Section 4617 next provides FHFA’s general powers
as conservator or receiver. In either role, FHFA is a
successor to the GSE:
The Agency shall, as conservator or receiver, and
by operation of law, immediately succeed to—
(i) all rights, titles, powers, and privileges of the
regulated entity, and of any stockholder, officer,
or director of such regulated entity with respect

24

Id. § 4631(c); see id. §§ 4632(e), 4635, 4636, 4641.

25

Id. § 4617(a)(3) (discretionary appointment), (a)(4) (mandatory
receivership).
26

Id. § 4617(a)(4)(D).

App. 11
to the regulated entity and the assets of the
regulated entity . . . .27
Similarly, FHFA in either role may operate the GSE:
The Agency may, as conservator or receiver—
(i) take over the assets of and operate the
regulated entity with all the powers of the
shareholders, the directors, and the officers of
the regulated entity and conduct all business of
the regulated entity;
(ii) collect all obligations and money due the
regulated entity;
(iii) perform all functions of the regulated entity
in the name of the regulated entity which are
consistent with the appointment as conservator
or receiver;
(iv) preserve and conserve the assets and
property of the regulated entity; and
(v) provide by contract for assistance in fulfilling
any function, activity, action, or duty of the
Agency as conservator or receiver.28
And FHFA in either role may exercise incidental
powers to carry out those enumerated:
Incidental powers
The Agency may, as conservator or receiver—
(i) exercise all powers and authorities
specifically granted to conservators or receivers,
respectively, under this section, and such

27

Id. § 4617(b)(2)(A).

28

Id. § 4617(b)(2)(B).

App. 12
incidental powers as shall be necessary to carry
out such powers; and
(ii) take any action authorized by this section,
which the Agency determines is in the best
interests of the regulated entity or the Agency.29
FHFA in either role may also order a shareholder,
director, or officer to perform any function.30 And in
either role it may transfer or sell any GSE asset or
liability without consent.31 FHFA in either role also
benefits from an anti-injunction provision:
Except as provided in this section or at the
request of the Director, no court may take any
action to restrain or affect the exercise of powers
or functions of the Agency as a conservator or a
receiver.32
E
Other powers depend on capacity. Section 4617
grants some powers to FHFA as conservator only:
Powers as conservator
The Agency may, as conservator, take such
action as may be—
(i) necessary to put the regulated entity in a
sound and solvent condition; and

29

Id. § 4617(b)(2)(J).

30

Id. § 4617(b)(2)(C).

31

Id. § 4617(b)(2)(G).

32

Id. § 4617(f).

App. 13
(ii) appropriate to carry on the business of the
regulated entity and preserve and conserve the
assets and property of the regulated entity.33
It grants other powers to FHFA as receiver only:
Additional powers as receiver
In any case in which the Agency is acting as
receiver, the Agency shall place the regulated
entity in liquidation and proceed to realize upon
the assets of the regulated entity in such
manner as the Agency deems appropriate . . . .34
Receivership, then, grants a power and duty to
liquidate the GSE. Unsurprisingly, § 4617 next
provides a regime for the receiver’s orderly processing
of creditor claims.
It is extensive. As receiver FHFA must publish and
mail notice to creditors to present their claims.35 It
generally must allow or disallow a claim within 180
days of filing.36 It must expedite certain secured claims
with potential for irreparable injury.37 It may also
make rules for allowing and disallowing claims.38 And

33

Id. § 4617(b)(2)(D).

34

Id. § 4617(b)(2)(E).

35

Id. § 4617(b)(3)(B)–(C).

36

Id. § 4617(b)(5)(A).

37

Id. § 4617(b)(8).

38

Id. § 4617(b)(4).

App. 14
it must allow proven claims.39 Creditors may
alternatively pursue their claims in U.S. district
court.40 The receivership scheme qualifies the
succession provision by carving out surviving
shareholder and creditor rights:
[T]he appointment of the Agency as receiver . . .
and its succession, by operation of law, to the
rights, titles, powers, and privileges described in
subsection (b)(2)(A) shall terminate all rights
and claims that the stockholders and creditors of
the regulated entity may have against the assets
or charter . . . except for their right to payment,
resolution, or other satisfaction of their claims,
as permitted under subsections (b)(9), (c), and
(e).41
In short, FHFA as receiver must divide the GSEs’
assets between creditors and shareholders according to
law.
F
Congress also amended the GSEs’ charters by
giving Treasury temporary authority to purchase their
securities.42 In connection with any purchase, it
required Treasury to make an “[e]mergency

39

Id. § 4617(b)(5)(B).

40

Id. § 4617(b)(6).

41

Id. § 4617(b)(2)(K).

42

Id. §§ 1455(l)(1) (authority as to Freddie Mac), 1719(g)(1)
(authority as to Fannie Mae).

App. 15
determination” that the purchase would “(i) provide
stability to the financial markets; (ii) prevent
disruptions in the availability of mortgage finance; and
(iii) protect the taxpayer.”43 Congress also prescribed
six mandatory considerations for exercising the
authority, “[t]o protect the taxpayers.”44 The temporary
purchase authority terminated on December 31, 2009,
except for Treasury’s rights under purchases already
made.45
II
In September 2008, FHFA appointed itself a
conservator for the GSEs. The next day, Treasury and
the GSEs entered Preferred Stock Purchase
Agreements. Treasury made a capital commitment,
capped at $100 billion per GSE, to keep them from
defaulting. In return, Treasury received one million
senior preferred shares in each GSE. These shares
entitled Treasury to:
• a $1 billion senior liquidation preference;
• a dollar-for-dollar increase in that preference
each time a GSE drew on the capital
commitment;
• quarterly dividends of either an amount
equal to 10% of the liquidation preference, or

43

Id. §§ 1455(l)(1)(B), 1719(g)(1)(B).

44

Id. §§ 1455(l)(1)(C), 1719(g)(1)(C).

45

Id. §§ 1455(l)(4), 1719(g)(4).

App. 16
a 12% increase in the liquidation preference
itself;
• warrants allowing Treasury to purchase up
to 79.9% of common stock;
• and periodic commitment fees.
The Agreements also prohibited the GSEs from
declaring a dividend or making any other distribution
without Treasury’s consent.
Treasury and FHFA later amended the Agreements.
In May 2009 they adopted the First Amendment:
Treasury agreed to double its funding commitment to
$200 billion per GSE. In December 2009 they adopted
the Second Amendment: Treasury agreed to an
increased, adjustable commitment to account for the
GSEs’ losses. As of August 2012, the GSEs had drawn
approximately $187 billion from Treasury’s funding
commitment. But they lacked the cash to pay 10%
dividends. So in August 2012 FHFA and Treasury
adopted the Third Amendment to the Agreements.
The Third Amendment replaced the quarterly 10%
dividend with variable dividends equal to the GSEs’
entire net worth except a capital reserve. The
Shareholders call this arrangement the “net worth
sweep.” The capital reserve buffer started at $3 billion.
It decreased annually until it reached zero in 2018.
This arrangement was a double-edged sword. The
GSEs no longer struggled to make dividend payments,
but they would also no longer accrue capital. Treasury
also suspended the periodic commitment fees. Treasury
announced that the Third Amendment would “expedite
the wind down of Fannie Mae and Freddie Mac” and

App. 17
ensure that the GSEs “will be wound down and will not
be allowed to retain profits, rebuild capital, and return
to the market in their prior form.”46 A federal official
commented privately that the Third Amendment was
designed to prevent Fannie and Freddie from
recapitalizing.47
The net worth sweep transferred a fortune from
Fannie and Freddie to Treasury. When this suit was
filed, the GSEs had paid $195 billion in dividends
under the net worth sweep. Under the Agreements
more broadly, Treasury had disbursed $187 billion and
recouped $250 billion, thanks largely to the net worth
sweep.
III
The Shareholders sued FHFA, its Director,
Treasury, and its Secretary (the Agencies). They assert
four causes of action, three statutory and one
constitutional:
• In Count I, they allege the Administrative
Procedure Act (APA), 5 U.S.C. § 706(2)(C),
(D), affords relief because FHFA exceeded its
statutory conservator authority under 12
U.S.C. § 4617(b)(2)(D).
• In Count II, they allege the APA, 5 U.S.C.
§ 706(2)(C), (D), affords relief because
46

Compl. ¶ 135 (quoting Press Release, Dep’t of Treasury,
Treasury Department Announces Further Steps to Expedite Wind
Down of Fannie Mae and Freddie Mac (Aug. 17, 2012)).
47

Id. ¶ 107.

App. 18
Treasury exceeded its securities-purchase
authority under 12 U.S.C. §§ 1455(l), 1719(g).
Specifically, they allege that Treasury
purchased securities after the sunset period,
failed to make the required “[e]mergency
determination[s],” and disregarded statutory
“[c]onsiderations.”
• In Count III, they allege the APA, 5 U.S.C.
§ 706(2)(A), affords relief because Treasury’s
adoption of the net worth sweep was
arbitrary and capricious.
• In Count IV, they allege FHFA violates
Article II, §§ 1 and 3 of the Constitution
because, among other things, it is headed by
a single Director removable only for cause.
The Shareholders seek a declaration that the net worth
sweep violates HERA and is arbitrary and capricious;
a declaration that FHFA’s structure violates the
separation of powers; an injunction against Treasury to
return net-worth-sweep dividends (or treat them as
paying down the liquidation preference); vacatur of the
net worth sweep; and an injunction against further
implementation of the net worth sweep.
The Agencies each moved to dismiss all claims
under Federal Rules of Civil Procedure 12(b)(1) and
12(b)(6). And the Shareholders and FHFA both moved
for summary judgment on Count IV, the constitutional
claim. The district court granted the Agencies’ motions
to dismiss Counts I–III based on the anti-injunction
provision. And it granted summary judgment to FHFA
on the merits of Count IV. The Shareholders appealed.

App. 19
A panel of this court affirmed as to the statutory
claims and reversed as to the constitutional claim.48 We
then granted rehearing en banc, vacating the panel
decision.49 Before rehearing en banc, both FHFA and
Treasury admitted the merits of Count IV: FHFA’s
structure violates the separation of powers. But,
several months after rehearing en banc, FHFA
reversed its position again. It now contends that
FHFA’s structure is constitutional. Treasury stands by
its contrary position. And FHFA and Treasury
maintain that for a number of other reasons the
Shareholders are not entitled to relief on Count IV.
IV
The rules governing jurisdiction and our standard
of review are familiar.
Jurisdiction. The district court had jurisdiction
under 28 U.S.C. § 1331. We have jurisdiction under 28
U.S.C. § 1291.
Standard of review. “We review de novo a district
court’s rulings on a motion to dismiss and a motion for
summary judgment, applying the same standard as the
district court.”50 “To survive a motion to dismiss, a
complaint must contain sufficient factual matter,
accepted as true, to ‘state a claim to relief that is
48

Collins v. Mnuchin, 896 F.3d 640 (5th Cir. 2018) (per curiam).

49

Collins v. Mnuchin, 908 F.3d 151 (5th Cir. 2018); 5TH CIR. R.
41.3.
50

TOTAL Gas & Power N. Am., Inc. v. FERC, 859 F.3d 325, 332
(5th Cir. 2017).

App. 20
plausible on its face.’”51 “A claim has facial plausibility
when the plaintiff pleads factual content that allows
the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.”52
Summary judgment is proper if “there is no genuine
dispute as to any material fact and the movant is
entitled to judgment as a matter of law.”53 We may
consider a fact undisputed “[i]f a party . . . fails to
properly address another party’s assertion of fact.”54
V
We begin with Counts I–III, the Shareholders’
statutory claims. Before reaching the merits, we must
decide whether they are justiciable under HERA’s antiinjunction provision and succession provision.
A
HERA’s anti-injunction provision limits court action
against FHFA’s conservator or receiver powers:
Except as provided in this section or at the
request of the Director, no court may take any
action to restrain or affect the exercise of powers

51

Iqbal, 556 U.S. at 678 (quoting Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570 (2007)).
52

Id.

53

FED. R. CIV. P. 56(a).

54

FED. R. CIV. P. 56(e).

App. 21
or functions of the Agency as a conservator or a
receiver.55
To interpret this provision, we consult its plain
meaning and its past judicial interpretations (including
in predecessor statutes).
The Supreme Court instructs that plain meaning
comes first: “Statutory construction must begin with
the language employed by Congress and the
assumption that the ordinary meaning of that language
accurately expresses the legislative purpose.”56 Under
the anti-injunction provision’s plain meaning, we may
not grant any relief that interferes with—“restrain[s]
or affect[s]”— FHFA’s conservator powers. Logically,
then, we may still grant relief against action taken
outside those powers. The anti-injunction provision
deflects claims about how the conservator used its
powers, not claims it exceeded the powers granted. It
distinguishes improperly exercising a power (not
restrainable) from exercising one that was never
authorized (restrainable).
Past judicial interpretations confirm this view.
Congress borrowed much of HERA’s text from the
Financial Institutions Reform, Recovery, and
Enforcement Act of 1989 (FIRREA).57 FIRREA
55

12 U.S.C. § 4617(f).

56

Engine Mfrs. Ass’n v. S. Coast Air Quality Mgmt. Dist., 541 U.S.
246, 252 (2004) (quoting Park ‘N Fly, Inc. v. Dollar Park & Fly,
Inc., 469 U.S. 189, 194 (1985)).
57

Pub. L. No. 101-73, 103 Stat. 183 (codified at 12 U.S.C. § 1811 et
seq.); see Michael Krimminger & Mark A. Calabria, The

App. 22
authorizes the Federal Deposit Insurance Corporation
(FDIC) to act as conservator or receiver for distressed
banks.58 FIRREA’s vintage conservator and receiver
scheme, including the anti-injunction provision, is
materially similar to HERA’s.59 So is one of FIRREA’s
own predecessors, the Financial Institutions
Supervisory Act of 1966 (FISA), which governed
conservatorship and receivership by the Federal
Savings and Loan Insurance Corporation (FSLIC).60 If
FIRREA is HERA’s parent, FISA is a grandparent.
The Supreme Court tells us that those provisions’
judicial interpretations guide our analysis of HERA.
“[W]here, as here, Congress adopts a new law
incorporating sections of a prior law, Congress
normally can be presumed to have had knowledge of
the interpretation given to the incorporated law, at
Conservatorships of Fannie Mae and Freddie Mac: Actions Violate
HERA and Established Insolvency Principles 19 (Cato Inst.,
Working Paper No. 26, 2015) (“Staff quite literally ‘marked-up’
Sections 11 and 13 of the [Federal Deposit Insurance Act (FDIA),
a FIRREA predecessor] as the base text for HERA.”).
58

12 U.S.C. § 1821(c).

59

Compare 12 U.S.C. § 4617(f) (HERA), with id. § 1821(j)
(FIRREA) (“Except as provided in this section, no court may take
any action, except at the request of the Board of Directors by
regulation or order, to restrain or affect the exercise of powers or
functions of the Corporation as a conservator or a receiver.”).
60

Pub. L. No. 89-695, 80 Stat. 1028, 1033 (“Except as otherwise
provided in this subsection, no court may take any action for or
toward the removal of any conservator or receiver, or, except at the
instance of the Board, restrain or affect the exercise of powers or
functions of a conservator or receiver.”).

App. 23
least insofar as it affects the new statute.”61 “And when
‘judicial interpretations have settled the meaning of an
existing statutory provision, repetition of the same
language in a new statute indicates, as a general
matter, the intent to incorporate its judicial
interpretations as well.’”62
The Supreme Court interpreted FISA’s antiinjunction provision in Coit.63 It held the provision did
not strip federal jurisdiction over claims in a FSLIC
receivership.64 Rather, it “simply prohibit[ed] courts
from restraining or affecting . . . those receivership
‘powers and functions’ that have been granted by other
statutory sources.”65 So the anti-injunction provision
didn’t affect whether a particular power existed in the
first place.66
We have applied Coit to FIRREA’s anti-injunction
provision. In Onion we held that the provision
prevented a federal court from stopping conservator’s

61

Lorillard v. Pons, 434 U.S. 575, 581 (1978).

62

Merrill Lynch, Pierce, Fenner & Smith Inc. v. Dabit, 547 U.S. 71,
85 (2006) (ellipsis omitted) (quoting Bragdon v. Abbott, 524 U.S.
624, 645 (1998)).
63

Coit Indep. Joint Venture v. FSLIC, 489 U.S. 561, 574–77 (1989)
(interpreting FISA, 80 Stat. 1033).
64

Id.

65

Id. at 574.

66

Id. (“[T]his language does not add adjudication of creditor claims
to FSLIC’s receivership powers.”).

App. 24
foreclosure and sale.67 In Ward, relying on Onion, we
held that the anti-injunction provision stopped a
federal court from rescinding a receiver’s sale.68 We
elaborated that there is a “difference between the
exercise of a function or power that is clearly outside
the statutory authority of the RTC on the one hand,
and improperly or even unlawfully exercising a
function or power that is clearly authorized by statute
on the other.”69
Ward is the anti-injunction provision’s strongest
expression. We declined to review even whether the
receiver breached its express statutory duty to
maximize the property’s value.70 But we did so based on
the understanding that, even if the receiver sold the
property for inadequate value, it had “improperly or
unlawfully exercised an authorized power or function,”
not “engage[d] in an activity outside its statutory
powers.”71 Ward’s facts are different from this case. In
Ward, selling low instead of high was an improper use
of the receiver’s power to liquidate assets. But here,
FHFA as conservator essentially liquidated assets

67

281-300 Joint Venture v. Onion, 938 F.2d 35, 39 (5th Cir. 1991)
(citing Coit, 489 U.S. at 574).
68

Ward v. RTC, 996 F.2d 99, 103 (5th Cir. 1993).

69

Id.; see also Carney v. RTC, 19 F.3d 950, 956 (5th Cir. 1994)
(holding that FIRREA anti-injunction provision deprived court of
jurisdiction because RTC’s action was within statutory powers).
70

Ward, 996 F.2d at 103.

71

Id.

App. 25
without ever being appointed receiver. Improperly
exercising a power is not restrainable, but exercising
one beyond statutory authority is.
Other circuits follow the same interpretation. Even
our sister courts that rejected claims like Counts I–III
acknowledge the same rule: “Section 4617(f) will not
protect the Agency if it acts either ultra vires or in
some third capacity” besides conservator or receiver.72
So have circuits deciding unrelated cases against
FHFA. To quote the Ninth Circuit, “the anti-judicial
review provision is inapplicable when FHFA acts
beyond the scope of its conservator power.”73 And the
Eleventh Circuit holds that “[t]he FHFA cannot evade
judicial scrutiny by merely labeling its actions with a
conservator stamp.”74
The provision’s plain meaning, FIRREA precedent,
and HERA precedent show that we may grant relief if
FHFA exceeded its statutory powers. The Agencies

72

Roberts v. FHFA, 889 F.3d 397, 402 (7th Cir. 2018); see Jacobs
v. FHFA, 908 F.3d 884, 889 (3rd Cir. 2018) (“Section 4617(f) bars
claims when 1) the government acts as a conservator, 2) it does not
exceed its statutory authority, and 3) the remedy sought would
affect the exercise of that authority.”); Saxton v. FHFA, 901 F.3d
954, 957 (8th Cir. 2018) (“[T]his provision bars only equitable
relief, and only does so if the challenged action is within the
powers given FHFA by HERA.”); Perry Capital LLC v. Mnuchin,
864 F.3d 591, 606 (D.C. Cir. 2017) (“The plain statutory text draws
a sharp line in the sand against litigative interference . . . with
FHFA’s statutorily permitted actions as conservator or receiver.”).
73

County of Sonoma v. FHFA, 710 F.3d 987, 992 (9th Cir. 2013).

74

Leon County v. FHFA, 700 F.3d 1273, 1278 (11th Cir. 2012).

App. 26
primarily contend that the Third Amendment falls
within the conservatorship powers, 12 U.S.C.
§ 4617(b)(2). As we explain below, that is incorrect, at
least at the pleading stage. But first, we address the
Agencies’ arguments from disconnected provisions.
The Agencies suggest Treasury’s temporary
purchase authority authorized the Third Amendment.75
Congress authorized Treasury to “purchase any
obligations and other securities issued by the [GSEs]
. . . on such terms and conditions . . . and in such
amounts as the Secretary may determine.”76 It also
authorized Treasury “at any time[] [to] exercise any
rights received in connection with such purchases.”77
But these provisions cannot sustain the Agencies’
argument. “Congress . . . does not alter the
fundamental details of a regulatory scheme in vague
terms or ancillary provisions—it does not, one might
say, hide elephants in mouseholes.”78 Authorizing
Treasury to enter an open-ended category of
transactions does not override the elaborate powers
scheme in FHFA’s enabling statute.79
The Agencies also contend that Congress ratified
the Third Amendment in the Consolidated
75

See 12 U.S.C. §§ 1455(l)(1)(A), 1719(g)(1)(A).

76

Id. §§ 1455(l)(1)(A), 1719(g)(1)(A).

77

Id. §§ 1455(l)(2)(A), 1719(g)(2)(A).

78

Whitman v. Am. Trucking Ass’ns, 531 U.S. 457, 468 (2001).

79

See id.

App. 27
Appropriations Act of 2016.80 This act restricted
Treasury from disposing of certain shares, specifically
including its rights under the Third Amendment, until
2018.81 The statute’s most favorable reading for
Treasury is that, in directing Treasury to retain its
Third Amendment interest, Congress recognized or
enacted that interest’s lawfulness.82
The Appropriations Act does not support that
reading. In directing Treasury to retain preferred
shares, it speaks to future conduct, not past action. The
Supreme Court has “recognized congressional
acquiescence to administrative interpretations of a
statute in some situations, [but] ha[s] done so with
extreme care.”83 Treasury faces “a difficult task in
overcoming the plain text and import of [HERA]” with

80

Pub. L. No. 114-113, § 702, 129 Stat. 2242, 3024–25 (2015).

81

Id.

82

The statute also included a “Sense of Congress” provision:
It is the Sense of Congress that Congress should pass and
the President should sign into law legislation determining
the future of Fannie Mae and Freddie Mac, and that
notwithstanding the expiration of subsection (b), the
Secretary should not sell, transfer, relinquish, liquidate,
divest, or otherwise dispose of any outstanding shares of
senior preferred stock acquired pursuant to the Senior
Preferred Stock Purchase Agreement until such legislation
is enacted.

Id. § 702(c).
83

Solid Waste Agency of N. Cook Cty. v. U.S. Army Corps of Eng’rs,
531 U.S. 159, 169 (2001).

App. 28
a later enactment.84 Here, the Appropriations Act only
established a going-forward requirement to maintain
the status quo. That is not enough to show that the
Agencies’ past actions accorded with HERA. The
Agencies’ conservatorship theory looms large over
markets and federal conservatorships, so we presume
Congress did not stealthily ratify it in an
appropriations rider—hiding an elephant in a
mousehole.85
It follows that whether the anti-injunction provision
bars relief on Counts I–III depends entirely on whether
the net worth sweep exceeded FHFA’s statutory
conservatorship powers.86
B
The Agencies next invoke HERA’s succession
provision as a defense. When appointed conservator,
FHFA succeeds to certain shareholder rights:
The Agency shall, as conservator or receiver, and
by operation of law, immediately succeed to . . .
all rights, titles, powers, and privileges of the
regulated entity, and of any stockholder, officer,

84

Id. at 170.

85

See Whitman, 531 U.S. at 468 (“Congress, we have held, does not
alter the fundamental details of a regulatory scheme in vague
terms or ancillary provisions—it does not, one might say, hide
elephants in mouseholes.”).
86

See, e.g., Saxton, 901 F.3d at 959 (concluding that anti-injunction
analysis is similar for net-worth-sweep claims against both FHFA
and Treasury).

App. 29
or director of such regulated entity with respect
to the regulated entity and the assets of the
regulated entity . . . .87
The Agencies say that FHFA succeeded to the
Shareholders’ right to bring derivative suits, and
Counts I–III are derivative. Generally speaking, “[t]he
derivative form of action permits an individual
shareholder to bring ‘suit to enforce a corporate cause
of action against officers, directors, and third parties,’”
whereas a direct cause of action belongs to the
shareholder himself.88
Other circuits have held that FHFA succeeded to
derivative claims but not direct.89 They have textual
support: The succession provision transfers
shareholders’ rights “with respect to the regulated
entity and [its] assets.”90 Simultaneously, under a
separate provision, shareholders and creditors retain
“their right to payment, resolution, or other satisfaction
of their claims” in the receivership claim-processing
scheme.91 This means some claims survive the
succession provision. And it makes sense to define
those claims as direct ones. The ordinary meaning of

87

12 U.S.C. § 4617(b)(2)(A).

88

Kamen v. Kemper Fin. Servs., Inc., 500 U.S. 90, 95 (1991)
(quoting Ross v. Bernhard, 396 U.S. 531, 534 (1970)).
89

See Roberts, 889 F.3d at 408; Perry Capital, 864 F.3d at 624.

90

12 U.S.C. § 4617(b)(2)(A).

91

Id. § 4617(b)(2)(K)(i).

App. 30
claims “with respect to” a GSE and its assets does not
include a shareholder’s personal claims. And FIRREA
decisions took a similar view.92
To decide whether Counts I–III are direct or
derivative, we begin with the cause of action. Counts
I–III assert rights under the APA. Under 5 U.S.C.
§ 702, “[a] person suffering legal wrong . . . or adversely
affected or aggrieved by agency action within the
meaning of a relevant statute is entitled to judicial
review.” And under 5 U.S.C. § 706, “[t]he reviewing
court shall . . . hold unlawful and set aside agency
action” that is arbitrary and capricious, exceeds
statutory authority, or is otherwise unlawful.
The APA cause of action is broad. The
“Administrative Procedure Act . . . embodies the basic
presumption of judicial review to one ‘suffering legal
wrong because of agency action, or adversely affected
or aggrieved by agency action within the meaning of a
relevant statute.’”93 “[J]udicial review of a final agency
action by an aggrieved person will not be cut off unless
there is persuasive reason to believe that such was the
purpose of Congress.”94 An APA claim must be
92

Roberts, 889 F.3d at 408 (citing Levin v. Miller, 763 F.3d 667,
669 (7th Cir. 2014); Courtney v. Halleran, 485 F.3d 942, 950 (7th
Cir. 2007)).
93

Abbott Labs. v. Gardner, 387 U.S. 136, 140 (1967) (quoting 5
U.S.C. § 702), abrogated by statute in other part as recognized in
Califano v. Sanders, 430 U.S. 99, 105 (1977).
94

Bowen v. Mich. Acad. of Family Physicians, 476 U.S. 667, 670
(1986) (quoting Abbott Labs., 387 U.S. at 140); see Barlow v.
Collins, 397 U.S. 159, 166 (1970) (“[P]reclusion of judicial review

App. 31
justiciable under Article III, but otherwise who may
sue is in Congress’s hands.95 Congress has granted an
APA claim to any party that alleges “the challenged
action had caused them ‘injury in fact,’ and . . . the
alleged injury was to an interest ‘arguably within the
zone of interests to be protected or regulated’ by the
statutes that the agencies were claimed to have
violated.”96
“Whether a plaintiff comes within the zone of
interests . . . requires us to determine, using traditional
tools of statutory interpretation, whether a legislatively
conferred cause of action encompasses a particular
plaintiff’s claim.”97 The Supreme Court once considered
the zone of interests a matter of “prudential standing,”
but now calls it one of statutory interpretation.98 The
of administrative action adjudicating private rights is not lightly
to be inferred. Indeed, judicial review of such administrative action
is the rule, and nonreviewability an exception which must be
demonstrated.” (citations omitted)).
95

Sierra Club v. Morton, 405 U.S. 727, 732 n.3 (1972).

96

Id. at 733 (quoting Ass’n of Data Processing Serv. Orgs., Inc. v.
Camp, 397 U.S. 150, 153 (1970)); see Bennett v. Spear, 520 U.S.
154, 175 (1997) (“In determining whether the petitioners have
standing under the zone-of-interests test to bring their APA
claims, we look . . . to the substantive provisions of the
[Endangered Species Act of 1973], the alleged violations of which
serve as the gravamen of the complaint.”).
97

Lexmark Int’l, Inc. v. Static Control Components, Inc., 572 U.S.
118, 127 (2014) (internal quotation marks omitted).
98

Id. (applying zone-of-interests test and disapproving “prudential
standing” label); see Bank of Am. Corp. v. City of Miami, 137 S. Ct.

App. 32
Court “ha[s] said, in the APA context that the test is
not ‘especially demanding.’”99 It has “conspicuously
included the word ‘arguably’ in the test to indicate that
the benefit of any doubt goes to the plaintiff.”100 “[T]he
test ‘forecloses suit only when a plaintiff’s interests are
so marginally related to or inconsistent with the
purposes implicit in the statute that it cannot
reasonably be assumed that’ Congress authorized that
plaintiff to sue.”101 The zone of interests “is to be
determined not by reference to the overall purpose of
the Act in question . . . but by reference to the
particular provision of law upon which the plaintiff
relies.”102
Count I, to the extent it has merit, is a direct claim.
The Shareholders suffered injury in fact—they were
excluded from the GSEs’ profits. And they are within
the zone of interests HERA protects. Count I alleges
that FHFA violated 12 U.S.C. § 4617(b)(2)(D)—the
grant of conservator powers. The Shareholders’
economic value is “arguably within the zone of

1296, 1302 (2017) (“In Lexmark, we said that the label ‘prudential
standing’ was misleading, for the requirement at issue is in reality
tied to a particular statute.”).
99

Id. at 130 (quoting Match–E–Be–Nash–She–Wish Band of
Pottawatomi Indians v. Patchak, 567 U.S. 209, 225 (2012)).
100

Id. (quoting Patchak, 567 U.S. at 225).

101

Id. (quoting Patchak, 567 U.S. at 225).

102

Bennett, 520 U.S. at 175–76.

App. 33
interests” for this provision.103 It is axiomatic that
shareholders are the residual claimants of a firm’s
value.104 They are among the first beneficiaries of the
“sound and solvent condition” that a conservator is
empowered to pursue.105 And they ordinarily have a
claim on the “assets and property” that a conservator
is empowered to “preserve and conserve.”106 For
example, in James Madison, the D.C. Circuit held a
bank shareholder could challenge the FDIC’s
appointment as the bank’s receiver under FIRREA.107
Plus, HERA elsewhere states that the succession
provision does not extinguish the Shareholders’ right to
pursue their claims in receivership.108 This matters
because Count I essentially alleges that an improper
conservatorship preempted rights that could have been
103

City of Miami, 137 S. Ct. at 1303.

104

Cf. FDIC v. Morley, 867 F.2d 1381, 1391 (11th Cir. 1989)
(stating that “Congress enacted the [Federal Deposit Insurance
Act, a FIRREA precedessor] to protect depositors and bank
shareholders”).
105

12 U.S.C. § 4617(b)(2)(D); see Compl. ¶¶ 35–37, 44, 109, 114,
142–43 (alleging Shareholders’ holdings, accompanying rights, and
effect of net worth sweep).
106

12 U.S.C. § 4617(b)(2)(D); see Compl. ¶ 114 (“The effect of the
Net Worth Sweep is . . . to immediately nullify the rights of private
shareholders to any return of their principal or any return on their
principal (i.e., in the form of dividends).”).
107

James Madison Ltd. ex rel Hecht v. Ludwig, 82 F.3d 1085, 1094
(D.C. Cir. 1996).
108

12 U.S.C. § 4617(b)(2)(K)(i).

App. 34
redeemed in receivership.109 Because the Shareholders
are within the zone of interests protected by HERA’s
enumeration of conservator powers, they have a direct
claim.
And the prudential shareholder-standing rule does
not change this analysis. The rule is “a strand of the
standing doctrine that prohibits litigants from suing to
enforce the rights of third parties.”110 But for APA
claims, “Congress itself has pared back traditional
prudential limitations.”111 The APA does not abolish
the shareholder-standing doctrine. But it limits it in
some cases. James Madison is one example, because
the court held it had jurisdiction to review the
shareholder’s APA action against appointment of a
receiver.112 The Supreme Court decisions City of Miami
and Lexmark also support this point: For very broad
statutory rights like the APA, an injury in fact and
inclusion in the zone of interests can add up to a right

109

See, e.g., Compl. ¶¶ 7 (“Indeed, a receivership that liquidates
the Companies would have more economic value to the private
shareholders than the conservatorship as it was structured and
operated in practice.”), 56 (alleging no regulator before has
imposed conservatorship on healthy company while
“simultaneously avoiding the organized claims process of a
receivership”).
110

Nocula v. UGS Corp., 520 F.3d 719, 726 (7th Cir. 2008).

111

FAIC Secs., Inc. v. United States, 768 F.2d 352, 357 (D.C. Cir.
1985) (Scalia, J.).
112

82 F.3d at 1094.

App. 35
of action, even if prudential standing limits would have
blocked it.113 That is the case here.
In so holding, we do not say that there is no
direct–derivative distinction for APA claims. Nor is it
true that any shareholder may obtain review of agency
action affecting his holdings. In Thompson v. North
American Stainless, LP, the Supreme Court rejected
the “absurd” proposition that shareholders could sue
under Title VII employment protections. 114
Shareholders are not within Title VII’s zone of interests
because “the purpose of Title VII is to protect
employees from their employers’ unlawful actions.”115
But a corporate reorganization statute is a different
animal. Shareholders may be within its zone of
interests, and here they are.116
113

See City of Miami, 137 S. Ct. at 1302 (“This Court has also
referred to a plaintiff’s need to satisfy ‘prudential’ or ‘statutory’
standing requirements. In Lexmark, we said that the label
‘prudential standing’ was misleading, for the requirement at issue
is in reality tied to a particular statute. The question is whether
the statute grants the plaintiff the cause of action that he asserts.”
(citations omitted)); Lexmark, 572 U.S. at 128 (“Just as a court
cannot apply its independent policy judgment to recognize a cause
of action that Congress has denied, it cannot limit a cause of action
that Congress has created merely because ‘prudence’ dictates.”
(citation omitted)).
114

562 U.S. 170, 176–77 (2011).

115

Id. at 178.

116

See James Madison, 82 F.3d at 1092–94 (“[R]equiring
stockholders of wrongfully seized national banks to wait on the
sidelines while the FDIC liquidates their institutions conflicts with
Congress’s apparent desire . . . that seized institutions act quickly

App. 36
Counts II and III, however, are not within the
asserted statutes’ zone of interests. In Count II the
Shareholders allege that Treasury violated 12 U.S.C.
§§ 1455(l), 1719(g), which granted it authority to
purchase securities in the GSEs. They say the net
worth sweep effectively purchased securities after
these provisions’ 2009 sunset and otherwise exceeded
the purchase authority.117 In Count III they allege that
Treasury acted arbitrarily and capriciously under those
same sections because it never made the requisite
“[e]mergency determination.”118
Congress granted this purchase authority to protect
markets, consumers, and taxpayers, not GSE
stakeholders. The emergency determination asks
whether a purchase will stabilize markets, prevent
disruptions in mortgage finance, and protect
taxpayers. 119 And the statutes’ mandatory
“[c]onsiderations” are likewise public-oriented:
Treasury must consider the GSEs’ condition, and any

in challenging the FDIC’s appointment.”); Morley, 867 F.2d at 1391
(“Congress enacted the FDIA [a FIRREA predecessor] to protect
depositors and bank shareholders . . . .”).
117

See 12 U.S.C. §§ 1455(l)(4) (providing that purchase authority
“shall expire December 31, 2009”), 1719(g)(4) (same).
118

Id. §§ 1455(l)(1)(B) (“In connection with any use of this
authority, the Secretary must determine that such actions are
necessary to—(i) provide stability to the financial markets;
(ii) prevent disruptions in the availability of mortgage finance; and
(iii) protect the taxpayer.”), 1719(g)(1)(B) (same).
119

Id. §§ 1455(l)(1)(B), 1719(g)(1)(B).

App. 37
transaction’s structure, “[t]o protect the taxpayers.”120
So we agree with the district court, though for a
different reason, that Counts II and III must be
dismissed.
VI
We now consider Count I’s substantive allegation
that the net worth sweep exceeded FHFA’s conservator
powers. Like any federal agency, FHFA “literally has
no power to act . . . unless and until Congress confers
power upon it.”121 This principle is enshrined in statute:
“The reviewing court shall . . . hold unlawful and set
aside agency action, findings, and conclusions found to
be . . . in excess of statutory jurisdiction, authority, or
limitations . . . .”122 It is recognized in prominent
Supreme Court decisions and implicit in countless
others.123 The warning that “[i]f we are to continue a

120

Id. §§ 1455(l)(1)(C), 1719(g)(1)(C).

121

New York v. FERC, 535 U.S. at 18 (quoting La. Pub. Serv.
Comm’n, 476 U.S. at 374).
122

123

5 U.S.C. § 706.

See, e.g., Maislin Indus., U.S., Inc. v. Primary Steel, Inc., 497
U.S. 116, 134–35 (1990) (holding that agency “does not have the
power to adopt a policy that directly conflicts with its governing
statute”); La. Pub. Serv. Comm’n, 476 U.S. at 374 (holding that “a
federal agency may pre-empt state law only when and if it is acting
within the scope of its congressionally delegated authority”).

App. 38
government of limited powers, these agencies must
themselves be regulated” remains as fresh as ever.124
A
To define FHFA’s statutory authority, we “follow
the cardinal rule that a statute is to be read as a whole,
since the meaning of statutory language, plain or not,
depends on context.”125 Emphasis on isolated provisions
at the expense of other, more applicable ones is
“hyperliteral and contrary to common sense.”126 As
Learned Hand explained, “[w]ords are not pebbles in
alien juxtaposition; they have only a communal
existence.”127 Our analysis proceeds in three parts:
HERA’s plain meaning, its past judicial interpretations
(including FIRREA precedent), and insight from
common-law conservatorship.
1
Under HERA’s plain meaning, FHFA as conservator
has limited, enumerated powers. To begin with,
conservator and receiver are distinct and mutually
124

Felix Frankfurter, The Growth of American Administrative
Law, 37 HARV. L. REV. 638, 639 (1924) (book review) (quoting Elihu
Root, Address of the President, 41 AM. BAR ASS’N REP. 356–69
(1916)).
125

King v. St. Vincent’s Hosp., 502 U.S. 215, 221 (1991) (citation
omitted).
126

RadLAX Gateway Hotel, LLC v. Amalgamated Bank, 566 U.S.
639, 645 (2012).
127

NLRB v. Federbush Co., 121 F.2d 954, 957 (2d Cir. 1941)
(quoted in King, 502 U.S. at 221).

App. 39
exclusive roles. HERA says FHFA may “be appointed
as conservator or receiver for the purpose of
reorganizing, rehabilitating, or winding up the affairs
of a regulated entity.”128 In ordinary use, the word “or”
is “almost always disjunctive, that is, the words it
connects are to be given separate meanings.”129 So
FHFA may not occupy both roles simultaneously. To
the same point, “[t]he appointment of the Agency as
receiver . . . shall immediately terminate any
conservatorship.”130 Similarly, the incidental powers
provision authorizes FHFA to “exercise all powers and
authorities specifically granted to conservators or
receivers, respectively, under this section, and such
incidental powers as shall be necessary to carry out
such powers.”131 In short, the FHFA Director may
appoint the agency as either conservator or receiver,
but once he does so, FHFA’s powers depend on the role.
Some powers do overlap. HERA grants general
powers to FHFA as either conservator or receiver. In
either capacity, FHFA is a successor to the GSE.132 It
succeeds to the GSE’s and its stakeholders’ “rights,
titles, powers, and privileges . . . with respect to the

128

12 U.S.C. § 4617(a)(2) (emphasis added).

129

Loughrin v. United States, 573 U.S. 351, 357 (2014) (quoting
United States v. Woods, 571 U.S. 31, 45 (2013)).
130

12 U.S.C. § 4617(a)(4)(D).

131

Id. § 4617(b)(2)(J) (emphasis added).

132

Id. § 4617(b)(2)(A).

App. 40
regulated entity and [its] assets.”133 Similarly, FHFA in
either capacity has power to operate the GSE.134 This
includes taking over its assets, operating its business,
collecting obligations, performing its functions,
preserving and conserving its assets and property, and
entering contracts.135 The list goes on: In either role
FHFA may transfer assets or liabilities136; cause other
stakeholders to perform functions137; pay obligations138;
issue subpoenas139; and exercise incidental powers.140
But that list has an end. Other powers depend on
which role FHFA occupies. The statute enumerates
FHFA’s separate “[p]owers as conservator”:
The Agency may, as conservator, take such
action as may be—(i) necessary to put the
regulated entity in a sound and solvent
condition; and (ii) appropriate to carry on the
business of the regulated entity and preserve

133

Id. § 4617(b)(2)(A)(i).

134

Id. § 4617(b)(2)(B).

135

Id.

136

Id. § 4617(b)(2)(G).

137

Id. § 4617(b)(2)(C).

138

Id. § 4617(b)(2)(H).

139

Id. § 4617(b)(2)(I).

140

Id. § 4617(b)(2)(J).

App. 41
and conserve the assets and property of the
regulated entity.141
Then it enumerates “[a]dditional powers as receiver”:
“In any case in which the Agency is acting as
receiver, the Agency shall place the regulated
entity in liquidation and proceed to realize upon
the assets of the regulated entity in such
manner as the Agency deems appropriate,
including through the sale of assets . . . .”142
The receiver powers also include organizing a successor
enterprise143 and administering a detailed claimprocessing scheme.144
The receiver powers stand in contrast to the
conservator powers. As receiver, FHFA gains the power
to liquidate the GSE and realize on its assets.145 It also
gains the power to notice, review, and determine
creditors’ claims.146 A conservator does not have these
powers. If it did, a conservator could liquidate the
GSE’s assets without following HERA’s detailed claimprocessing scheme.

141

Id. § 4617(b)(2)(D).

142

Id. § 4617(b)(2)(E).

143

Id. § 4617(b)(2)(F).

144

Id. § 4617(b)(3), (b)(4), (b)(5), (b)(7), (b)(8), (b)(9).

145

Id. § 4617(b)(2)(E).

146

Id. § 4617(b)(3), (b)(4), (b)(5), (b)(7), (b)(8), (b)(9).

App. 42
The Agencies contend that the general powers to
“operate the regulated entity” and “conduct all [its]
business,”147 or “transfer or sell any asset or liability of
the regulated entity in default,”148 authorize the net
worth sweep. But if read so broadly, these provisions
would obliterate the receivership claim-processing
duties. If a conservator or receiver may enter any
transaction as part of “operat[ing]” the GSE and
“conduct[ing]” its business,149 there is no bar to
circumventing HERA’s creditor and shareholder
protections.
That would raze the receiver’s duties to notice and
adjudicate claims.150 It would also be inconsistent with
creditors’ and shareholders’ right to have their claims
paid in receivership.151 So it cannot be a correct
reading. “In construing a statute we are obliged to give
effect, if possible, to every word Congress used.”152 And
“the canon against surplusage is strongest when an

147

Id. § 4617(b)(2)(B)(i).

148

Id. § 4617(b)(2)(G).

149

Id. § 4617(b)(2)(B)(i).

150

Id. § 4617(b)(3), (b)(4), (b)(5), (b)(7), (b)(8), (b)(9).

151

Id. § 4617(b)(2)(K)(i).

152

Reiter v. Sonotone Corp., 442 U.S. 330, 339 (1979); see ANTONIN
SCALIA & BRYAN A. GARNER, READING LAW: THE INTERPRETATION
OF LEGAL TEXTS 176 (2012).

App. 43
interpretation would render superfluous another part
of the same statutory scheme.”153
Rather than give the general powers their broadest
possible meaning, we give them a meaning consistent
with the separate conservator and receiver powers. A
coherent interpretation of these provisions is not just
reasonable, it is mandatory. In RadLAX, the Supreme
Court held that when “a general authorization and a
more limited, specific authorization exist side-by-side”
in the same statute, “the particular enactment must be
operative, and the general enactment must be taken to
affect only such cases within its general language as
are not within the provisions of the particular
enactment.”154 In this situation “[t]he general/specific
canon . . . avoids not contradiction but the superfluity
of a specific provision that is swallowed by the general
one.”155 Other Supreme Court authority similarly
warns against applying a general provision at the
expense of more specific ones.156

153

Marx v. Gen. Revenue Corp., 568 U.S. 371, 386 (2013).

154

RadLAX Gateway Hotel, LLC v. Amalgamated Bank, 566 U.S.
639, 645–46 (2012) (quoting United States v. Chase, 135 U.S. 255,
260 (1890)).
155

156

Id. at 645.

See Bloate v. United States, 559 U.S. 196, 207 (2010) (“[G]eneral
language of a statutory provision, although broad enough to
include it, will not be held to apply to a matter specifically dealt
with in another part of the same enactment.” (quoting D. Ginsberg
& Sons, Inc. v. Popkin, 285 U.S. 204, 208 (1932))).

App. 44
Applying this to HERA, § 4617(b)(2)(D) enumerates
the conservator’s specific powers to “put the regulated
entity in a sound and solvent condition,” “carry on [its]
business,” and “preserve and conserve” its assets. The
shared conservator-receiver powers are more general
and would swallow the rest of the statute if interpreted
broadly. So the more “particular enactment must be
operative.”157 “[M]ay means may” and “‘may’ is, of
course, ‘permissive rather than obligatory.’”158 But here
“may” is a grant of power that enables FHFA to act.
FHFA as conservator may not exercise a power beyond
the ones granted.159
The incidental-powers provision does not change
this. It gives FHFA other powers “necessary to carry
out” its enumerated ones.160 We doubt that Congress
“in fashioning this intricate . . . machinery, would thus
hang one of the main gears on the tail pipe.”161
Including near-unlimited conservatorship powers in
this provision would swallow a large chunk of HERA.
And incidental powers are those “necessary to carry
out” the powers granted to “conservators or receivers,
157

RadLAX, 566 U.S. at 646 (quoting Chase, 135 U.S. at 260).

158

Perry Capital, 864 F.3d at 607 (first quoting U.S. Sugar Corp.
v. EPA, 830 F.3d 579, 608 (D.C. Cir. 2016); then quoting Baptist
Mem’l Hosp. v. Sebelius, 603 F.3d 57, 63 (D.C. Cir. 2010)).
159

E.g., La. Pub. Serv. Comm’n, 476 U.S. at 374 (“[A]n agency
literally has no power to act . . . unless and until Congress confers
power upon it.”).
160

12 U.S.C. § 4617(b)(2)(J).

161

Brannan v. Stark, 342 U.S. 451, 463 (1952).

App. 45
respectively.”162 This links incidental powers to
enumerated ones and recognizes the conservatorreceiver distinction. In short, any exercise of an
incidental power must serve an enumerated power.163
Beyond limited powers to “preserve and conserve” the
GSEs’ assets and property, FHFA would lack any
intelligible principle to guide its discretion as
conservator. This would permit essentially any action
that could be characterized as “reorganizing” the GSEs
and would eviscerate many pages of 12 U.S.C. § 4617.
The best-interests clause is also consistent with this
reading. That clause, within the incidental-powers
provision, authorizes FHFA to “take any action
authorized by this section, which the Agency
determines is in the best interests of the regulated
entity or the Agency.”164 Permitting the conservator to
act in its own interest may appear to depart from the
traditional view of a conservator as fiduciary. But the
best-interests clause modifies FHFA’s authority “as
conservator or receiver,”165 and it only affects actions
that are otherwise “authorized by this section.”166 So
FHFA may pursue its own interests only within the
conservator’s enumerated powers. It may not, for

162

12 U.S.C. § 4617(b)(2)(J)(i).

163

Cf. RadLAX, 566 U.S. at 645 (holding that general authority
should not be interpreted to make specific authority superfluous).
164

12 U.S.C. § 4617(b)(2)(J)(ii) (emphasis added).

165

Id. § 4617(b)(2)(J).

166

Id. § 4617(b)(2)(J)(ii).

App. 46
example, wind down a GSE and jettison receivership
protections all in its own best interests. That would not
be “authorized by this section.” Instead, this clause is
a modest addition to traditional conservatorship
powers. It may permit related-party transactions that
would otherwise be inconsistent with fiduciary
duties.167
2
FIRREA decisions also demonstrate the
conservator’s limited, enumerated powers.168 FIRREA’s
conservator-powers provision is materially identical to
HERA’s.169 In McAllister we interpreted that provision
to “state[] explicitly that a conservator only has the
power to take actions necessary to restore a financially
troubled institution to solvency.”170 We are in good
company—the Fourth, Eighth, Ninth, Eleventh, and
D.C. Circuits have articulated similar views.171 Under
167

See Perry Capital, 864 F.3d at 643 (Brown, J., dissenting in
part).
168

Cf. Merrill Lynch, 547 U.S. at 85 (stating that incorporation of
language from existing statute generally incorporates its judicial
interpretations as well); Lorillard, 434 U.S. at 581 (“Congress is
presumed to be aware of an administrative or judicial
interpretation of a statute and to adopt that interpretation when
it re-enacts a statute without change . . . .”).
169

Compare 12 U.S.C. § 4617(b)(2)(D) (HERA), with id.
§ 1821(d)(2)(D) (FIRREA).
170

171

201 F.3d 570, 579 (5th Cir. 2000).

See Elmco Props., Inc. v. Second Nat’l Fed. Sav. Ass’n, 94 F.3d
914, 922 (4th Cir. 1996) (“[A] conservator’s function is to restore

App. 47
FIRREA, a conservator has power to steward the
bank’s assets, not to make every conceivable use of
them.
3
The common-law meaning of “conservator” also
shows it has limited powers. The Supreme Court
recognizes a “settled principle of interpretation that,
absent other indication, Congress intends to
incorporate the well-settled meaning of the commonlaw terms it uses.”172 And “absence of contrary direction
may be taken as satisfaction with widely accepted
definitions, not as a departure from them.”173
the bank’s solvency and preserve its assets.”); James Madison, 82
F.3d at 1090 (“The principal difference between a conservator and
receiver is that a conservator may operate and dispose of a bank
as a going concern, while a receiver has the power to liquidate and
wind up the affairs of an institution.”); Del E. Webb McQueen Dev.
Corp. v. RTC, 69 F.3d 355, 361 (9th Cir. 1995) (“The RTC, as
conservator, operates an institution with the hope that it might
someday be rehabilitated. The RTC, as receiver, liquidates an
institution and distributes its proceeds to creditors according to
the priority rules set out in the regulations.”); RTC v. United Tr.
Fund, Inc., 57 F.3d 1025, 1033 (11th Cir. 1995) (“The conservator’s
mission is to conserve assets which often involves continuing an
ongoing business. The receiver’s mission is to shut a business down
and sell off its assets.”); RTC v. CedarMinn Bldg. Ltd. P’ship, 956
F.2d 1446, 1450 (8th Cir. 1992) (“Had Congress intended RTC’s
status as a conservator or a receiver to be mere artifice, it would
have granted all duties, rights, and powers to the Corporation.”).
172

United States v. Castleman, 572 U.S. 157, 162 (2014) (quoting
Sekhar v. United States, 570 U.S. 729, 732 (2013)).
173

Morissette v. United States, 342 U.S. 246, 263 (1952); see Bond
v. United States, 572 U.S. 844, 861 (2014) (“In settling on a fair

App. 48
There is no shortage of authority for traditional
conservatorship. Well before HERA, or even FIRREA,
the Supreme Court recognized that a conservator has
limited powers and must conserve the ward’s
property.174 Under the Uniform Probate Code, a
“conservator” is a fiduciary held to the same standard
of care as a trustee.175 And according to the
Congressional Research Service, “[a] conservator is
appointed to operate the institution, conserve its
resources, and restore it to viability.”176 Black’s Law
Dictionary defines “conservator” as “[a] guardian,
protector, or preserver . . . the modern equivalent of the
common-law guardian,” and it defines “managing
conservator” as “[a] person appointed by a court to

reading of a statute, it is not unusual to consider the ordinary
meaning of a defined term, particularly when there is dissonance
between that ordinary meaning and the reach of the definition.”).
174

See Deputy v. du Pont, 308 U.S. 488, 496 (1940) (holding that
purchasing stock for executive incentives is not an “expense which
a conservator of an estate . . . would ordinarily incur”); United
States v. Chem. Found., 272 U.S. 1, 10–11 (1926) (holding that
enemy-property custodian “was a mere conservator and was
authorized to sell only to prevent waste”).
175

176

UNIF. PROB. CODE § 5-418(a).

DAVID H. CARPENTER & M. MAUREEN MURPHY, CONG. RES.
SERV., FINANCIAL INSTITUTION INSOLVENCY: FEDERAL AUTHORITY
OVER FANNIE MAE, FREDDIE MAC, AND DEPOSITORY INSTITUTIONS
5 (2008), https://digital.library.unt.edu/ark:/67531/metadc
795484/m1/1/high_res_d/RL34657_2008Sep10.pdf.

App. 49
manage the estate or affairs of someone who is legally
incapable of doing so.”177
Tethering the conservator’s powers to traditional
principles of insolvency is both sound and
indispensable. FHFA’s present Director has explained
that “[a] market economy depends upon predictable
rules to govern competition. These rules must include
. . . predictable and fair standards to allocate losses and
rehabilitate or liquidate a company when it cannot pay
its debts.”178 Considering this need for continuity,
HERA’s conservator powers must be interpreted in
light of both FIRREA decisions and traditional
conservatorship.179 These authorities “reflect a
fundamental difference between the missions of a
conservator, which seeks to reorganize, and a receiver,
which seeks to liquidate.”180
Congress built FIRREA, and later HERA, on this
common-law understanding. Until recently, FHFA
agreed. It told Congress in 2010 that “[t]he purpose of
conservatorship is to preserve and conserve each
company’s assets and property and to put the

177

Conservator, BLACK’S LAW DICTIONARY (11th ed. 2019).

178

Michael Krimminger & Mark A. Calabria, The Conservatorships
of Fannie Mae and Freddie Mac: Actions Violate HERA and
Established Insolvency Principles 8 (Cato Inst., Working Paper No.
26, 2015).
179

See id. at 26–27.

180

Id. at 42.

App. 50
companies in a sound and solvent condition.”181 In
2011, it had a “statutory mission to restore soundness
and solvency to insolvent regulated entities and to
preserve and conserve their assets and property.”182 In
a 2012 regulation, it said “FHFA’s duties as
conservator require the conservation and preservation
of the Enterprises’ assets. . . . [A]ny goal-setting must
be closely linked to putting the Enterprises in sound
and solvent condition.”183 These contemporary
statements align with the traditional understanding of
conservatorship.
Congress did not repudiate common-law
conservatorship in FIRREA or HERA. Instead, it
consistently authorized the FDIC and then FHFA to
put entities in a “sound and solvent condition,” “carry
on th[eir] business,” and “preserve and conserve th[eir]
assets and property.”184 Neither HERA’s general
powers, implied powers, nor right to act in FHFA’s own
best interest is the kind of “contrary direction” that

181

Fed. Hous. Fin. Agency, Report to Congress: 2009, at i (May 25,
2010), https://www.fhfa.gov/AboutUs/Reports/ReportDocuments/
2009_AnnualReportToCongress_508.pdf.
182

Conservatorship and Receivership, 76 Fed. Reg. 35724, 35726
(June 20, 2011) (emphasis added).
183

2012-2014 Enterprise Housing Goals, 77 Fed. Reg. 67535,
67549–50 (Nov. 13, 2012) (emphasis added); see also Fannie Mae
and Freddie Mac Loan Purchase Limits: Request for Public Input
on Implementation Issues, 78 Fed. Reg. 77450, 77451 (Dec. 23,
2013) (describing authority to “preserve and conserve” GSEs’
assets as “FHFA’s conservator obligation”).
184

12 U.S.C. §§ 4617(b)(2)(D) (HERA), 1821(d)(2)(D) (FIRREA).

App. 51
quells common-l a w conserv atorship. 1 8 5 A
conservatorship of Fannie Mae or Freddie Mac (here,
both) sways an entire industry. Given the potential
effect on markets, firms, and consumers, partial
suggestions are not enough to show that HERA
inverted traditional conservatorship.186 “Conservator”
is an old role’s anchor, not a new role’s banner.187
B
Now to apply this understanding of conservator
powers to the Third Amendment. We hold the
Shareholders stated a plausible claim that the Third
Amendment exceeded statutory authority. Transferring
substantially all capital to Treasury, without
limitation, exceeds FHFA’s powers to put the GSEs in
a “sound and solvent condition,” “carry on the[ir]
business,” and “preserve and conserve [their] assets
and property.”188 We ground this holding in statutory
interpretation, not business judgment.

185

Morissette, 342 U.S. at 263.

186

See FDA v. Brown & Williamson Tobacco Corp., 529 U.S. 120,
160 (2000) (“[W]e are confident that Congress could not have
intended to delegate a decision of such economic and political
significance to an agency in so cryptic a fashion.”).
187

See Castleman, 572 U.S. at 162 (stating that Congress intends
to incorporate settled meaning of common-law terms it uses);
Morissette, 342 U.S. at 263 (holding that Congress, in using term
of art, presumably adopts its legal tradition and meaning).
188

12 U.S.C. § 4617(b)(2)(D).

App. 52
In adopting the net worth sweep, the Agencies
abandoned rehabilitation in favor of “winding down”
the GSEs. Treasury announced that the Third
Amendment would “expedite the wind down of Fannie
Mae and Freddie Mac” and ensure that the GSEs “will
be wound down and will not be allowed to retain
profits, rebuild capital, and return to the market in
their prior form.”189 The FHFA acting Director also said
that the Third Amendment “reinforce[d] the notion that
the [GSEs] will not be building capital as a potential
step to regaining their former corporate status.”190 In a
report to Congress, FHFA explained that it was
“prioritizing [its] actions to move the housing industry
to a new state, one without Fannie Mae and Freddie
Mac.”191 For reasons we are about to explain, this “wind
down” exceeded the conservator’s powers and is the
type of transaction reserved for a receiver.
As a textual matter, the net worth sweep actively
undermined pursuit of a “sound and solvent condition,”
and it did not “preserve and conserve” the GSEs’
assets.192 Treasury has collected $195 billion under the

189

Compl. ¶ 135 (quoting Press Release, Dep’t of Treasury,
Treasury Department Announces Further Steps to Expedite Wind
Down of Fannie Mae and Freddie Mac (Aug. 17, 2012)).
190

Id. ¶ 140 (quoting Edward J. DeMarco, Acting Director, FHFA,
Statement Before the U.S. Sen. Comm. on Banking, Hous., &
Urban Affairs (Apr. 18, 2013)).
191

Id. (quoting FHFA, Report to Congress 2012, at 13 (June 13,
2013)).
192

12 U.S.C. § 4617(b)(2)(D).

App. 53
net worth sweep.193 This alone exceeds the $187 billion
it invested.194 After paying back more than the initial
investment, the GSEs remain on the hook for
Treasury’s entire $189 billion liquidation preference.195
And under the net worth sweep, Treasury has a right
to the GSEs’ net worth in perpetuity.196
FHFA had authority, of course, to pay back
Treasury for the GSEs’ draws on the funding
commitment. The funding commitment provided
liquidity and took on risk, so Treasury was also entitled
to compensation for the cost of financing. But the net
worth sweep continues transferring the GSEs’ net
worth indefinitely, well after Treasury has been repaid
and the GSEs returned to sound condition. That kind
of liquidation goes beyond the conservator’s powers.
FIRREA precedent confirms that this exceeds
statutory conservator powers. In Elmco Properties, the
Fourth Circuit held that a creditor was unlawfully
deprived of its claim because it never received notice of
the receivership.197 The creditor had notice of a
conservatorship. But “the RTC as conservator cannot
. . . liquidate a failed bank. Instead, the conservator’s
193

Compl. ¶¶ 25, 87.

194

Id.

195

The $189 billion figure is $187 billion drawn, plus an initial $1
billion liquidation preference per GSE. Id. ¶¶ 8, 87, 152.
196

197

Id. ¶ 25.

Elmco Props., Inc. v. Second Nat’l Fed. Sav. Ass’n, 94 F.3d 914,
922 (4th Cir. 1996).

App. 54
function is to restore the bank’s solvency and preserve
its assets.”198 Dividing up and distributing the
institution’s property is inconsistent with a
conservator’s powers, so the creditor in Elmco was not
on inquiry notice to pursue its claim.199 To “wind down”
the GSEs’ affairs here, FHFA needed to follow HERA’s
carefully crafted receivership procedures. But FHFA
was never appointed receiver, so it lacked authority to
bleed the GSEs’ profits in perpetuity.
Finally, based on the Shareholders’ allegations, the
net worth sweep is inconsistent with conservatorship’s
common-law meaning. In United States v. Chemical
Foundation, the Supreme Court characterized a
wartime enemy-property custodian as “a mere
conservator” with “the powers of a common-law
trustee.”200 And a common-law conservator may not
give the ward’s assets to a single shareholder, just as a
fiduciary or trustee may not do so.201 Admittedly,
HERA modified the common-law meaning in some
ways, such as by permitting use of enumerated powers

198

Id. (emphasis added).

199

See id.

200

272 U.S. at 10 (interpreting Trading with the Enemy Act of
October 6, 1917, Pub. L. No. 65-91, § 12, 40 Stat. 411, 423 (codified
as amended at 50 U.S.C. § 4312)).
201

See UNIF. PROB. CODE § 5-418(a) (“A conservator . . . is a
fiduciary and shall observe the standards of care applicable to a
trustee.”); Conservator, BLACK’S LAW DICTIONARY (11th ed. 2019)
(defining “conservator” as “[a] guardian, protector, or preserver”).

App. 55
in FHFA’s best interest.202 But in more relevant areas
HERA provided no “contrary direction” against the
common-law meaning:203 It did not authorize a
conservator to “wind down” the ward’s affairs or
perpetually drain its earnings. Under traditional
principles of insolvency, investors and the market
reasonably expect a conservator to “operate,
rehabilitate, reorganize, and restore the health of the
troubled institution,” not summarily take its
property.204 The Third Amendment inverts traditional
conservatorship.
It is worth noting that the facts at this stage are
distinguishable from those in some sister-circuit
decisions. The Shareholders appeal from a dismissal
under Rule 12(b)(6). The complaint alleges facts
showing ultra vires action that were not present in
some other cases. For example, emails suggest that the
Agencies designed the Third Agreement to prevent
Fannie and Freddie from recapitalizing. National
Economic Council advisor Jim Parrott, who worked
with Treasury in developing the net worth sweep,
allegedly wrote: “[W]e’ve closed off [the] possibility that
[Fannie and Freddie] ever[] go (pretend) private

202

12 U.S.C. § 4617(b)(2)(J)(ii); cf. Perry Capital, 864 F.3d at 643
(Brown, J., dissenting in part) (stating limited interpretation of
best-interests clause).
203

204

Morissette, 342 U.S. at 263.

Michael Krimminger & Mark A. Calabria, The Conservatorships
of Fannie Mae and Freddie Mac: Actions Violate HERA and
Established Insolvency Principles 42–43 (Cato Inst., Working
Paper No. 26, 2015).

App. 56
again.”205 Similarly, when Bloomberg published a
comment that “[w]hat the Treasury Department seems
to be doing here, and I think it’s a really good idea, is to
deprive [Fannie and Freddie] of all their capital so that
[they can not go private again],” Parrott emailed the
source: “Good comment in Bloomberg—you are exactly
right on substance and intent.”206 The emails reinforce
that the Third Amendment “deprive[d]” the GSEs of
their capital, keeping them in a permanent state of
suspension, which is not authorized by statutory
conservator powers.207 The pleadings in Jacobs v.
Federal Housing Finance Agency208 and Perry Capital
LLC v. Mnuchin209 appear to lack similar allegations.
That factual difference distinguishes them.
But Saxton v. Federal Housing Finance Agency210
and Roberts v. Federal Housing Finance Agency211 had
facts similar to the Shareholders’ allegations here. So

205

Compl. ¶ 107 (alterations in original).

206

Id.

207

Compl. ¶ 107.

208

908 F.3d 884 (3d Cir. 2018).

209

864 F.3d 591 (D.C. Cir. 2017).

210

901 F.3d 954, 957 (8th Cir. 2018); see Amended Complaint ¶ 92,
Saxton v. FHFA, No. 15–CV–47–LRR (N.D. Iowa Feb. 9, 2016),
ECF No. 61 (alleging similar email communications).
211

889 F.3d 397, 402 (7th Cir. 2018); see Amended Complaint
¶ 106–07, Roberts v. FHFA, No. 1:16-cv-2107 (N.D. Ill. Apr. 5,
2016), ECF No. 22 (alleging similar email communications).

App. 57
we recognize that our decision conflicts with at least
some other circuits. The conflict is whether HERA
authorized FHFA to adopt the Third Amendment. We
think that, in interpreting HERA’s conservatorship and
receivership scheme, FHFA’s general powers should
not render specific ones meaningless. This is especially
true because, although HERA qualifies traditional
conservatorship, it does not eviscerate it. So traditional
principles of insolvency and FIRREA decisions remain
relevant. And they counsel against a near-limitless
view of FHFA’s conservator powers.
The complaint states a plausible claim that FHFA
exceeded its statutory authority. Judge Haynes’s
dissent suggests that the Shareholders could waive the
legal standard for reviewing the grant of a motion to
dismiss. But the Supreme Court explained in Iqbal
that “[t]o survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’”212
The standard is generally applicable, and we see no
exception here. When we reverse the grant of a motion
to dismiss, the district court may decide if fact issues
require trial or if summary judgment should be
granted.213 The proper remedy is to reverse the motion-

212

213

556 U.S. at 678 (quoting Twombly, 550 U.S. at 570).

See Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 250 (1986)
(holding that trial court shall grant a motion for summary
judgment if there is no genuine issue for trial); 5B CHARLES ALAN
WRIGHT & ARTHUR R. MILLER, FEDERAL PRACTICE AND PROCEDURE
§ 1349 (3d ed. 2019) (“These seven defenses [in Rule 12(b)(1)–(7)]
are permitted to be asserted prior to service of a responsive

App. 58
to-dismiss denial and remand Count I for further
proceedings.
VII
We now turn to Count IV, the Shareholders’
constitutional claim. Although the Shareholders could
theoretically obtain full relief under Count I alone, they
appeal from the dismissal of that count, so the parties
have yet to litigate it to judgment. On the
constitutional claim, in contrast, both sides moved for
summary judgment in the district court. So we consider
whether the Shareholders are entitled to some or all of
their requested relief on this record alone. We first
consider Count IV’s justiciability based on standing and
the succession provision.214
A
Federal courts have power to decide “Cases” and
“Controversies.” 2 1 5 “That case-or-controversy
requirement is satisfied only where a plaintiff has
standing.”216 At its “irreducible constitutional
minimum,” standing requires plaintiffs to show they
suffered “an injury in fact,” the injury is “fairly

pleading because they present preliminary or threshold matters
that normally should be adjudicated early in the action.”).
214

For completeness, we note the Agencies do not argue that the
anti-injunction provision prevents relief on Count IV.
215

216

U.S. CONST. art. III, § 2.

Sprint Commc’ns Co., L.P. v. APCC Servs., Inc., 554 U.S. 269,
273 (2008).

App. 59
traceable” to the defendant’s actions, and the injury
will “likely . . . be redressed by a favorable decision.”217
“The party invoking federal jurisdiction bears the
burden of establishing these elements.”218 Here, the
summary-judgment standard applies to jurisdictional
facts.219
The Shareholders suffered injury in fact. The
required injury to challenge agency action is minimal:
The Supreme Court has “allowed important interests
to be vindicated by plaintiffs with no more at stake in
the outcome of an action than a fraction of a vote, a $5
fine and costs, and a $1.50 poll tax.”220 The Agencies
contend that, by the time of the net worth sweep, the
Shareholders had no rights to dividends and their
shares were delisted from the New York Stock
Exchange. But pumping large profits to Treasury
instead of restoring the GSEs’ capital structure is an
injury in fact.221

217

Lujan v. Defenders of Wildlife, 504 U.S. 555, 560–61 (1992)
(alterations and internal quotation marks omitted).
218

Id. at 561.

219

See id.

220

United States v. Students Challenging Regulatory Agency
Procedures (SCRAP), 412 U.S. 669, 689 n.14 (1973) (citations
omitted).
221

See Perry Capital, 864 F.3d at 632 (finding injury in fact
because shareholders alleged that “the Third Amendment, by
depriving them of their right to share in the Companies’ assets
when and if they are liquidated, immediately diminished the value
of their shares”).

App. 60
The Shareholders’ injury is traceable to the removal
protection. The Agencies contend that the President’s
undisputed control over FHFA’s counterparty,
Treasury, shows that a President-controlled FHFA
would have adopted the net worth sweep. But standing
does not require proof that an officer would have acted
differently in the “counterfactual world” where he was
properly authorized.222 In Free Enterprise Fund, the
Supreme Court explained that “the separation of
powers does not depend on the views of individual
Presidents, nor on whether ‘the encroached-upon
branch approves the encroachment.’”223 And in Bowsher
v. Synar, the Court said that “[t]he separated powers of
our Government cannot be permitted to turn on judicial
assessment of whether an officer exercising executive
power is” likely to be fired.224 The Shareholders observe
that FHFA’s status as an “independent” counterparty
could actually have boosted the Third Amendment’s
political salability. Fortunately, under Synar and Free
Enterprise Fund, we need not weigh in on that
counterfactual.

222

Free Enter. Fund v. Pub. Co. Accounting Oversight Bd., 561 U.S.
477, 512 n.12 (2010).
223

Id. at 497 (citations omitted) (quoting New York v. United
States, 505 U.S. 144, 182 (1992)).
224

478 U.S. 714, 730 (1986); see also Landry v. FDIC, 204 F.3d
1125, 1131 (D.C. Cir. 2000) (“There is certainly no rule that a party
claiming constitutional error in the vesting of authority must show
a direct causal link between the error and the authority’s adverse
decision . . . . Bowsher v. Synar extended this principle to general
separation-of-powers claims.” (citation omitted)).

App. 61
And the relief sought would redress the
Shareholders’ injury. The Agencies contend that
vacating past agency action is improper in a removal
case and in this case particularly. But the form of
injunctive or declaratory relief is a merits question.225
The Shareholders seek, among other things, vacatur of
the net worth sweep. That would redress their injury.
The Shareholders have standing.
B
The succession provision does not bar Count IV
because it does not bar any direct claims.226 A plaintiff
with Article III standing can maintain a direct claim
against government action that violates the separation
of powers.227 In Bond v. United States the Supreme
Court collected numerous separation-of-powers cases
litigated by individuals with an otherwise-justiciable
case or controversy.228 “If the constitutional structure
225

See Warth v. Seldin, 422 U.S. 490, 500–02 (1975) (presuming
merits of complaint for purposes of standing analysis).
226

See 12 U.S.C. § 4617(b)(2)(A) (providing that FHFA succeeds to
shareholder rights “with respect to the regulated entity and the
assets of the regulated entity”); Roberts, 889 F.3d at 408; Perry
Capital, 864 F.3d at 624.
227

See Free Enter. Fund, 561 U.S. at 487–91 (holding court had
jurisdiction over declaratory judgment action alleging violation of
separation of powers).
228

564 U.S. 211, 223 (2011) (citing Free Enter. Fund, 561 U.S. 477;
Clinton v. City of New York, 524 U.S. 417 (1998); Plaut v.
Spendthrift Farm, Inc., 514 U.S. 211 (1995); Synar, 478 U.S. 714
(1986); INS v. Chadha, 462 U.S. 919 (1983); N. Pipeline Constr. Co.

App. 62
of our Government that protects individual liberty is
compromised, individuals who suffer otherwise
justiciable injury may object.”229
There is a separate reason the succession provision
does not bar the Shareholders’ constitutional claim.
“[W]here Congress intends to preclude judicial review
of constitutional claims its intent to do so must be
clear.”230 Only a “heightened showing” in the statute
may be interpreted to “deny any judicial forum for a
colorable constitutional claim.”231 Here, the succession
provision does not cross-reference the Administrative
Procedure Act’s general rule that agency action is
reviewable.232 It does not directly address judicial
review at all. This is not the kind of “heightened
showing”233 or “‘clear and convincing’ evidence”234
required for Congress to deny review of constitutional
claims.

v. Marathon Pipe Line Co., 458 U.S. 50 (1982); Youngstown Sheet
& Tube Co. v. Sawyer, 343 U.S. 579 (1952); A.L.A. Schechter
Poultry Corp. v. United States, 295 U.S. 495 (1935)).
229

Id.

230

Webster v. Doe, 486 U.S. 592, 603 (1988).

231

Id.

232

5 U.S.C. § 702.

233

Webster, 486 U.S. at 603.

234

Johnson v. Robinson, 415 U.S. 361, 373 (1974) (quoting Abbott
Labs., 387 U.S. at 141).

App. 63
VIII
The Shareholders are entitled to judgment on Count
IV.
A
HERA’s for-cause removal protection infringes
Article II. It limits the President’s removal power and
does not fit within the recognized exception for
independent agencies. That exception, established in
Humphrey’s Executor v. United States, has applied only
to multi-member bodies of experts.235 A single agency
director lacks the checks inherent in multilateral
decision making and is more difficult for the President
to influence.236 We reinstate Part II B 2 of the panel
opinion, which holds that FHFA’s structure is
unconstitutional.237 That Part explains that the
Director’s removal protection, in combination with
other FHFA features, is inconsistent with Article II
and the separation of powers. It also distinguishes the
D.C. Circuit’s PHH Corp. decision.238

235

295 U.S. 602, 628–32 (1935).

236

See id. at 624 (stating that the Federal Trade Commission is a
“body of experts”).
237

Collins, 896 F.3d at 659–75. This opinion supersedes the panel
opinion in remaining part. See, e.g., J.T. Gibbons, Inc. v. Crawford
Fitting Co., 790 F.2d 1193, 1194 (5th Cir. 1986) (en banc)
(reinstating parts of panel opinion).
238

PHH Corp. v. Consumer Fin. Prot. Bureau, 881 F.3d 75 (D.C.
Cir. 2018) (en banc).

App. 64
We disagree with Judge Higginson’s attempt to
distinguish this removal protection from those the
Supreme Court has held unconstitutional. He cites
scholarship that HERA’s “for cause” removal provision
gives less protection than statutes limiting removal to
“inefficiency, neglect of duty, or malfeasance in
office.”239 Initially, requiring “cause” for removal is well
recognized as an independent agency’s threshold
feature.240 And in Synar, when the Supreme Court
considered a statute permitting Congress to remove an
official for “inefficiency,” “neglect of duty,” or
“malfeasance,” it held this alternative language is quite
broad.241 True, the removal protection that Free
Enterprise Fund held unconstitutional was
exceptionally strict.242 But the Court held that the
proper amount of second-level removal protection there
was none, not a relaxed amount.243

239

Humphrey’s Ex’r, 295 U.S. at 619 (quoting Federal Trade
Commission Act, 15 U.S.C. § 41).
240

See Free Enter. Fund, 561 U.S. at 483 (“Congress can, under
certain circumstances, create independent agencies run by
principal officers appointed by the President, whom the President
may not remove at will but only for good cause.”).
241

Synar, 478 U.S. at 729.

242

561 U.S. at 503 (“A Board member cannot be removed except for
willful violations of the Act, Board rules, or the securities laws;
willful abuse of authority; or unreasonable failure to enforce
compliance . . . .”).
243

Id. at 509 (“Concluding that the removal restrictions are invalid
leaves the Board removable by the Commission at will, and leaves

App. 65
Judge Higginson also points to uncertainty about
whether and how a removal would unfold. But the
Court in Synar “reject[ed] [the] argument that
consideration of the effect of a removal provision is not
‘ripe’ until that provision is actually used.”244 In Synar
this was because Congress’s removal authority gave it
effective control over the Comptroller in the status
quo.245 Although here the problem is an absence of
control, not its misplacement, the same “ripeness”
principle applies.
B
The Agencies contend the Shareholders are not
entitled to relief for other reasons. They first say that
the FHFA acting Director who adopted the Third
Amendment was, unlike a normally appointed Director,
not insulated from removal. Under 12 U.S.C.
§ 4512(b)(2), the Director serves for five years “unless
removed before the end of such term for cause by the
President.” That provision does not explicitly address
acting Directors. Under 12 U.S.C. § 4512(f), the
President chooses any acting Director from among the
Deputy Directors. And that provision does not explicitly
address removal.
But HERA unequivocally says what kind of agency
it creates: “There is established the Federal Housing

the President separated from Board members by only a single level
of good-cause tenure.”).
244

478 U.S. at 727 n.5.

245

Id.

App. 66
Finance Agency, which shall be an independent agency
of the Federal Government.”246 In history and Supreme
Court precedent, Presidential removal is the “sharp
line of cleavage” between independent agencies and
executive ones.247 So we do not read the procedural
guidance for choosing an acting Director to override the
removal restriction, much less FHFA’s central
character. Instead, we read these provisions
together.248 The removal restriction applied to the
acting Director.
Judge Costa’s contrary authorities are
distinguishable. In Swan v. Clinton, the D.C. Circuit
held that the President could remove a National Credit
Union Administration Board member serving in a
“holdover” capacity.249 But here the FHFA acting
Director was not a holdover serving past his term’s
end. So at least one of Swan’s concerns, that “the
absence of any term limit in the NCUA holdover clause
enables holdover members to continue in office
indefinitely,” is misplaced.250 And, while HERA’s

246

12 U.S.C. § 4511(a).

247

Wiener v. United States, 357 U.S. 349, 353 (1958).

248

See King, 502 U.S. at 221 (applying “the cardinal rule that a
statute is to be read as a whole, since the meaning of statutory
language, plain or not, depends on context” (citation omitted)).
249

100 F.3d 973 (1996).

250

Id. at 987.

App. 67
general removal protection is unequivocal,251 in Swan
“[t]he NCUA statute d[id] not expressly prevent the
President from removing NCUA Board members except
for good cause.”252 The court simply assumed the
statute protected Board Members during their normal
terms, then held any such protection did not extend to
holdover Members.253 In short, Swan interprets a
different statute and has limited value for generalizing
a rule.
Judge Costa also cites the Office of Legal Counsel
opinion Designating an Acting Director of the Bureau of
Consumer Financial Protection.254 That opinion is about
filling a vacancy under the CFPB’s enabling statute
and the Federal Vacancies Reform Act. Its reasoning
includes a general rule that statutory removal
protection does not extend to anyone temporarily
performing an office.255 But it relies principally on
Swan for that proposition, and it doesn’t explain why
the same rule cuts across different enabling statutes.

251

12 U.S.C. § 4512 (“The Director shall be appointed for a term of
5 years, unless removed before the end of such term for cause by
the President.”).
252

100 F.3d at 981.

253

Id. at 983 (“[W]e will assume arguendo that Board members
have removal protection during their appointed terms and focus
instead on determining whether, even if that is so, holdover
members are similarly protected.”).
254

41 Op. O.L.C. ___, 2017 WL 6419154 (Nov. 25, 2017)
(interpreting 12 U.S.C. § 5491 and 5 U.S.C §§ 3345-3349d).
255

Id. at *7.

App. 68
As a matter of statutory interpretation, HERA’s
removal restriction applied to the acting Director here.
C
Treasury also contends that FHFA in its
conservator capacity does not exercise executive power,
so violating the separation of powers was harmless
here. Treasury cites Beszborn, where we held that the
RTC as receiver exercised nongovernmental power in
suing on behalf of the institution in receivership.256
“[T]he suit was purely an action between private
individuals.”257 So later criminal prosecution of the
same defendants did not violate the Double Jeopardy
Clause because the first “punishment,” the civil suit,
was not sought by a sovereign.258 Treasury also
observes that private parties are sometimes appointed
as receivers.259
Whether an agency exercises government power as
conservator or receiver “depends on the context of the
claim.”260 In Slattery, the Federal Circuit held that the
FDIC as receiver acted for the United States when it

256

United States v. Beszborn, 21 F.3d 62, 68 (5th Cir. 1994).

257

Id.

258

Id.

259

See 12 U.S.C. § 191 (authorizing Comptroller of the Currency to
appoint receiver); 12 C.F.R. § 51.2 (“The Comptroller . . . may
appoint any person, including the OCC or another government
agency, as receiver for an uninsured bank.”).
260

Slattery v. United States, 583 F.3d 800, 827 (Fed. Cir. 2009).

App. 69
retained a surplus from the seized bank’s assets.261
“[T]he claims [we]re asserted against the government,
seeking return of the monetary surplus obtained for the
seized bank.”262 So the bank’s former shareholders
could maintain their claims against the United
States.263
The Third Amendment has more in common with
Slattery than with Beszborn, showing that it invoked
executive power. In Beszborn, we took care to say the
receiver’s action on the bank’s behalf benefited “all
stockholders and creditors of the bank” rather than
“the United States Treasury.”264 The Third Amendment
reversed this precisely. It transferred the wards’ assets
to the government, similar to retaining the liquidation
surplus in Slattery.265 FHFA is a federal agency,
empowered by a federal statute, enriching the federal
government. It adopted the Third Amendment with
federal governmental power. And that power was
executive in nature. The Agencies do not contend, nor
could they, that the Third Amendment was quasilegislative or quasi-judicial.266
261

Id. at 828.

262

Id. at 827.

263

Id. at 827–28.

264

21 F.3d at 68.

265

See 538 F.3d at 827–28.

266

Cf. First Fed. Sav. Bank & Tr. v. Ryan, 927 F.2d 1345, 1359 (6th
Cir. 1991) (“[T]he appointment of a conservator or receiver is not
a ‘judicial power’ . . . . We believe that the power given to the

App. 70
Treasury’s remaining arguments do not budge this
point. It cites 12 U.S.C. § 191 and 12 C.F.R. § 51.2 as
evidence that private parties can be receivers. But
every conservator or receiver relies on some public
authority, whether court or agency.267 Even in
Treasury’s example, “[t]he receiver performs its duties
under the direction of the Comptroller.”268 In this case,
Congress empowered FHFA as a federal agency.269
Absent that authority there would be no
conservatorship and no Third Amendment. And every
federal agency must function within the federal
Constitution’s checks and balances. As then-Judge
Kavanaugh explained in his PHH Corp. dissent, a
constitutional agency structure serves “to protect

Director to appoint a conservator or receiver is an executive
power.”).
267

E.g. Booth v. Clark, 58 U.S. 322, 331 (1854) (“The receiver is but
the creature of the court; he has no powers except such as are
conferred upon him by the order of his appointment and the course
and practice of the court . . . .”); see 28 U.S.C. § 959 (providing that
actions against court-appointed receivers are “subject to the
general equity power of such court so far as the same may be
necessary to the ends of justice”); FED. R. CIV. P. 66 (“[T]he practice
in administering an estate by a receiver . . . must accord with the
historical practice in federal courts or with a local rule.”).
268

269

12 C.F.R. § 51.2(a).

12 U.S.C. § 4511(a) (“There is established the Federal Housing
Finance Agency, which shall be an independent agency of the
Federal Government.”).

App. 71
liberty and prevent arbitrary decisionmaking by a
single unaccountable Director.”270
Finally, Treasury’s attempt to distinguish the Third
Amendment from governmental power is not, in any
event, a standing argument. In the Appointments
Clause case Freytag v. Commissioner, the Supreme
Court held that whether the official acted as an Officer
of the United States in the particular decision
challenged was “beside the point” for standing
purposes.271 The Court rejected the Commissioner’s
argument that the taxpayers lacked standing to
complain about the special trial judge’s role in other
cases.272 If by statute he performed at least some duties
of an Officer of the United States, his appointment
must accord with Article II.273 This case is analogous.274
***
The Constitution bounds Congress’s power to create
agencies, draw their structure, and grant them
authority. Agencies with removal-protected principal
270

881 F.3d at 186 (Kavanaugh, J., dissenting).

271

501 U.S. 868, 882 (1991).

272

Id.

273

Id.; see also Dep’t of Transp. v. Ass’n of Am. R.Rs., 135 S. Ct.
1225, 1232 (2015) (holding Amtrak was a government entity in
part because “rather than advancing its own private economic
interests, Amtrak is required to pursue numerous, additional goals
defined by statute”).
274

See Free Enter. Fund, 561 U.S. at 497–98 (holding separation of
powers requires Presidential oversight of the executive power).

App. 72
officers were a unique, but recognized, blend of
legislative, executive, and judicial powers long before
the FHFA. Their unique position has also been
relatively static, until recently. The removal-protected
FHFA Director is a new innovation and falls outside
the lines that Humphrey’s Executor recognized.
Granting both removal protection and full agency
leadership to a single FHFA Director stretches the
independent-agency pattern beyond what the
Constitution allows.

App. 73
HAYNES, Circuit Judge, joined by STEWART, Chief
Judge, and DENNIS, OWEN, SOUTHWICK, GRAVES,
HIGGINSON, COSTA, and DUNCAN, Circuit Judges:
Some of us1 agree with the conclusion reached in
Section VIII.A–C of the majority en banc opinion that
the FHFA is unconstitutionally structured, and some
of us2 conclude otherwise, but we all agree that, given
the holding of the majority of the en banc court
reversing the district court on this point and finding
the FHFA to be unconstitutionally structured, it is
necessary to reach the question of what remedy is
appropriate for the structure found to be
unconstitutional by the majority. We now turn to the
remedy question.
When addressing the partial unconstitutionality of
a statute such as this one, we seek to honor Congress’s
intent while fixing the problematic aspects of the
statute. Thus, in this case, the appropriate—and most
judicially conservative—remedy is to sever the “for
cause” restriction on removal of the FHFA director
from the statute. See 12 U.S.C. § 4512(b)(2).
The remedial analysis here is informed by that in
Free Enterprise Fund. We start from the “normal rule
that partial, rather than facial, invalidation is the
required course.” Brockett v. Spokane Arcades, Inc., 472
U.S. 491, 504 (1985); Free Enter. Fund v. Pub. Co.

1

Judges Owen, Southwick, Haynes, Graves and Duncan agree that
the FHFA is unconstitutionally structured. Judges Southwick,
Haynes, and Graves concur in that conclusion only.
2

Chief Judge Stewart and Judges Dennis, Higginson, and Costa.

App. 74
Accounting Oversight Bd., 561 U.S. 477, 508 (2010)
(“‘Generally speaking, when confronting a
constitutional flaw in a statute, we try to limit the
solution to the problem,’ severing any ‘problematic
portions while leaving the remainder intact.’” (quoting
Ayotte v. Planned Parenthood of N. New Eng., 546 U.S.
320, 328–29 (2006))). Just as in Free Enterprise Fund,
if we declare the “for cause” removal restriction
unconstitutional, then the executive officer will
immediately be subject to sufficient Presidential
oversight. 561 U.S. at 509. Finally, nothing in the
statutory scheme suggests that Congress would prefer
a complete unwind of actions taken by the FHFA to an
FHFA director removable at will. Thus, severance of
the “for cause” restriction remedies the Shareholders’
injury as found by the majority of this court of being
overseen by an unconstitutionally structured agency.
Here it is also “true that the language providing for
good-cause removal is only one of a number of statutory
provisions that, working together, produce a
constitutional violation.” Id. But, as the Supreme Court
recognized, we should not roam further to invalidate
other provisions or modify the statute’s requirements.
The other options would be far more invasive and
“editorial.” Id. at 510. Instead, we pursue a path that
respects the legislative decisions made by the Congress
that passed HERA and the legislative power of the
current Congress to amend the statute without
unwarranted disruption.
The Shareholders ask that we also invalidate the
Net Worth Sweep, claiming the remedy must resolve
the injury. Assuming arguendo that an injury in the

App. 75
form of an unconstitutionally structured agency exists,3
the Shareholders may not pick and choose among
remedies based on their preferences. The Shareholders’
complaint requested that a court invalidate only the
Net Worth Sweep. They never requested a declaratory
judgment about the PSPAs as a whole or even the
Third Amendment. That is because the rest of the deal
is a pretty good one for them: who would not want a
virtually unlimited line of credit from the Treasury?
Yet the Shareholders’ constitutional theory is that
everything the FHFA has done since its inception is
void because it was an unconstitutionally structured
agency.4 They never explain why if all acts were void
(or voidable), they are entitled to pick and choose a
single provision to invalidate. That is inconsistent with
the usual course of remedies. See Fed. Ins. Co. v.
Singing River Health Sys., 850 F.3d 187, 198 n.5 (5th
Cir. 2017) (noting that accepting the premise that a
party to an invalid contract could pick which parts to
enforce would lead to an “absurd result”);
RESTATEMENT (SECOND) OF CONTRACTS § 383 (AM. LAW.
INST. 1981) (“A party who has the power of avoidance
must ordinarily avoid the entire contract, including any
part that has already been performed. He cannot
disaffirm part of the contract that is particularly

3

As noted above, there are differing views surrounding the
constitutionality issue.
4

They attempt to temper that theory by arguing that legal
challenges might still not succeed due to standing, statutes of
limitations, and potential ratification of past actions. But their
theory is nonetheless that everything the FHFA has done is void.

App. 76
disadvantageous to himself while affirming a more
advantageous part . . . .”).
Generally, there are at least two classes of cases
where the appropriate remedy is to invalidate an action
taken by an unconstitutional agency or officer. First,
the Supreme Court has invalidated actions by actors
who were granted power inconsistent with their role in
the constitutional program. For example, the
Shareholders’ marquee case for their theory is Bowsher
v. Synar, 478 U.S. 714 (1986). There, Congress
delegated executive authority to a congressional officer.
Id. at 732–34. But “Congress [could not] grant to an
officer under its control what it [did] not possess.” Id.
at 726. The Supreme Court declared unconstitutional
the statutory power that impermissibly empowered the
congressional officer to exercise executive authority. Id.
at 734–36.5 Because the officer never should have had
the authority in the first place, courts would naturally
invalidate exercises of the authority. Id.; cf. Nguyen v.
United States, 539 U.S. 69, 71 (2003) (vacating and
remanding a case where an officer appointed under
Article IV exercised Article III judicial authority). The
Supreme Court has also invalidated exercises of
authority that steal constitutionally specified power
from other branches. See Clinton, 524 U.S. 417; INS v.
Chadha, 462 U.S. 919 (1983).

5

The Court in Bowsher determined that the “issue of remedy” for
the separation-of-powers violation at issue was “a thicket we need
not enter,” because Congress had provided “fallback” provisions in
the statute in case it was invalidated. Id. at 734–35.

App. 77
Second, the Court has invalidated actions taken by
individuals who were not properly appointed under the
Constitution. It has thus vacated and remanded
adjudications by officers who were not appointed by the
appropriate official, see Lucia v. SEC, 138 S. Ct. 2044,
2055 (2018), or who skipped Senate confirmation
through misuse of the Recess Appointments Clause, see
NLRB v. Noel Canning, 573 U.S. 513 (2014).
A common thread runs through these two
categories. In each, officers were vested with authority
that was never properly theirs to exercise. Such
separation-of-powers violations are, as the D.C. Circuit
put it, “void ab initio.” Noel Canning v. NLRB, 705 F.3d
490, 493 (D.C. Cir. 2013), aff’d but criticized, 573 U.S.
513.
Restrictions on removal are different. In such cases
the conclusion is that the officers are duly appointed by
the appropriate officials and exercise authority that is
properly theirs. The problem identified by the majority
decision in this case is that, once appointed, they are
too distant from presidential oversight to satisfy the
Constitution’s requirements.
Perhaps in some instances such an officer’s actions
should be invalidated. The theory would be that a new
President would want to remove the incumbent officer
to instill his own selection, or maybe that an
independent officer would act differently than if that
officer were removable at will. We have found no cases
from either our court or the Supreme Court accepting
that theory.

App. 78
But even if that theory is right, it does not apply
here for two reasons. First, the action at issue is the
adoption of the Net Worth Sweep, and the President
had adequate oversight of that action. The entire
PSPAs, including the Third Amendment’s Net Worth
Sweep, were created between the FHFA and Treasury.
During the process, the Treasury was overseen by the
Secretary of the Treasury, who was subject to at will
removal by the President. The President, thus, had
plenary authority to stop the adoption of the Net Worth
Sweep. This is thus a unique situation where we need
not speculate about whether appropriate presidential
oversight would have stopped the Net Worth Sweep.
We know that the President, acting through the
Secretary of the Treasury, could have stopped it but did
not.6
Second, we can take judicial notice of this reality:
subsequent Presidents have picked their own FHFA
directors, allaying concerns that the removal restriction
prevented them from installing someone who would
carry out their policy vision. After the adoption of the
Net Worth Sweep, President Obama selected a Director
who was confirmed by the Senate. Once confirmed, that
director authorized filings in this court that supported
and defended the Net Worth Sweep. He never
questioned its propriety. President Trump later

6

We do not hold that plaintiffs asserting a separation-of-powers
claim bear the burden of proving a different outcome absent a
removal restriction. See Free Enter. Fund, 561 U.S. at 512 n.12. We
hold only that plaintiffs may not sue to invalidate an agency action
due to lack of presidential oversight when their allegations show
that the President had oversight of the action.

App. 79
selected an acting Director under the Vacancies Reform
Act. He never questioned the propriety of the Net
Worth Sweep and reaffirmed the previous
administration’s position. President Trump has since
selected a new director. He has not filed anything in
this court or made any judicially noticeable statement
opposing the Net Worth Sweep. The Net Worth Sweep
has thus transcended political affiliations and
traversed presidential administrations—even when an
issue like the constitutionality of the structure of the
FHFA has divided different directors. Were these
Presidents concerned about invalidating the Net Worth
Sweep, they could have picked different Directors who
would carry out that vision, either in action or in
litigation. These subsequent picks’ affirmation of the
Net Worth Sweep demonstrates without question that
invalidating the Net Worth Sweep would actually erode
executive authority rather than reaffirm it. See Lucia,
138 S. Ct. at 2055.
Our decision not to invalidate the Net Worth Sweep
is thus grounded in our respect for the Constitution
and our co-equal branches of government. Undoing the
Net Worth Sweep, as suggested by the dissenting
opinion, would wipe out an action approved or ratified
by two different Presidents’ directors under the guise
of respecting the presidency; how does that make
sense? Here, the Constitution commits executive
authority to the President. The President had full
oversight of the adoption of the Net Worth Sweep, and
each President since has appointed FHFA Directors
who have affirmed it. We should not invalidate those
Presidents’ executive actions by invoking their need to
exercise executive authority.

App. 80
One final point: any remedy that invalidates the
Net Worth Sweep without a judgment that fixes the
constitutional problems would be particularly perverse.
The FHFA could not ratify any previous actions or even
continue operating because it would still suffer the
same separation-of-powers defects we have identified
here—just without an explicit declaration fixing the
issue. We would invalidate an entire agency without
any precedent directing us to do so. Similarly, there is
no virtue in declaring the agency action unlawful then
punting the form that judgment should take back to
the district court. The only judgment the Shareholders
are entitled to is the one the Supreme Court has given
in similar removal-restriction cases, which is a
declaration removing the “for cause” provision found
unconstitutional by a majority of this court. Sending
the case back for further litigation would cast one of
the most financially consequential agencies into chaos.
It would also further muddy our precedent on the
appropriate remedy in removal-restriction cases.
In summary, the Shareholders’ ongoing injury, if
indeed there is one,7 is remedied by a declaration that
the “for cause” restriction is declared removed. We go
no further. We will not let the Shareholders pick and
choose parts of the PSPAs to invalidate when the
President had adequate oversight over their adoption
and particularly when two different presidents have
selected agency heads who have supported the Net
Worth Sweep. The appropriate remedy is the one that
fixes the Shareholders’ purported injury. That is
exactly what our declaratory judgment does.
7

See n.3 supra.

App. 81
Consequently, we decline to invalidate the Net Worth
Sweep or PSPAs.8 Instead, we conclude, given that the
majority of the court has found the FHFA
unconstitutionally structured, that the appropriate
remedy for that finding is to declare the “for cause”
provision severed.

8

Because we reject the Shareholders’ request to unwind the Net
Worth Sweep, we do not in this section address whether § 4617(f)
would bar such relief if it were otherwise necessary.

App. 82
STUART KYLE DUNCAN, Circuit Judge, joined by
OWEN, Circuit Judge, concurring:
While I join all of Judge Willett’s superb majority
opinion, I do not join his separate opinion that
concludes the proper remedy for the separation-ofpowers violation here is to vacate the Third
Amendment. To the contrary, the proper remedy—as
Judge Haynes cogently explains in her separate
majority opinion—is to sever the for-cause removal
provision from the challenged statute. See Free Enter.
Fund v. Pub. Co. Accounting Oversight Bd., 561 U.S.
477, 508 (2010) (“PCAOB”) (“‘Generally speaking, when
confronting a constitutional flaw in a statute, we try to
limit the solution to the problem,’ severing any
‘problematic portions while leaving the remainder
intact.’”) (quoting Ayotte v. Planned Parenthood of N.
New Eng., 546 U.S. 320, 328–29 (2006)). I write
separately to explain why I think the Supreme Court’s
precedents compel that narrower remedy.
To justify vacating the Third Amendment, Judge
Willett asserts that “the action of an
unconstitutionally-insulated officer . . . must be set
aside.” Willett Dissent at 1. I can find no support for
that categorical proposition. Judge Willett relies
principally on Bowsher v. Synar, 478 U.S. 714 (1986),
but Bowsher is off-point. Bowsher involved a
challenge—not to an executive-branch official
“insulated” from presidential oversight—but to the
Comptroller General, essentially a legislative officer,
removable by Congress, who was purporting to exercise
executive power. See 478 U.S. at 728 (noting
Comptroller General was removable by joint resolution

App. 83
“at any time” so that the officer “should be brought
under the sole control of Congress”) (quotes omitted);
id. at 730 (noting “Congress has consistently viewed
the Comptroller General as an officer of the Legislative
Branch”). This Article I creature, Bowsher
unsurprisingly told us, “may not be entrusted with
executive powers.” Id. at 732. And, in any event,
Bowsher concluded that the “issue of remedy” for the
separation-of-powers violation was “a thicket we need
not enter,” because Congress had provided a “fallback”
provision should the act be invalidated. Id. at 734, 735;
see also id. at 718–19 (describing “fallback” process).
Thus, I do not read Bowsher as providing much, if any,
guidance as to the remedy for an unconstitutionally
insulated agency.
Putting Bowsher aside, more recent Supreme Court
authority confirms my view that severance is the
proper remedy for the separation-of-powers violation
before us. In PCAOB, the petitioners argued that the
agency’s “freedom from Presidential oversight and
control rendered it and all power and authority
exercised by it in violation of the Constitution.” 561
U.S. at 508 (quotes omitted). But the Court “reject[ed]
such a broad holding” and deployed the narrower
remedy of severing the unconstitutional culprit—there,
the second layer of for-cause removal. Id. at 509–10.
Moreover, for remedial purposes PCAOB contrasted an
unconstitutionally insulated officer with an
unconstitutionally appointed officer: The Court
pointedly “[p]ut[ ] to one side petitioners’ Appointments
Clause challenges,” id. at 508, which it addressed (and
rejected) in another part of its opinion. Id. at 510–13.
When the Court did later find an Appointments Clause

App. 84
violation in Lucia, its remedy was to vacate the prior
actions of the invalidly appointed officers. See Lucia v.
S.E.C., 138 S. Ct. 2044, 2055 (2018) (concluding “the
‘appropriate’ remedy for an adjudication tainted with
an appointments violation is a new ‘hearing before a
properly appointed’ official”) (quoting Ryder v. United
States, 515 U.S. 177, 183 (1995)). That is the kind of
backward-looking remedy—vacating the Third
Amendment—Judge Willett would apply here, but the
Supreme Court’s cases do not support applying it to fix
an unconstitutionally insulated agency head.
Instead, as PCAOB indicates, the cure for that
malady is narrower. Stripping away the FHFA
Director’s unconstitutional insulation is the
“minimalist remedy” that “maintain[s] presidential
control while leaving in place the regulatory functions
of an agency.” Neomi Rao, Removal: Necessary and
Sufficient for Presidential Control, 65 Ala. L. Rev. 1205,
1261 (2014) (discussing PCAOB). Consequently, to
remedy the separation-of-powers violation presented
here, I would sever the for-cause removal provision,
rendering the agency properly responsive to the
President’s “general administrative control of those
executing the laws.” Myers v. United States, 272 U.S.
52, 164 (1926).

App. 85
ANDREW S. OLDHAM and JAMES C. HO, Circuit
Judges, concurring in part and dissenting in part:
We join Judge Willett’s opinion.1 We write
separately in response to the suggestion that there is
no constitutional problem because this case does not
involve the Public Company Accounting Oversight
Board (“PCAOB”), the Comptroller General, or the
Postmaster General. Post, at 97–107 (Higginson, J.).
Our learned colleague suggests that: (I) the
Constitution’s original public meaning offers little
guidance on the scope of the removal power; (II) the
Supreme Court’s precedents don’t help the
shareholders here; and (III) even if they did, we have
the “judicial” power to rewrite Congress’s law. With
greatest respect, that’s all wrong.
I.
The Constitution vests in the President the power
to remove executive officers. Any intimation to the
contrary must be rejected.
A.
Traditionally, the executive power allowed the head
of state to appoint and remove his ministers, as well as
1

We have lingering doubts about the meaning of the Housing and
Economic Recovery Act’s so-called “succession provision,” 12 U.S.C.
§ 4617(b)(2)(A)(i). But we agree with Judge Willett’s opinion for the
Court that, whatever the meaning of that provision, it’s
insufficiently clear to displace the presumption of reviewability
under the Administrative Procedure Act. See Bowen v. Mich. Acad.
of Family Physicians, 476 U.S. 667, 670 (1986); Abbott Labs. v.
Gardner, 387 U.S. 136, 140 (1967), abrogated by statute in other
part as recognized in Califano v. Sanders, 430 U.S. 99, 105 (1977).

App. 86
his judges, at will. See 1 WILLIAM BLACKSTONE,
COMMENTARIES *260 [hereinafter BLACKSTONE’S
COMMENTARIES] (describing English efforts to “remove
all judicial power out of the hands of the king’s privy
council”); id. at *261–63 (explaining that “the king is
. . . the fountain of honour, of office, and of privilege,”
that the king holds “the prerogative of erecting and
disposing of offices,” and that “the king . . . is the best
and only judge, in what capacities, with what
privileges, and under what distinctions, his people are
the best qualified to serve, and to act under him”); 2
THOMAS RUTHERFORTH, INSTITUTES OF NATURAL LAW
60 (1756) (noting that officers “are the agents of the
executive power; and consequently the appointment of
them belongs to this power”). The American colonies
chafed at the corrupting effects of this unbridled power.
See, e.g., DECLARATION OF INDEPENDENCE para. 11
(1776) (“[The King] has made Judges dependent on his
Will alone, for the tenure of their offices, and the
amount and payment of their salaries”); DECLARATION
OF RIGHTS AND GRIEVANCES para. 4 (1774) (condemning
as “impolitic, unjust, and cruel, as well as
unconstitutional” the Massachusetts Government Act,
14 Geo. 3 c. 45, which empowered the King’s
representative to appoint and remove—at will—the
Province’s officers and judges).
In response, some early State constitutions limited
the executive power to appoint judges and officers. See,
e.g., S.C. CONST. of Mar. 26, 1776 art. XXII (assigning
to the legislature the power to choose “the
commissioners of the treasury, the secretary of the
colony, register of mesne conveyances, attorneygeneral, and powder receiver”); VA. CONST. of 1776

App. 87
paras. 35, 36 (requiring legislative approval for the
governor’s judicial appointments). Others limited the
removal power, and granted civil and judicial officers
freedom from executive interference “during good
behavior.”2 N.Y. CONST. of 1777, art. XXIV. See also
MD. CONST. of 1776 art. XL (granting “good behaviour”
tenure to the attorney-general); id. art. XLVIII
(permitting the governor to remove only those “civil
officer[s] who ha[ve] not a commission during good
behavior”); MASS. CONST. of 1780 pt. 2, ch. III, art. 1
(providing that “[a]ll judicial officers . . . shall hold
their offices during good behavior,” but allowing the
governor to remove them “with consent of the council
. . . upon address of both houses of the legislature”).
When the Framers drafted the federal Constitution,
they had the same options before them. Ultimately,
they chose to give Article III judges “good Behaviour”
protection from presidential interference, see U.S.
CONST. art. III, § 1, cl. 2, and mandated Senate
approval for appointments of superior officers, see U.S.
CONST. art. II, § 2, cl. 2. The Constitution therefore
took away the traditional executive power to remove
judges and to appoint officers unilaterally. But the
Framers chose not to grant “good behavior” tenure to
officers, as some States had done. By that omission, the
Framers kept for the President the executive’s
traditional at-will removal power over superior

2

This phrase derives from the English Act of Settlement, which
stripped the Crown of the power to remove judges at will, and
guaranteed judicial commissions “quamdiu se bene gesserint”
(‘during good behavior’). Act of Settlement, 1701, 12 & 13 Will. 3
c. 2 § 3.

App. 88
officers.3 See Steven Calabresi & Saikrishna Prakash,
The President’s Power to Execute the Laws, 104 YALE
L.J. 541, 597 (1994).
B.
What the text and structure of the Constitution
provide, the historical practice confirms. Start with the
very first Congress.
On March 4, 1789, Congress convened in New York
City. 1 ANNALS OF CONG. 15, 95 (1789). One of its first
orders of business was to propagate the Executive
Branch. Representative James Madison moved “that
there shall be established an Executive Department, to
be denominated the Department of Foreign Affairs, at
the head of which there shall be an officer, to be called
the Secretary to the Department of Foreign Affairs,
who shall be appointed by the President, by and with
the advice and consent of the Senate; and to be
removable by the President.” Id. at 370–71.

3

Congress may also remove “civil officers” for “Treason, Bribery,
or other High Crimes and Misdemeanors” through impeachment
and conviction. U.S. CONST. art. II, § 4. But this provision was
inserted to limit Congress’s impeachment power, rather than to
abrogate the executive’s removal power: In Britain at the time, “all
the king’s subjects, whether peers or commoners, [we]re
impeachable in parliament.” JOSEPH STORY, COMMENTARIES ON
THE CONSTITUTION § 283 (1833). Peers could be impeached “for any
crime.” 4 BLACKSTONE’S COMMENTARIES, supra, at *257. And some
S t a t e c o n s t i tu t i o n s p e r m i t t e d i m p e a c h m e n t f o r
“maladministration” in addition to misconduct. See, e.g., MASS.
CONST. of 1780 pt. 2, ch. I, § 2, art. VIII. The impeachment power
in Article II therefore represents a narrowing of the legislature’s
traditional ability to interfere with executive affairs.

App. 89
The motion sparked a debate “centered around
whether the Congress ‘should recognize and declare the
power of the President under the Constitution to
remove the Secretary of Foreign Affairs without the
advice and consent of the Senate.’” See Bowsher v.
Synar, 478 U.S. 714, 723 (1986) (quoting Myers v.
United States, 272 U.S. 52, 114 (1926)). And it
culminated in the famed “Decision of 1789” in which a
majority of both legislative chambers agreed that “the
Constitution’s grant of executive power authorized the
President to remove executive officers.” Saikrishna
Prakash, New Light on the Decision of 1789, 91
CORNELL L. REV. 1021, 1023 (2006) [hereinafter
Prakash, Decision of 1789]; see also 1 ANNALS OF CONG.
at 399.
Up until the Civil War, there was virtually no doubt
that the Decision of 1789 was correct. Presidents
Washington, Adams, and Jefferson relied on that power
to remove over 170 officers. Prakash, Decision of 1789,
supra, at 1066. In their respective Commentaries in the
1820s and 1830s, Chancellor James Kent and Justice
Joseph Story considered the matter settled and beyond
alteration. See Myers, 272 U.S. at 148–50.
Congress briefly flirted with revisiting the issue
after the Civil War. In 1867, Congress passed the
Tenure of Office Act (over the President’s veto),
reversed its longstanding position, and claimed for
itself the power to condition removal on the advice and
consent of the Senate. See Tenure of Office Act, ch. 154,
14 Stat. 430 (1867). But even then, it was questionable
whether Congress considered the Act to be
constitutional. See Free Enterprise Fund, 561 U.S. at

App. 90
494 n.3 (noting that the law “was widely regarded as
unconstitutional and void (as it is universally regarded
today)”). Its passage was undoubtedly motivated by
animus towards President Johnson. See GROVER
CLEVELAND, THE INDEPENDENCE OF THE EXECUTIVE 29
(1913). Less than two months into President Grant’s
tenure, it was repealed in part to permit the President
to suspend officers “until the end of the next session of
the Senate.” 16 Stat. 6, 7. It was repealed in its entirety
in 1887. See 24 Stat. 500.
The history of the use of the removal power—and
congressional acquiescence in that use—matters. In
interpreting the Constitution, “we put significant
weight upon historical practice,” particularly where the
issues “concern the allocation of power between two
elected branches of Government.” NLRB v. Noel
Canning, 573 U.S. 513, 524 (2014). Indeed, “a practice
of at least twenty years duration on the part of the
executive department, acquiesced in by the legislative
department, is entitled to great regard in determining
the true construction of a constitutional provision the
phraseology of which is in any respect of doubtful
meaning.” The Pocket Veto Case, 279 U.S. 655, 690
(1929) (quotation omitted). We should therefore be
especially hesitant to interfere with an executive power
that was exercised, unfettered by Congress, for over 75
years.
II.
The Supreme Court first squarely addressed the
President’s constitutionally vested removal power in

App. 91
1926.4 But once proved not enough. In the decades
since, the Court has offered varying takes on the limits
of that power—all apparently still good precedent. See
Free Enterprise Fund v. Public Company Accounting
Oversight Board, 561 U.S. 477, 483 (2010) (“The parties
do not ask us to reexamine any of these precedents,
and we do not do so.”). Yet none of those precedents
supports the novel limits on removal found in the
Housing and Economic Recovery Act (“HERA”). Indeed,
the lack of historical precedent to support HERA may
be “the most telling indication of the severe
constitutional problem” with it. Id. at 505 (quoting Free
Enterprise Fund v. Public Company Accounting
Oversight Board, 537 F.3d 667, 699 (D.C. Cir. 2008)
(Kavanaugh, J., dissenting)).
A.
Let’s start at the beginning. In Myers, the Court
addressed “whether under the Constitution the

4

As to the pre-Myers corpus, Judge Higginson rightly notes that
United States v. Perkins, 116 U.S. 483 (1886), and United States v.
Shurtleff, 189 U.S. 311 (1903), are not especially salient for present
purposes. Post, at 98 n.2 (Higginson, J.). That said, the Court’s
opinion in In re Hennen, 38 U.S. 230 (1839), offers insights into the
Court’s view of the Decision of 1789. Reflecting on the President’s
power to remove officers whom he appointed, the Court said “it
was very early adopted, as the practical construction of the
Constitution, that this power was vested in the President alone.
And such would appear to have been the legislative construction
of the Constitution.” Id. at 259. And, by 1839, it had become “the
settled and well understood construction of the Constitution, that
the power of removal was vested in the President alone . . .
although the appointment of the officer was by the President and
Senate.” Ibid.

App. 92
President has the exclusive power of removing
executive officers of the United States whom he has
appointed by and with the advice and consent of the
Senate.” 272 U.S. at 60. The Court noted “[t]here is no
express provision respecting removals in the
Constitution.” Id. at 109. But it did not stop there.
Instead, the Court considered the original meaning
of the “executive power,” the Decision of 1789, and the
President’s duties under the Take Care Clause. As to
the original meaning of the “executive power,” the
Court noted that both the Congress constituted under
the Articles of Confederation and the British crown
exercised executive power, and that as a part of that
power, both the Congress and the crown could appoint
and remove executive officers. Id. at 110, 118. The
Court’s extensive discussion of the Decision of 1789, see
id. at 111–63, underscored the importance of that
Congress’s constitutional deliberation and the ensuing
“clear affirmative recognition of [the Decision of 1789]
by each branch of the government,” id. at 163. And
Chief Justice Taft considered the duties of his former
post. Speaking from experience,5 the Chief Justice
explained that “when the grant of the executive power
is enforced by the express mandate to take care that
the laws be faithfully executed, it emphasizes the
necessity for including within the executive power as
conferred the exclusive power of removal.” Id. at 122;

5

Notably, when serving as President, Taft fired two members of
the Board of General Appraisers. According to Professor Bamzai,
that “was the first presidential for-cause removal.” Aditya Bamzai,
Taft, Frankfurter, and the First Presidential For-Cause Removal,
52 U. RICH. L. REV. 691, 691–92 (2018).

App. 93
see Jack Goldsmith & John F. Manning, The Protean
Take Care Clause, 164 U. PA. L. REV. 1835, 1836 (2016)
(“Chief Justice Taft invoked [the Take Care Clause] to
hammer home the implication that a President charged
with exercising all of the executive power must have
the means to control subordinates through whom he or
she would necessarily act[.]”). On this point, text,
history, and structure all aligned:
The vesting of the executive power in the
President was essentially a grant of the power to
execute the laws. But the President alone and
unaided could not execute the laws. He must
execute them by the assistance of
subordinates. . . . As he is charged specifically to
take care that they be faithfully executed, the
reasonable implication, even in the absence of
express words, was that as part of his executive
power he should select those who were to act for
him under his direction in the execution of the
laws. The further implication must be, in the
absence of any express limitation respecting
removals, that as his selection of administrative
officers is essential to the execution of the laws
by him, so must be his power of removing those
for whom he cannot continue to be responsible.
It was urged that the natural meaning of the
term ‘executive power’ granted the President
included the appointment and removal of
executive subordinates. If such appointments
and removals were not an exercise of the
executive power, what were they?
They
certainly were not the exercise of legislative or

App. 94
judicial power in government as usually
understood.
Myers, 272 U.S. at 117–18 (citations omitted).
As the Court’s opinion drew to a close, it returned to
the Decision of 1789. The Court again emphasized that
the first Congress “was a Congress whose
constitutional decisions have always been regarded, as
they should be regarded, as of the greatest weight in
the interpretation of that fundamental instrument.” Id.
at 174–75. And because the Court “found [its]
conclusion strongly favoring the view which prevailed
in the First Congress,” it “ha[d] no hesitation in holding
that conclusion to be correct.” Id. at 176. So the Court
held “that the Tenure of Office Act of 1867, in so far as
it attempted to prevent the President from removing
executive officers who had been appointed by him by
and with the advice and consent of the Senate, was
invalid.” Ibid.
Under Myers, this would be an easy case: Any limit
on the President’s power to remove a principal
executive officer is unconstitutional.
Our dissenting colleagues brush Myers aside based
on this factual distinction: Myers dealt with a statute
requiring “the ‘advice and consent of the Senate’” before
the President could remove the officer, whereas HERA
does not. Post, at 99 (Higginson, J.) (quoting Myers, 272
U.S. at 60). True enough. But it was not the character
of the limitation on the President’s removal power that
led the Myers Court to reject it. Rather, it was the
existence of any limitation at all—it was the denial of
“the unrestricted power of removal” that the Court

App. 95
found invalid. 272 U.S. at 176. Myers held the removal
power belongs to the President alone, and Congress
cannot constrain it. Ibid. Under Myers, HERA’s
removal restriction is unconstitutional.
B.
Of course, Myers was not the last word on the
nature of the President’s removal power. In
Humphrey’s Executor v. United States, 295 U.S. 602
(1935), the Supreme Court announced a different rule.
The Humphrey’s Executor Court maintained that
Congress could not prevent the President from
removing any (principal) officers exercising “purely”
executive power. But it introduced the concept of
administrative agencies that don’t exercise executive
power—a possibility Myers seemingly had not
contemplated. See also Prakash, Decision of 1789,
supra, at 1071 (arguing the Decision of 1789 did not
resolve whether Congress could limit the President’s
removal power for non-executive officers). And for these
non-executive administrative agencies, it approved
greater restrictions on the President’s removal power.
Humphrey’s Executor, 295 U.S. at 631–32.
The administrative agency at issue was the Federal
Trade Commission. President Hoover appointed
Humphrey as a Commissioner. Soon after his election
in 1932, President Roosevelt removed Humphrey from
office. Id. at 619. To his dying day, Humphrey
maintained he was still a Commissioner. Ibid. Later,
Humphrey’s estate sued for his unpaid salary, claiming
President Roosevelt lacked the power to remove an
FTC Commissioner. Ibid. The estate pointed to the
Federal Trade Commission Act, which provided that

App. 96
Commissioners would be appointed by the President,
would serve for a certain term of years, and could be
removed by the President “for inefficiency, neglect of
duty, or malfeasance in office.” Id. at 620 (citing
Federal Trade Commission Act, ch. 311, § 1, 38 Stat.
717, 718 (1914) (codified as amended at 15 U.S.C.
§ 41)).
President Roosevelt had cited no “inefficiency,
neglect of duty, or malfeasance in office” as cause for
removing Humphrey. Id. at 620, 626. He simply
wanted to appoint his own Commissioner with whom
he “should have a full confidence.” Id. at 620 (citing a
letter from Roosevelt to Humphrey). Roosevelt’s
administration pointed to Myers. After all, Myers had
recently confirmed that the Constitution grants the
President unrestricted power to remove executive
officers for any reason or no reason at all. See 272 U.S.
at 176 (holding a statute that “attempted to prevent
the President from removing executive officers who had
been appointed by him . . . was invalid”). Roosevelt’s
administration argued that the Myers rule applied to
the Federal Trade Commissioners, notwithstanding
Congress’s provision of a term of office and
enumeration of causes justifying their removal.
Humphrey’s Executor, 295 U.S. at 626.
The Court disagreed. Relying on the FTCA’s
legislative history, it reasoned Congress had intended
the FTC to function “wholly disconnected from the
executive department.” Id. at 630. The FTC was “to be
nonpartisan; and it must, from the very nature of its
duties, act with entire impartiality.” Id. at 624. And the
Court maintained that the FTC’s “duties are neither

App. 97
political nor executive, but predominantly quasi
judicial and quasi legislative.” Ibid. Moreover, the
Court had no “doubt[s]” about “[t]he authority of
Congress” to create such agencies and “to require them
to act in discharge of their duties independently of
executive control.” Id. at 629. “[T]hat authority
includes, as an appropriate incident, power to fix the
period during which the [officers] shall continue, and to
forbid their removal except for cause in the meantime.”
Ibid. In short, Humphrey’s Executor held that officials
exercising quasi-legislative or quasi-judicial power
could be insulated by for-cause-removal protection
because of the need to keep such officials “independent”
of the executive. Id. at 628. If an officer “exercises no
part of the executive power vested by the Constitution
in the President,” it says, Congress can limit the
President’s removal power. Ibid. On the other hand, if
the officer is “purely executive,” Congress cannot limit
that power. Id. at 631–32 (affirming the Myers rule for
purely executive officers). Thus, the scope of the
President’s removal power “depend[s] upon the
character of the office.” Id. at 631.
Humphrey’s Executor is difficult to apply for two
reasons. First, its division between purely executive
and quasi-legislative or quasi-judicial does not map
neatly onto modern understandings of executive power.
See Morrison v. Olson, 487 U.S. 654, 689 n.28 (1988)
(discussing “[t]he difficulty of defining such categories
of ‘executive’ or ‘quasi-legislative’ officials”); see also
Bowsher, 478 U.S. at 762 n.3 (1986) (White, J.,
dissenting). And second, the Supreme Court itself
limited Humphrey’s Executor in Bowsher. There, the
Comptroller General was subject to removal only by

App. 98
Congress and only for cause. See Bowsher, 478 U.S. at
727–28. The Court held this violated the Constitution’s
separation-of-powers principles by making an official
exercising executive power subservient to the
legislative branch. See id. at 726, 732–33. The
Comptroller General’s primary duty was to prepare a
detailed report in accordance with a legislative
mandate. Id. at 732. The Court held that this was an
exercise of executive power: “Interpreting a law enacted
by Congress to implement the legislative mandate is
the very essence of ‘execution’ of the law.” Id. at 733.
That was so even though Congress “ha[d] consistently
viewed the Comptroller General as an officer of the
Legislative branch.” Id. at 731. And in reaching its
conclusion, the Court pointed to the Decision of 1789 as
“provid[ing] contemporaneous and weighty evidence of
the Constitution’s meaning since many of the Members
of the First Congress had taken part in framing that
instrument.” Id. at 723–24.
Given that Bowsher turned on Congress’s control
over the executive officer in question—a problem
undisputedly not at issue here—the dissenters are
tempted to ignore Bowsher as irrelevant. Post, at 99
(Higginson, J.). But Bowsher is highly relevant in the
way it cabins Humphrey’s Executor. After Bowsher,
Congress cannot legislate around the nature of
executive power by creating an office that reports to
another branch, rather than (or in addition to)
reporting solely to the Executive Branch. See 478 U.S.
at 731–32; cf. Humphrey’s Executor, 295 U.S. at 628
(reasoning the FTC is not an executive agency because
it was “created by Congress to carry into effect
legislative policies . . . in accordance with the

App. 99
legislative standard . . . and to perform other specified
duties as a legislative or as a judicial aid”).
So what does Humphrey’s Executor by way of
Bowsher mean here? Well, the Federal Housing
Finance Agency (“FHFA”) Director obviously exercises
executive power. As relevant to this case, FHFA
implemented a statute—HERA—by making factual
findings that triggered authorization to take over and
operate the Government Sponsored Entities (“GSEs”).
That’s an executive act. Cf. Gundy v. United States, 139
S. Ct. 2116, 2140 (2019) (Gorsuch, J., dissenting)
(explaining that “condition[ing]” the application of
statutes “on fact-finding” by the executive has been
“long associated with the executive function”);
Department of Transportation v. Association of
American Railroads, 135 S. Ct. 1225, 1247 (2015)
(Thomas, J., concurring in the judgment) (explaining
that “conditional legislation does not seem to call on
the President to exercise . . . legislative power” even
though it makes the suspension or operation of
statutory provisions “depend upon the action of the
President based upon the occurrence of subsequent
events, or the ascertainment by him of certain facts”);
Bushnell v. Leland, 164 U.S. 684, 685 (1897) (rejecting
the argument that “empowering [the comptroller]
either to appoint a receiver or to make a ratable call
upon the stockholders, is tantamount to vesting that
officer with judicial power, in violation of the
constitution”). Operating the GSEs in accordance with
statutory directives is also executive. After all,
“implement[ing] the legislative mandate is the very
essence of ‘execution’ of the law.” Bowsher, 478 U.S. at
733.

App. 100
True, FHFA also has powers that might seem quasilegislative. For example, it can promulgate regulations.
See, e.g., 12 U.S.C. §§ 4536, 4617(i)(8). But having that
power cannot be enough to render an agency quasilegislative for purposes of Humphrey’s Executor. If it
were, nearly every member of the President’s cabinet
would be a quasi-legislative official and could be given
for-cause removal protection. And that can’t be. See
Morrison, 487 U.S. at 690 (“Myers was undoubtedly
correct in its holding, and in its broader suggestion that
there are some ‘purely executive’ officials who must be
removable by the President at will if he is to be able to
accomplish his constitutional role.”).
But wherever you draw the line between “executive”
and “quasi-legislative” power, the exercise of power at
the heart of this case is executive.6 FHFA executed a
contract and enforced its terms; that is the heartland
of executive power. See also Part II.E, infra. In deciding
this case or controversy, our constitutional analysis
should focus on the nature of the agency action being
challenged—not the agency’s power in the abstract.
Thus, in relevant part, “the character of the office” held
by the FHFA Director is executive. Humphrey’s

6

Judge Higginson agrees that our inquiry should focus on the
particular exercise of power at issue—here, “the FHFA’s
conservatorship function.” Post, at 107. Our disagreement is
whether FHFA’s “conservatorship function” is executive or
something else. Our colleagues evidently think it is something else,
but exactly what it is they do not say. See ibid.

App. 101
Executor, 295 U.S. at 631. Again, the for-cause removal
restriction is invalid.7
C.
In Morrison v. Olson, 487 U.S. 654 (1988), the
Supreme Court arranged the removal precedents
around a new organizing principle: Removal
restrictions cannot unduly interfere with the
President’s fulfillment of his constitutional
obligations—including the power to take care that the
laws be faithfully executed. Morrison involved the
Ethics in Government Act’s provision for the
appointment of an independent counsel to “investigate,
and, if appropriate, prosecute certain high-ranking
Government officials for violations of federal criminal
laws.” Id. at 660 (discussing 28 U.S.C. §§ 591–99). The
independent counsel, once appointed, could only be
removed “by the personal action of the Attorney
General and only for cause.” Id. at 663 (quoting 28
U.S.C. § 596(a)(1)).
There was “no real dispute that the functions
performed by the independent counsel are ‘executive’ in

7

And even if we considered the FHFA Director to be both “quasilegislative” and executive, then the FHFA’s Director would fall into
the “field of doubt” that Humphrey’s Executor left for “future
consideration.” 295 U.S. at 632. And insofar as the “nature of the
function” test discussed in Wiener v. United States, 357 U.S. 349,
353 (1958), was rooted in the “philosophy of Humphrey’s Executor,”
id. at 356, applying that test here would yield similar results. The
“intrinsic judicial character of the task” of the War Claims
Commissioners led the Court to decide that case against President
Eisenhower. Id. at 355. The executive function at issue here would
command the opposite result.

App. 102
the sense that they are law enforcement functions that
typically have been undertaken by officials within the
Executive Branch.” Id. at 691. But the Morrison
majority treated the categories used in Humphrey’s
Executor (executive vs. quasi-legislative or quasijudicial) as relevant but not dispositive. We agree with
our dissenting colleagues on this point: “Morrison
downgraded Wiener’s and Humphrey’s Executor’s
inquiries from a determinative to a subsidiary level.”
See post, at 106 (Higginson, J.).
The Morrison Court instead concluded that the
constitutionality of limitations on the President’s
removal power is not “define[d] [by] rigid categories of
those officials who may or may not be removed at will
by the President, but” aims to “ensure that Congress
does not interfere with the President’s exercise of the
‘executive power’ and his constitutionally appointed
duty to ‘take care that the laws be faithfully executed’
under Article II.” Morrison, 487 U.S. at 689–90. So,
under Morrison, removal restrictions that do not limit
“the President’s ability to perform his constitutional
duty” are permissible. Id. at 690.
The Morrison Court concluded the independent
counsel’s office survives this test. First, the Court
deemed the independent counsel an inferior office “with
limited jurisdiction and tenure and lacking
policymaking or significant administrative authority.”
Id. at 691; see also id. at 671–72. Second, the Court
noted that the President retained the ability to remove
the independent counsel for cause (through the
Attorney General). Id. at 692–93; see also id. at 696.
Congress limited the removal power “to establish the

App. 103
necessary independence of the office,” the Court
concluded. Id. at 693. And in light of the independent
counsel’s status as an inferior officer accountable to the
Attorney General, such a limitation didn’t unduly
“interfere” with the President’s constitutional duties.
Ibid.
So what of the FHFA Director? Like the
independent counsel, the FHFA Director exercises the
executive power of implementing the laws. See Part
II.B, supra. But unlike the independent counsel, the
FHFA Director is a principal officer with significant
authority, and he is not subject to significant
presidential control through any other executive officer.
FHFA’s insulation from the ordinary appropriations
process means its Director does not even answer to
Congress. Cf. Humphrey’s Executor, 295 U.S. at 628
(explaining the FTC is quasi-legislative because it acts
“in aid of the legislative power” where it makes
“investigations and reports . . . for the information of
Congress”). And that also deprives the President of the
control he exercises over most independent agencies,
who “must participate in the annual budget cycle”
under the oversight of the Office of Management and
Budget.8 Perhaps it’s true that “[n]o man is an island.”
JOHN DONNE, DEVOTIONS UPON EMERGENT OCCASIONS,

8

Eloise Pasachoff, The President’s Budget as a Source of Agency
Policy Control, 125 YALE L.J. 2182, 2203–04 (2016); see also Rachel
E. Barkow, Insulating Agencies: Avoiding Capture Through
Institutional Design, 89 TEX. L. REV. 15, 42–43 (2010) (“If agencies
must rely on OMB for budget requests, the President has a huge
lever of power over the agency, whether or not the head of the
agency is removable at will.”).

App. 104
Meditation XVII 108 (Ann Arbor Paperback ed., 1959)
(1624). But FHFA’s Director comes pretty close.
To satisfy Morrison, “the Executive Branch” must
have “sufficient control over” the independent officer
“to ensure that the President is able to perform his
constitutionally assigned duties.” 487 U.S. at 696.
Here, it’s not clear the Executive Branch has any
control at all.
D.
In Free Enterprise Fund, the Supreme Court made
clear that Morrison only extends so far. The Free
Enterprise Fund Court dealt with the members of the
Public Company Accounting Oversight Board
(“PCAOB”) who could be removed only by the Securities
and Exchange Commission (“SEC”). 561 U.S. at 483.
The PCAOB board members could only be removed by
the SEC for cause, and the members of the SEC are
principal officers who can only be removed by the
President for cause. Id. at 486–87. The Court concluded
this double for-cause protection arrangement violates
the Constitution:
This novel structure does not merely add to the
Board’s independence, but transforms it. Neither
the President, nor anyone directly responsible to
him, nor even an officer whose conduct he may
review only for good cause, has full control over
the Board.
Id. at 496. So the Court found PCAOB Commissioners
could not constitutionally exercise executive power. See
ibid.

App. 105
The Court reaffirmed its focus on the importance of
the relevant office by distinguishing principal officers
from inferior officers and inferior officers from mere
employees. Id. at 506 (“We do not decide the status of
other Government employees, nor do we decide
whether ‘lesser functionaries subordinate to officers of
the United States’ must be subject to the same sort of
control as those who exercise ‘significant authority
pursuant to the laws.’”). Thus, the above analysis
concerning the status of a principal officer under
Morrison applies here in much the same way.
But Free Enterprise Fund also emphasized a
suspicion of novel agency structures. Before the case
came before the Supreme Court, then-Judge
Kavanaugh had dissented from the D.C. Circuit’s
opinion upholding the PCAOB:
Humphrey’s Executor and Morrison represent
what up to now have been the outermost
constitutional limits of permissible congressional
restrictions on the President’s removal power.
Therefore, given a choice between drawing the
line at the holdings in Humphrey’s Executor and
Morrison or extending those cases to authorize
novel structures such as the PCAOB that
further attenuate the President’s control over
executive officers, we should opt for the former.
We should resolve questions about the scope of
those precedents in light of and in the direction
of the constitutional text and constitutional
history. In this case, that sensible principle
dictates that we hold the line and not allow
encroachments on the President’s removal power

App. 106
beyond what Humphrey’s Executor and Morrison
already permit.
Free Enterprise Fund, 537 F.3d at 698 (Kavanaugh, J.,
dissenting) (citations omitted). The Supreme Court
shared his concern: “Perhaps the most telling
indication of the severe constitutional problem with the
PCAOB is the lack of historical precedent for this
entity.” Free Enterprise Fund, 561 U.S. at 505 (quoting
537 F.3d at 699 (Kavanaugh, J., dissenting)).
The novel agency structure at issue in this case
raises similar suspicions. Granting that the protections
here are not a “Matryoshka doll of tenure protections,”
id. at 497, Congress nevertheless insulated the FHFA
Director in an unprecedented way. The FHFA Director
is a principal officer, not an inferior one or an
employee; he exercises significant executive authority;
and he does so by himself, not as part of a multimember body. Cf. PHH Corp. v. CFPB, 881 F.3d 75,
198 (D.C. Cir. 2018) (en banc) (Kavanaugh, J.,
dissenting) (noting that another agency’s “singleDirector structure departs from settled historical
practice, threatens individual liberty, and diminishes
the President’s Article II authority to exercise the
executive power.”).9 HERA thereby grants “executive

9

Many have discussed the unique ways an independent agency
headed by a single Director could undermine the President’s
Article II powers. See ante, at 46–47 (Willett, J.); PHH Corp., 881
F.3d at 156–57 (Henderson, J., dissenting); id. at 183–84
(Kavanaugh, J., dissenting). When the Founders vested a single
President with the executive power in Article II of the
Constitution, they recognized that one person had the potential to
act with greater speed, decisiveness, and secrecy than a multi-

App. 107
power without the Executive’s oversight” and “subverts
the President’s ability to ensure that the laws are
faithfully executed.” Free Enterprise Fund, 561 U.S. at
498. Thus, FHFA fails under Free Enterprise Fund too.
E.
Judge Higginson’s principal response to all of this is
that “FHFA’s conservatorship function” is “a role one
would be hard-pressed to characterize as near the
heart of executive power.” Post, at 107. We disagree. To
our minds, you’d be hard-pressed to characterize it as
anything other than executive power.
“The executive power” vested by Article II, Section
1, is the power of “enforcing the laws.” 1 BLACKSTONE’S
COMMENTARIES, supra, at *146. At the Founding, the
“executive power” was understood in contradistinction
to the “legislative” power of “making the laws.” Ibid.;
see also id. at *261; MATTHEW HALE, THE
PREROGATIVES OF THE KING 176 (D.E.C. Yale ed. 1976).
Without an executive to enforce, administer, or
otherwise execute the law, legislation was a mere
parchment barrier: “[T]he Vigour of the Laws consists
in their Executive Power; Ten thousand Acts of
Parliament signify no more than One Single
Proclamation, unless the Gentlemen, in whose hands
the Execution of those Laws is placed, take care to see
them duly made use of . . . .” DANIEL DEFOE, THE POOR

member body. See THE FEDERALIST NO. 70, at 424 (Alexander
Hamilton) (Clinton Rossiter ed., 1961) (“Decision, activity, secrecy,
and dispatch will generally characterize the proceedings of one
man in a much more eminent degree than the proceedings of any
greater number . . . .”).

App. 108
MAN’S PLEA 23 (2d ed. 1693). Thus, the power to
execute the law is the power to follow a legislative
instruction and “transform [legislative] intentions into
reality.” Julian Davis Mortensen, Article II Vests the
Executive Power, Not the Royal Prerogative, 119
COLUM. L. REV. 1169, 1236 (2019).
There can be no doubt that FHFA purported to
“execute” HERA here—even if it did so unlawfully. See
ante, at 50–52 (Willett, J.). It “made use of” the statute
to adopt the Third Amendment. And it made use of the
statute (and the Third Amendment) to sweep the GSEs’
profits. That plainly constitutes “the executive power.”
But suppose we’re wrong that FHFA is an executive
branch agency—where would you put it instead? FHFA
is an agency of the federal government. See 12 U.S.C.
§ 4511(a) (establishing FHFA as “an independent
agency of the Federal Government”); id.
§ 4617(b)(2)(J)(ii) (granting FHFA power to “take any
action authorized by this section, which the Agency
determines is in the best interests of . . . the Agency”).
Surely Judge Higginson does not mean to suggest
FHFA is exercising “legislative or judicial power in
government as usually understood.” Myers, 272 U.S. at
117–18.
It’s irrelevant that the Secretary of the
Treasury—the other party to the Net Worth
Sweep—could veto the deal. Cf. post, at 105 (Higginson,
J.); post, at 112–13 (Costa, J.). It has never been true
that setting aside an officer’s action in a case involving
the removal power requires proof that an uninsulated
officer would not have taken the challenged action.
Such counterfactual causation is alien to the Supreme

App. 109
Court’s interpretation of Article II. Neither
appointment cases nor removal cases require it. See
Landry v. FDIC, 204 F.3d 1125, 1131 (D.C. Cir. 2000)
(“There is certainly no rule that a party claiming
constitutional error in the vesting of authority must
show a direct causal link between the error and the
authority’s adverse decision.”).10
Take Free Enterprise Fund, for example. That case
implicated both appointment and removal. As to the
former, the Court refused to require counterfactual
10

For the same reasons, it’s irrelevant that the Third Amendment
was adopted by an Acting Director of FHFA, rather than a Senateconfirmed Director. See post, at 109 (Costa, J.). The Acting Director
serves until the appointment of a Director—the latter of whom is
insulated by the for-cause removal restriction. See 12 U.S.C.
§§ 4512(b), 4512(f). The President’s power to replace the Acting
Director with a for-cause insulated Director is a Damoclean sword
that hardly solves the constitutional problem with the latter. After
we granted rehearing en banc, FHFA argued for the first time that
the Acting Director can be replaced under the Federal Vacancies
Reform Act (“FVRA”). That argument is forfeited under our
longstanding rules. See Excavators & Erectors, Inc. v. Bullard
Engineers, Inc., 489 F.2d 318, 320 (5th Cir. 1973) (“While these
contentions may have had merit if timely raised in the district
court, it is well established that . . . issues not raised or presented
in the lower court will not be considered for the first time on
appeal.”). It’s also ironic because the Government argues the
FHFA Director is not exercising executive power while justifying
its constitutionality under a statute—the FVRA—that applies only
to “an officer of an Executive Agency.” 5 U.S.C. § 3345(a). In all
events, this point now appears moot because the Senate confirmed
a permanent Director who enjoys for-cause insulation. And almost
immediately after his confirmation, that insulated Director
revoked FHFA’s prior concession regarding the unconstitutionality
of the for-cause removal restriction, instead defended its
constitutionality, and continued sweeping the GSEs’ profits.

App. 110
causation as an element of standing to bring an
appointment claim. 561 U.S. at 512 n.12 (“[S]tanding
does not require precise proof of what the Board’s
policies might have been in that counterfactual
world.”). And as to the latter, the Court likewise
rejected counterfactual causation. The Court granted
prospective relief requiring officers to be properly
removable before exercising executive authority. Id. at
513. And it did so without analyzing whether lessinsulated officers would make different decisions than
the unconstitutionally insulated officers did. If a
plaintiff must show that a removable officer would
make a different decision, then Free Enterprise Fund
would not have granted relief without considering
whether a more accountable officer would make
different decisions.
Or take NLRB v. Noel Canning, 573 U.S. 513
(2014). By the time that case reached the Supreme
Court, the NLRB already had new, validly appointed
members. There was no evidence the new Board
members were inclined to overturn the actions of the
old, unconstitutionally appointed members. In fact, the
litigants challenging the appointments told the
Supreme Court that “going forward the government
can solve the problem through agency ratification of
past decisions.” Transcript of Oral Argument at 66,
Noel Canning, 573 U.S. 513 (No. 12-1281).
Nevertheless, the Court invalidated the old members’
decisions. See Noel Canning, 573 U.S. at 522 (“[T]hat
the Board now unquestionably has a quorum does not
moot the controversy about the validity of the
previously entered Board order.”).

App. 111
The best support we can find for counterfactual
causation is in the Bowsher dissent. It argued the
unconstitutional removal provision was “unlikely to be”
invoked, meaning in “political realit[y]” the officer’s
decision-making was unaffected. 478 U.S. at 730
(discussing Justice White’s dissent). But the majority
rejected that analysis: “The separated powers of our
Government cannot be permitted to turn on judicial
assessment of whether an officer exercising executive
power is” likely to be fired. Ibid. “The Framers did not
rest our liberties on such bureaucratic minutiae.” Free
Enterprise Fund, 561 U.S. at 500. Thus, there is no
reason for us to speculate about what a moreaccountable officer would have thought about the Net
Worth Sweep. And the Treasury Secretary’s agreement
to the Net Worth Sweep doesn’t tell us anything about
the propriety of insulating the FHFA Director.
III.
A majority of our Court believes that the
appropriate remedy for the constitutional violation is to
delete the offending statutory text. We respectfully
disagree, because we do not think our limited Article
III power to decide cases and controversies permits
such a remedy.
The judicial power vested by Article III of the
Constitution extends to “Cases” and “Controversies.”
U.S. CONST. art. III, § 2, cl. 1. It generally does not
include the legislative power to erase, rewrite, or
otherwise “strike down” statutes: “[U]nder our
constitutional system courts are not roving
commissions assigned to pass judgment on the validity
of the Nation’s laws.” Broadrick v. Oklahoma, 413 U.S.

App. 112
601, 610–11 (1973). Rather, “[c]onstitutional
judgments, as Mr. Chief Justice Marshall recognized,
are justified only out of the necessity of adjudicating
rights in particular cases between the litigants brought
before the Court.” Ibid. (citing Marbury v. Madison, 5
U.S. (1 Cranch) 137, 178 (1803)); see also United States
v. Godoy, 890 F.3d 531, 539–40 (5th Cir. 2018)
(explaining that the Supreme Court’s declining to apply
an unlawful statutory provision does not purge that
provision from existence).
When then-Judge Scalia was sitting as a member of
the three-judge district court in Synar v. United States,
he recognized the importance of choosing a remedy that
redresses the plaintiffs’ injury-in-fact. See Synar v.
United States, 626 F. Supp. 1374, 1393 (D.D.C.) (per
curiam), aff’d sub nom. Bowsher v. Synar, 478 U.S. 714
(1986). In that case, the constitutional violation was
caused by a “combination” of statutes: one authorizing
an officer to exercise executive power and another
governing the appointment or removal of the officer in
question. Ibid. Justice Scalia was faced with the
question: Which statute should the court refuse to
apply when either one would be constitutional in
isolation? His answer was the statute that “allegedly
authorizes the injury-in-fact that confers standing upon
the plaintiff.” Ibid. (synthesizing numerous Supreme
Court precedents). Because the injury-in-fact in that
case was caused by the statutory grant of executive
power, that grant had to “yield.” Id. at 1393–94.
In this case, Plaintiffs are injured by the Net Worth
Sw eep—a n ex erci se of ex ecut iv e p o w e r
unconstitutionally granted by HERA. Plaintiffs lost the

App. 113
value of their investments because FHFA used the Net
Worth Sweep to transfer their money to the Treasury.
They ask us to “[v]acat[e] and set[] aside the
[contract’s] Net Worth Sweep” provision. Our Article III
powers permit us to grant this remedy, as it would
redress Plaintiffs’ injury-in-fact. Such a remedy finds
support in precedent. See, e.g., Noel Canning v. NLRB,
705 F.3d 490, 493, 514–15 (D.C. Cir. 2013), aff’d, 134 S.
Ct. 2550 (2014) (vacating the NLRB’s order because the
Board was unconstitutionally constituted); see also
Dresser-Rand Co. v. NLRB, 576 F. App’x 332, 33–34
(5th Cir. 2014) (vacating Board’s order that was issued
by only two lawfully appointed members).
Instead of granting this remedy, a majority of our
Court charts a different path. They seek to blue-pencil
the statute by deleting the unconstitutional statutory
provision. Such a remedy is improper for two reasons.
First, it affords Plaintiffs no relief whatsoever. On
these facts, editing the statute would not resolve any
case or controversy. Plaintiffs do not complain about
the possibility of future regulatory activity. Instead,
they complain only about a past decision made by the
FHFA Director: contractually agreeing to the Net
Worth Sweep. A complaint based solely on past
violations cannot justify prospective relief ordering an
agency to disregard a statutory provision going
forward. In a case seeking redress for past harms such
as this one, prospective relief is no relief at all. Cf.
Lucia v. SEC, 138 S. Ct. 2044, 2055 n.5 (2018)
(explaining that Appointments Clause remedies should
be designed to preserve the separation of powers and
“to create ‘[]incentive[s] to raise Appointments Clause

App. 114
challenges’” (quoting Ryder v. United States, 515 U.S.
177, 183 (1995)).
Free Enterprise Fund is the principal precedent for
the majority’s blue-pencil remedy. But there, the
plaintiffs sought an injunction against future audits
and investigations by the unconstitutionally insulated
agency. To remedy the plaintiffs’ prospective injury-infact, the Court refused to apply the statute insulating
the officers from removal. See 561 U.S. at 508–10. The
Court recognized that the statutory provision was “only
one of a number of statutory provisions that, working
together, produce a constitutional violation.” Id. at 509.
In refusing to apply the for-cause protection provision
that insulated the PCAOB commissioners from
removal, it applied the most modest remedy it could to
redress the plaintiffs’ injuries. Thus, the Free
Enterprise Fund remedy was effectively an injunction
ordering the agency to disregard the second layer of
for-cause removal protection going forward, unless and
until Congress chose to fix the constitutional violation
in a different way. In this case, Plaintiffs did not
complain about the threat of future harm, so bluepenciling the statute would not redress any injury they
have alleged.
Strangely, our colleagues who argue that Plaintiffs
lack standing to bring their constitutional claim also
join a majority of the Court in endorsing a bluepenciling remedy. Nowhere in their opinion do they
explain how our Court could purport to delete a
statutory provision when there is no active case or
controversy within the meaning of Article III. We think
Plaintiffs do have standing, yet we cannot identify how

App. 115
deleting the FHFA Director’s removal protection would
redress any harm Plaintiffs have alleged. On what
basis could our colleagues possibly believe that a bluepenciling remedy is constitutionally permissible? We
can see none.
The second problem we have with the remedy
endorsed by a majority of our Court is that we do not
believe Article III of the Constitution permits us to
“strike” the FHFA Director’s for-cause protection from
the statute. See Murphy v. NCAA, 138 S. Ct. 1461,
1485 (2018) (Thomas, J., concurring) (explaining that
“[e]arly American courts did not have a severability
doctrine” because “[t]hey recognized that the judicial
power is, fundamentally, the power to render
judgments in individual cases”); Jonathan F. Mitchell,
The Writ-of-Erasure Fallacy, 104 VA. L. REV. 933, 936
(2018) (explaining “federal courts have no authority to
erase a duly enacted law from the statute books” but
have only the power “to decline to enforce a statute in
a particular case or controversy” and “to enjoin
executive officials from taking steps to enforce a
statute”); Kevin C. Walsh, Partial Unconstitutionality,
85 N.Y.U. L. REV. 738, 756 (2010) (explaining that the
Founders did not conceive of judicial review as the
power to “strike down” legislation).
At the Constitutional Convention, several delegates,
including James Wilson and James Madison, argued
for a “Council of Revision” comprised of federal judges
and the executive. Mitchell, supra, at 954. The Council
would have had the power to veto legislation passed by
Congress, subject to congressional override. Ibid. A
veto of legislation would render it “void,” without any

App. 116
legal effect. Ibid. That proposal was defeated at the
Convention on June 4, 1787. Id. at 957. Wilson and
Madison tried again on July 21, but again they were
defeated. Id. at 958. Finally, on August 15, they made
one last attempt to give the judiciary a veto over
federal legislation, proposing that the Supreme Court
be given the power to veto legislation independent of
the President, subject to congressional override. Id. at
958–59. Again, they were defeated. Id. at 959.
In the final Constitution, the judiciary was given
only the power to decide cases and controversies—to
resolve legal disputes between parties and order
remedies to redress injuries. Thus, when a court
concludes that a statute is unconstitutional, it is not
“striking down” or “voiding” or “invalidating” the law.
It is merely holding that the law may not be applied to
the parties in the dispute. The Constitution does not
empower courts to delete sections of state and federal
codes. The Founders expressly considered the
possibility of a judicial veto, and they rejected it
multiple times during the Constitutional Convention.
This history has been obscured by rhetoric that
Chief Justice Marshall used in Marbury v. Madison, 5
U.S. (1 Cranch) 137 (1803), to explain judicial review.
In that case he famously declared that a statute found
unconstitutional by a court becomes “entirely void,”
“invalid,” and “not law.” Id. at 177–78. Subsequent
cases have compounded the confusion. See, e.g., The
Civil Rights Cases, 109 U.S. 3, 26 (1883) (holding “void”
sections 1 and 2 of the Civil Rights Act of 1875).
Nevertheless, it is indisputable that courts do not have
the power to erase duly enacted statutes. Instead, they

App. 117
may decline to enforce them or enjoin their future
enforcement to resolve cases and controversies.
Our Court should not add to the confusion about the
judiciary’s limited powers by claiming to “sever” a
statute based on open-ended speculation about how
Congress would have solved the separation-of-powers
problem. And we certainly should not rewrite the
statute while pretending such legislative activity is the
most modest judicial remedy. We would instead
remand to the district court with instructions to
fashion a remedy that actually redresses Plaintiffs’
harms.
***
Whether we apply the Constitution’s original public
meaning, Myers, Humphrey’s Executor, Morrison, or
Free Enterprise Fund, the conclusion in this case is the
same. The FHFA Director cannot exercise the executive
power of the United States because he is
unconstitutionally insulated from presidential control
and accountability. And our Court does not have the
power under Article III to order a remedy that does not
redress Plaintiffs’ injuries.

App. 118
HAYNES, Circuit Judge, joined by STEWART, Chief
Judge, and DENNIS, SOUTHWICK, GRAVES,
HIGGINSON, and COSTA, Circuit Judges, dissenting
with respect to statutory claims:
I conclude—as the panel in this case and five other
circuits have held—that 12 U.S.C. § 4617(f) bars us
from granting the relief that the Shareholders seek on
their statutory claims. See Jacobs v. FHFA, 908 F.3d
884 (3d Cir. 2018); Saxton v. FHFA, 901 F.3d 954 (8th
Cir. 2018); Roberts v. FHFA, 889 F.3d 397 (7th Cir.
2018); Robinson v. FHFA, 876 F.3d 220 (6th Cir. 2017);
Perry Capital LLC v. Mnuchin, 864 F.3d 591 (D.C. Cir.
2017). This court’s role is not to question why as to the
benefits and detriments of the Net Worth Sweep.
Instead, under a statutory challenge to the FHFA’s
conduct, our court must examine the statute in
question and apply it.
Every court to address the issue agrees that the core
question is whether the FHFA acted within its
statutory authority. It is the core question because
§ 4617(f) states that “no court may take any action to
restrain or affect the exercise of powers or functions of
the Agency as a conservator or a receiver” unless
otherwise specified by statute or requested by the
Director. The Shareholders argue that the FHFA has
exceeded its statutory “powers or functions . . . as a
conservator or a receiver” such that the bar does not
apply. So I examine whether adopting the Net Worth
Sweep was within those statutory powers.
Given HERA’s grant of extensive powers to the
FHFA, I conclude that the FHFA acted within its
statutory powers when it adopted the Net Worth

App. 119
Sweep. The FHFA’s “powers are many and mostly
discretionary.” Jacobs, 908 F.3d at 889. To begin with,
once a conservator, the FHFA takes over the rights and
powers of the shareholders, officers, and directors. 12
U.S.C. § 4617(b)(2)(A)(i). It is then free to then “conduct
all business of the regulated entity” without any
restriction on that grant of power. See id.
§ 4617(b)(2)(B)(i).
Most importantly, when the FHFA conducts a
company’s business, it does not have to consider the
interests of shareholders. HERA dictates that the
Director “ensure that . . . the activities of each
regulated entity and the manner in which such
regulated entity is operated are consistent with the
public interest.” Id. § 4513(a)(1)(B)(v). Most
sweepingly, the FHFA may “take any action authorized
by [§ 4617], which the [FHFA] determines is in the best
interests of the regulated entity [e.g., the GSEs] or the
Agency [i.e., the FHFA].” Id. § 4617(b)(2)(J)(ii)
(emphasis added). As Judge Stras said, “That is no
typo. The FHFA can operate critically important
businesses, with trillions of dollars in assets and the
financial support of the federal government, in its own
best interests—apparently to the exclusion of the
interests of the American people, Fannie and Freddie,
and their shareholders.” Saxton, 901 F.3d at 960
(Stras, J., concurring). On top of that, the decision
about what is in the FHFA’s best interest is committed
to the FHFA.
This broad statutory grant of authority undermines
the Shareholders’ core arguments. To begin with, the
Shareholders argue that the statute requires the FHFA

App. 120
to pursue the goal of “preserving and conserving”
assets and operating the GSEs in a “sound and solvent”
manner. But those quoted terms are snippets from only
some of the provisions in § 4617 granting the FHFA
authority. See 12 U.S.C. § 4617(b)(2)(B)(iv), (b)(2)(D).
When reviewed in context, each of those provisions is
written as a permissive grant of authority. For
example, § 4617(b)(2)(D) begins, “The Agency may, as
conservator, take such action as may be . . . .” Other
provisions, like § 4617(b)(2)(B)(i) and § 4617(b)(2)(J)(ii),
grant the FHFA authority unrestricted by the goals of
asset preservation and solvency.
Undeterred, the Shareholders argue that though the
snipped provisions use “may,” they are actually
mandatory and constrain all other grants of authority.
Their theory is that “may” is “a simple concession to
the practical reality that a conservator may not always
succeed in rehabilitating its ward.” See Perry Capital,
864 F.3d at 638 n.1 (Brown, J., dissenting). But when
“may” and “shall” appear in the section, “the normal
inference is that each is used in its usual sense—the
one act being permissive, the other mandatory.”
Anderson v. Yungkau, 329 U.S. 482, 485 (1947).
Congress uses “shall” to note mandatory
responsibilities, even when the officer carrying them
out cannot possibly succeed. See, e.g., 28 U.S.C. § 547
(“[E]ach United States attorney, within his district,
shall . . . prosecute for all offenses against the United
States . . . .”). For instance, in the very same section,
the FHFA is told it “shall seek to develop incentives for
claimants to participate in the alternative dispute
resolution process.” 12 U.S.C. § 4617(b)(7)(B). “Shall”
makes the command mandatory, while “seek” signals

App. 121
that the FHFA might still fail. Congress could have
used similar language to constrain the FHFA’s actions,
but it chose not to.
The Shareholders also argue that the word
“conservator” connotes a requirement that the FHFA
“conserve” assets. They rely on the common law
meaning of the term, which they believe Congress
reflected in the statute. Congress is free to use common
law terms in statutes, which courts then look to when
interpreting the statute in the absence of statutory
definitions. But that general rule gives way when the
statute dictates otherwise. See, e.g., Taylor v. United
States, 495 U.S. 575, 594 (1990). Here, HERA’s
statutory scheme is inconsistent with the traditional
notions of a conservator. Common law conservators are
supposed to look out for the rights of shareholders or
other beneficiaries. But the FHFA looks out for the
public’s and its own interests, a key difference from
common law conservatorships. So this court cannot
read any common law principles into Congress’s use of
the word “conservator.”
During oral argument before the en banc court, a
member of our court suggested that this claim should
not be resolved on a motion to dismiss because it
includes factual allegations beyond what appeared
before other courts of appeals. However, neither party
had previously argued this point, each proceeding from
the assumption that this was purely a legal issue that
could be resolved on a motion to dismiss. Indeed, the
term “plausible” as it relates to the Shareholders’
complaint appears nowhere in their briefing. Instead,
the Shareholders focused their assertions on the

App. 122
contention that the FHFA exceeded its statutory
powers as a matter of law. They certainly never argued
that there are “fact issues” that need to be litigated or
more fully developed as it pertains to their statutory
arguments regarding § 4617(f). It is hardly novel law
that an appellant’s failure to brief an issue waives it.
See, e.g., Singh v. RadioShack Corp., 882 F.3d 137, 149
(5th Cir. 2018).
Despite the clear waiver, that en banc oral
argument question has now morphed into the holding
of the majority opinion on this issue. The majority
opinion concludes that the Shareholders stated a
“plausible” claim that the FHFA exceeded its statutory
authority in enacting the Third Amendment and
remands for “further proceedings.” Now, due to the
majority opinion’s departure from the Shareholders’
arguments, will the district court be required to hold a
trial on FHFA’s intent? That makes little sense.
Even if this argument were not waived, it still does
not pass muster as a distinction from the other circuits’
decisions. First, the complaints in the previous suits all
alleged that the FHFA did not have the intent of
conserving the GSEs’ capital, even if they did not cite
every piece of evidence supporting that view. Second,
and more importantly, the statute permits the FHFA
to act in the public’s or its own interest, and the statute
commits the decision of what is in the FHFA’s best
interest to itself. So even if those agencies’ subjective
intent—whatever that means—was to operate Fannie
Mae and Freddie Mac for its or the public’s benefit, the
statute allows the FHFA to do so.

App. 123
Nothing about this case alters the robust case law
from other circuits. I would join all our sister circuits
that have considered this question and rejected the
Shareholders’ statutory claim. The Shareholders have
not shown that the FHFA exceeded its enormous grant
of authority. I conclude that § 4617(f) bars us from
“tak[ing] any action to restrain or affect the exercise of
powers or functions of the [FHFA] as a conservator or
a receiver.” Because the Shareholders’ statutory claims
would “restrain or affect” the FHFA’s acting in its role
as conservator, the Shareholders’ claims should fail. I
would affirm the district court’s order granting the
Agencies’ motions to dismiss the Shareholders’ APA
claims because such claims are barred by 12 U.S.C.
§ 4617(f). I respectfully dissent from the contrary
decision to remand.

App. 124
STEPHEN A. HIGGINSON, Circuit Judge, joined by
STEWART, Chief Judge, and DENNIS and COSTA,
Circuit Judges, dissenting in part:
It is wrong to declare the FHFA unconstitutionally
structured. Neither the parties nor the majority has
addressed the statutory text central to the
constitutional issue: the provision establishing the
FHFA Director’s five-year term “unless removed before
the end of such term for cause by the President.” 12
U.S.C. § 4512(b)(2). For-cause removal provisions
typically enumerate the specific grounds that would
justify removal, such as “inefficiency, neglect of duty, or
malfeasance in office.” See Humphrey’s Executor v.
United States, 295 U.S. 602, 619 (1935) (quoting 15
U.S.C. § 41). This one does not. Thus, it is concerning
that no one in this litigation has addressed why or how
§ 4512(b)(2) is an undue impediment to removal in
practice; indeed, no one has even suggested what
§ 4512(b)(2)’s text means.1 Furthermore, no one has
identified an entity empowered to block a presidential
removal under § 4512(b)(2).
It is unwise to base a momentous constitutional
ruling on the expected effects of a statutory provision
no one has made the effort to construe.
***

1

The en banc D.C. Circuit’s decision on the constitutionality of the
Consumer Financial Protection Bureau’s design elicited varying
views on this question as to the for-cause removal protection of
that agency’s director. Compare PHH Corp. v. Consumer Fin. Prot.
Bureau, 881 F.3d 75, 122–24 (D.C. Cir. 2018) (Wilkins, J.,
concurring), with id. at 124–37 (Griffith, J., concurring).

App. 125
The Constitution affords sparse materials to resolve
this question––only broad pronouncements that “[t]he
executive Power shall be vested” in the President and
that “he shall take Care that the Laws be faithfully
executed.” Art. II §§ 1, 3. These clauses say nothing
about removal of executive-branch officers, and there is
little that is tractable or manageable in them
compared, for instance, to the Appointments Clause.
See Art. II § 2. That clause distinguishes between
categories of officers and specifies who may appoint socalled “inferior” officers. Id. These specifications
helpfully structure a well-developed case law on
presidential appointments. See, e.g., Lucia v. S.E.C.,
138 S. Ct. 2044, 2051–56 (2018); Edmond v. United
States, 520 U.S. 651, 658–66 (1997). No such specificity
guides us here.
What we have instead is a relatively limited body of
modern Supreme Court decisions. Only six cases,
decided over eighty-five years, comprise the corpus of
relevant precedential material. On the one side, three
cases identify unconstitutional limits on the
presidential removal power. See Free Enter. Fund v.
Pub. Co. Accounting Oversight Bd., 561 U.S. 477
(2010); Bowsher v. Synar, 478 U.S. 714 (1986); Myers v.
United States, 272 U.S. 52 (1926). On the other, three
cases uphold limits on the presidential removal power.
See Morrison v. Olson, 487 U.S. 654 (1988); Wiener v.
United States, 357 U.S. 349 (1958); Humphrey’s
Executor v. United States, 295 U.S. 602 (1935).2 As with

2

One might also place United States v. Perkins, 116 U.S. 483
(1886), concerning a cadet engineer in the Navy, and United States
v. Shurtleff, 189 U.S. 311 (1903), concerning a “general appraiser

App. 126
the sparseness of constitutional text, the limited extent
of this caselaw counsels, at minimum, caution before
we announce from the bench that Congress has
violated the Constitution.3
Two of the three cases striking down limits on the
presidential removal power are plainly beyond the
circumstances here, because they addressed provisions
that located control over removal wholly or partly in
the legislative branch. Bowsher concerned a law
assigning executive functions to the Comptroller
General, an official removable only by Congress. 478
U.S. at 728–34. Myers concerned a postmaster whose
removal by the President was subject to the “advice
and consent of the Senate.” 272 U.S. at 60. Congress
gave itself no such control over removal of the FHFA
of merchandise,” in the corpus of removal cases, but their
remoteness in time and the simplicity of the positions at
issue––relative to the complexity of modern administrative agency
design––make them minor parts of that corpus for present
purposes. Presidential removal was at issue also in Mistretta v.
United States, 488 U.S. 361 (1989), regarding the U.S. Sentencing
Commission, but the Court’s animating concern in that instance
was interference with judicial power, not executive.
3

The concurring opinion that responds to my views misses that my
dissent is fundamentally rooted in the principle of judicial
restraint. This principle must be our guide “in cases of peculiar
delicacy,” such as those that challenge the constitutionality of
Congress’s enactments. See McCulloch v. Maryland, 17 U.S. 316,
401 (1819) (Marshall, C.J.). Moreover, I do not recognize my views
in the paraphrases that the concurring opinion gives of them. At
the very beginning, for instance, the concurring opinion imputes
views to me about “original public meaning” and “‘judicial’ power
to rewrite Congress’s law,” yet neither is an argument I elaborate
here.

App. 127
Director, so neither case furnishes a basis on which to
find the FHFA unconstitutionally structured.
Appellants’ constitutional challenge therefore
stands or falls on Free Enterprise Fund, the only other
Supreme Court decision fashioning the Constitution’s
scant textual materials into a rule by which we might
invalidate an agency’s structure. In Free Enterprise
Fund, the Court affirmed the principle that “Congress
can, under certain circumstances, create independent
agencies run by principal officers appointed by the
President, whom the President may not remove at will
but only for good cause.” 561 U.S. at 483. Free
Enterprise Fund addressed “something quite different”:
vesting the for-cause removal decision in officials who
were themselves protected against removal without
cause, thereby creating “two layers of good-cause
tenure.” Id. at 495, 497. Appellants thus have the
difficult task of showing that Free Enterprise Fund,
which affirmed one layer of good-cause tenure while
condemning two, somehow requires us to invalidate the
one layer protecting the FHFA Director.
In addition to showing that Free Enterprise Fund
implicitly negated a principle it explicitly affirmed,
Appellants must also confront three cases approving
good-cause tenure: Humphrey’s Executor, Wiener, and
Morrison. These cases each affirmed Congress’s power
to insulate officials against presidential removal. The
cases affirmed that power in widely varying
institutional contexts and despite circumstances that,
under then-existing precedent, would make
curtailment of Congress’s power the expected outcome.

App. 128
Humphrey’s Executor came first, nine years after
Myers’s ringing vindication of the President’s
“unrestricted power of removal.” See Myers, 272 U.S. at
176. The case concerned the protection of Federal
Trade Commission members from removal unless for
“inefficiency, neglect of duty, or malfeasance in office.”
295 U.S. at 619. Given Myers’s emphatic declaration of
principle, this insulation of FTC commissioners would
surely fall. But it did not. A unanimous Supreme Court
ruled that Myers “cannot be accepted as controlling
[the] decision here.” 295 U.S. at 627. The Court
recognized Congress’s power to create “quasi legislative
or quasi judicial agencies” that could act
“independently of executive control.” Id. at 629. It read
Myers as “confined to purely executive officers” and
stated a new principle: that Congress’s power to
“preclud[e] a removal except for cause will depend upon
the character of the office.” Id. at 631–32.
Two decades later, the Supreme Court considered
the removal of a member of the War Claims
Commission, an adjudicatory body for claims of injury
or property damage in the Second World War. Wiener,
357 U.S. at 350–51. Unlike the FTC statute at issue in
Humphrey’s Executor, the statute creating the War
Claims Commission said nothing about removal. Id. at
352. One would think, therefore, that the President’s
removal power would operate unrestricted, per Myers.
On the contrary, Wiener adhered to Humphrey’s
Executor’s distinction between purely executive officers
and those meant to exercise independent judgment.
Focusing on the “nature of the function that Congress
vested in the War Claims Commission,” the Court read

App. 129
for-cause removal protection into the statute. Id. at
353–56.
Three decades after Wiener, the Supreme Court
considered the constitutionality of the independent
counsel authorized by the Ethics in Government Act of
1978. Morrison, 487 U.S. at 660. The independent
counsel was appointed by a special three-judge panel
upon a referral from the Attorney General, and the
office held a panoply of prosecutorial powers. Id. at
660–63. The Attorney General could remove the
independent counsel “only for good cause, physical
disability, mental incapacity,” or other substantially
impairing condition, with judicial review thereafter. Id.
at 663. Because the independent counsel wielded the
quintessentially executive power of criminal
prosecution, one would expect the office’s insulation
from presidential removal would be unconstitutional,
under either Wiener’s “nature of the function” or
Humphrey’s Executor’s “character of the office”
inquiries. But that was not the Court’s conclusion.
Morrison reasoned that Congress’s power “to impose a
‘good cause’-type restriction on the President’s power to
remove an official cannot be made to turn on whether
or not that official is classified as ‘purely executive.’” Id.
at 689. Instead it applied a new test: whether “the Act,
taken as a whole, violates the principle of separation of
powers by unduly interfering with the role of the
Executive Branch.” Id. at 693. The Court ruled that the
independent counsel statute did not cause such
interference. Indeed, it listed the Attorney General’s
ability to remove the independent counsel for cause
among the mechanisms adequately preserving
presidential control. Id. at 693, 696.

App. 130
Appellants thus confront a precedential barrier they
cannot surmount: three cases affirming good-cause
tenure in a variety of circumstances; and a fourth case
affirming it again while invalidating a form of double
good-cause tenure not present here.4
Appellants’ approach is to draw attention to a
purportedly “unique constellation of independenceenhancing features” in the FHFA’s design. This claim
derives from phrases that the Court used in Free
Enterprise Fund. E.g., 561 U.S. at 483 (asking whether
two “separate layers of protection may be combined”);
id. at 510 (describing the PCAOB members’ “goodcause removal” as “only one of a number of statutory
provisions that, working together, produce a
constitutional violation”) (emphasis added). The
majority opinion picks up on this language, deeming
the FHFA’s structure unconstitutional due to the
“combined effect” of its “unique constellation of
insulating features.”5 But these phrases in Free
Enterprise Fund were used to describe the novel
4

The concurring opinion tries to sidestep the precedential barrier
by turning to scholarship on the Decision of 1789 and other
primary sources that reveal founding-era viewpoints on
presidential removal power. The concurring opinion relies on one
side of a vigorous scholarly debate about these materials. Amici
scholars have helpfully shown another, quite different side. See
Brief of Harold H. Bruff, Gillian E. Metzger, Peter M. Shane, Peter
L. Strauss, and Paul R. Verkuil, as Amici Curiae in Support of
Defendants-Appellees, Collins v. Mnuchin, No. 17-20364 (5th Cir.
Jan. 17, 2019).
5

See Collins v. Mnuchin, 896 F.3d 640, 661, 670 (5th Cir. 2018)
(per curiam). The en banc majority opinion incorporates the panel
opinion’s analysis. See Section VIII(A).

App. 131
problem of two-layered good-cause tenure. The Court
was clear that the problematic novelty at issue in Free
Enterprise Fund was in contrast to the long-standing
legitimacy of single-layered good-cause tenure:
As explained, we have previously upheld limited
restrictions on the President’s removal power. In
those cases, however, only one level of protected
tenure separated the President from an officer
exercising executive power. It was the
President—or a subordinate he could remove at
will—who decided whether the officer’s conduct
merited removal under the good-cause standard.
The Act before us does something quite
different. It not only protects Board members
from removal except for good cause, but
withdraws from the President any decision on
whether that good cause exists. That decision is
vested instead in other tenured officers—the
Commissioners [of the SEC]—none of whom is
subject to the President’s direct control. The
result is a Board that is not accountable to the
President, and a President who is not
responsible for the Board.
The added layer of tenure protection makes a
difference.
591 U.S. at 495 (emphasis added). Thus, to import Free
Enterprise Fund’s phrases describing novel structures

App. 132
into this case is to erase the distinction those
descriptions were meant to draw.6
Appellants’ challenge rests on a tenuous
interpretation not only of Free Enterprise Fund but also
of the scholarly literature on administrative agency
design.7 Appellants argue, and the majority opinion
agrees, that various otherwise unremarkable agency
design features, through undescribed alchemy, combine
to make the FHFA Director unduly insulated from
presidential control. But upon a closer look, these
assertions are little more than debatable empirical
claims––hardly the firm footing judges need to take the
bold step of declaring Congress’s agency design choices
unconstitutional.
The majority opinion for the en banc D.C. Circuit
addressing the constitutionality of the Consumer
Financial Protection Bureau has already surveyed the
dubious empirical propositions on which Appellants
and the majority opinion depend. See PHH Corp. v.
Consumer Fin. Prot. Bureau, 881 F.3d 75, 92–110 (D.C.

6

For a thoughtful discussion of the significance that novelty should
have in constitutional analysis of agency design, see Leah M.
Litman, Debunking Antinovelty, 66 DUKE L.J. 1407 (2017).
7

See, e.g., Kirti Datla & Richard L. Revesz, Deconstructing
Independent Agencies (And Executive Agencies), 98 CORNELL L.
REV. 769 (2013); Rachel Barkow, Insulating Agencies: Avoiding
Capture Through Institutional Design, 89 TEXAS L. REV. 15 (2010).
One can only imagine the feelings of scholars who were motivated
by the “urgent need” for better institutional design against the
threat of agency capture, Barkow, 89 TEXAS L. REV. at 18, upon
seeing their work turned into a constitutional cudgel against that
design.

App. 133
Cir. 2018).8 That wheel need not be reinvented here,9
but a few points may usefully be added.
The majority opinion gives weight to the
purportedly insulating effect of the FHFA’s singleheaded structure, but that structure may just as
readily promote accountability as inhibit it, by
spotlighting the obstacle in the way of the President’s
will. The majority opinion values the internal checks of
a multi-member structure, particularly when
bipartisan balance is required, but such structures tie
a President’s hands as much as free them. If the
constitutional concern here is undue interference with
presidential control, an agency structure requiring the
President to appoint a political opponent can hardly be
said to enhance presidential sway. Such a structure
could not be said to have constitutional significance
either. The Supreme Court never suggested in Free
Enterprise Fund that the internal dynamics fostered by
the PCAOB’s multi-member structure might avoid a
constitutional violation.10 The dubiousness of these
8

The majority opinion expresses no disagreement with the en banc
D.C. Circuit’s analysis affirming the constitutionality of the CFPB,
instead identifying “salient distinctions” between the CFPB and
FHFA. Collins, 896 F.3d at 673. With that lack of disagreement I
quite agree.
9

Cf. Consumer Fin. Prot. Bureau v. Seila Law LLC, 923 F.3d 680,
682 (9th Cir. 2019), petition for cert. docketed (June 28, 2019) (No.
19-7) (likewise declining to “re-plow the same ground”).
10

A common argument from parties and judges skeptical of agency
insulation is that the multi-member structure of the FTC––a “body
of experts”––was an essential part of the Court’s decision in
Humphrey’s Executor affirming the FTC’s structure. See, e.g., PHH

App. 134
various claims in turn makes their “combined effect”
yet more questionable.11
As I suggested at the outset, Appellants have not
elaborated how for-cause removal protection itself is an
undue barrier to presidential control, rather than a
useful tool thereof, as Morrison held. 487 U.S. at 696.
In this connection, it warrants mention that
Humphrey’s Executor and Wiener, in which the
removed officials prevailed, were suits for backpay in
the Court of Claims, not emergency suits for
injunctions to block removal. See Wiener, 357 U.S. at
350–51; Humphrey’s Executor,12 295 U.S. at 618–19. No
one has put forward an example of the President being
blocked from removing an official at the FHFA
Director’s level. Thus, the actuality of the protection in
practice is anyone’s guess.13
Corp., 881 F.3d at 98–99 (majority opinion’s explanation of
challengers’ argument); id. at 143, 150–51 (Henderson, J.,
dissenting). But that quote appeared in Humphrey’s Executor’s
treatment of a preliminary statutory issue, not in its constitutional
analysis. Compare 295 U.S. at 621–26 (statutory); id. at 626–32
(constitutional); see PHH Corp., 881 F.3d at 98–99 (making this
observation).
11

Relatedly, it is debatable that the FHFA’s features are in fact
unique. One scholarly treatment of “indicia of independence”
identified seven salient features, of which the FHFA and eight
other agencies had five, ten agencies had six, and four agencies
had seven. See Datla & Revesz, 98 CORNELL L. REV. at 825.
12

13

Humphrey had died; hence that case’s unusual name.

Justice Scalia’s noted dissent in Morrison delved into the
difficult political dynamics likely to engulf presidential removal of
an official statutorily protected against removal without cause. See

App. 135
Moving from generalities to specifics, the FHFA
does not exhibit undue insulation. As Judge Costa’s
opinion explains, the FHFA undertook every action at
issue here by agreement with the Secretary of the
Treasury, a purely executive officer serving at the
pleasure of the President. The President thus had
direct control via the bargaining power of the
Secretary.
Moreover, two unusual features present in Free
Enterprise Fund are not present here. First, the
statutory grounds for removal of PCAOB members set
an “unusually high standard.” 561 U.S. at 502–03.14 By

487 U.S. at 702–03 (intuiting that “[t]he context of this statute is
acrid with the smell of threatened impeachment,” and noting the
“bitter power dispute” giving rise to the case). Concededly, we have
a duty to determine the constitutionality of statutes. See
Zivotovsky ex rel. Zivotovsky v. Clinton, 566 U.S. 189, 197 (2012)
(relating removal jurisprudence to the political-question doctrine).
But, to the extent we find ourselves basing constitutional
reasoning on hypothesized trajectories of interbranch politics, it is
cause for reflection on the wisdom of what we are doing. For a
nuanced and somewhat contrary view of how such hypothesizing
might be factored into adjudication, see Adrian Vermeule,
Conventions of Agency Independence, 113 COLUM. L. REV. 1163
(2013).
14

“A [PCAOB] member cannot be removed except for willful
violations of the [Sarbanes–Oxley] Act [of 2002], Board rules, or
the securities laws; willful abuse of authority; or unreasonable
failure to enforce compliance—as determined in a formal
Commission order, rendered on the record and after notice and an
opportunity for a hearing. [15 U.S.C.] § 7217(d)(3); see § 78y(a).
The Act does not even give the Commission power to fire Board
members for violations of other laws that do not relate to the Act,
the securities laws, or the Board’s authority. The President might

App. 136
contrast, the FHFA’s authorizing statute, as noted
above, says merely that the Director shall serve a fiveyear term “unless removed before the end of such term
for cause by the President.” 12 U.S.C. 4512(b)(2).
Though this provision is the centerpiece of Appellants’
constitutional claim and of the majority opinion’s
constitutional remedy, no party and no part of the
majority opinion suggests what this text should mean.
It is at least quite plain that the text sets a lower bar
than the PCAOB statute.15 Second, members of the
PCAOB were removable only by formal order of the
SEC, and such orders are subject to judicial review.
Free Enter. Fund, 561 U.S. at 502 (citing 15 U.S.C.
§ 78y(a)(1)). The President would thus have to
persuade not only the SEC commissioners but also an
Article III court that removal was appropriate. No such
obstacle exists here.
Finally, the nature of the FHFA’s function and the
character of the Director’s office matter, even though
Morrison downgraded Wiener’s and Humphrey’s
Executor’s inquiries from a determinative to a
subsidiary level. See Morrison, 487 U.S. at 691. The
majority and dissenting opinions on Appellants’
statutory claims cover the relevant ground. As their
discussions make clear, the FHFA Director wields no
have less than full confidence in, say, a Board member who cheats
on his taxes; but that discovery is not listed among the grounds for
removal under § 7217(d)(3).” 561 U.S. at 503.
15

See Datla & Revesz, 98 CORNELL L. REV. at 788 (“Statutes that
specify that an appointee cannot be removed except for ‘good cause’
confer the weakest protection,” in contrast to statutes enumerating
specific grounds).

App. 137
prosecutorial power as the independent counsel in
Morrison had. The Director has powers of regulation
and enforcement, like the PCAOB, though only over the
government-sponsored enterprises, Fannie Mae and
Freddie Mac, and affiliated entities. See Free Enter.
Fund, 561 U.S. at 485–86 (PCAOB’s powers); 12 U.S.C.
§ 4631 (Director’s cease-and-desist proceedings). This
appeal does not arise from the use of those powers, nor
has any party shown us examples of their misuse.
Instead, this appeal arises from the FHFA’s
conservatorship function,16 a role one would be hardpressed to characterize as near the heart of executive
power.17 To the extent that the Supreme Court’s
removal doctrine has been animated by a concern for
preserving presidential control over the core of that
power, this is not a case that should stir us to act.
***
Regarding Appellants’ constitutional claim against
the FHFA, I see only reasons for caution and
skepticism, and none for action. Neither the

16

The Secretary of the Treasury, an appellee in this matter, relies
on our caselaw distinguishing the “non-governmental” power
wielded by agencies acting as conservators or receivers of
struggling financial institutions from the power wielded by
agencies acting as regulators. See, e.g., United States v. Bezborn,
21 F.3d 62, 68 (5th Cir. 1994) (concerning the Resolution Trust
Corporation, a model for the FHFA’s design).
17

Cf. A. Michael Froomkin, Note, In Defense of Administrative
Agency Autonomy, 96 YALE L.J. 787, 809–12 (1987) (identifying a
given power’s enumeration in Article I versus Article II as the key
criterion in determining whether Congress may insulate from
presidential control an agency acting pursuant to that power).

App. 138
Constitution’s text, nor the Supreme Court’s
constructions thereof, nor the adversary process in this
litigation has given us much ground on which to
declare the FHFA’s design unconstitutional. If so thin
a record may be made the basis for invalidating
Congress’s considered response to a major crisis in
American life, I am apprehensive about the responsible
use of our nullification power henceforth.

App. 139
GREGG COSTA, Circuit Judge, joined by STEPHEN A.
HIGGINSON, Circuit Judge, dissenting in part:
In a separation-of-powers case, our vigilance should
first be directed at the constitutional limits on our own
power. Raines v. Byrd, 521 U.S. 811, 819 (1997) (“[O]ur
standing inquiry has been especially rigorous when
reaching the merits of the dispute would force us to
decide whether an action taken by one of the other two
branches of the Federal Government was
unconstitutional.”). We have failed in that duty. In
concluding that unravelling the Net Worth Sweep is
not the remedy for the allegedly unconstitutional
insulation of the FHFA, the court recognizes that the
President has always maintained “oversight” of the Net
Worth Sweep. Majority Op. (Remedy) 58. But that
conclusion does not just resolve the final question for
the constitutional claim. It also answers the first
question any case poses: Is there jurisdiction?
The answer is “no” because presidential control of
the Net Worth Sweep means there is no connection
between the good-cause removal provision for FHFA
Directors that plaintiffs challenge and the injury from
the New Worth Sweep they allege. In other words, the
limitation on the removal power did not cause their
injury.
The requirement that an alleged constitutional
defect caused the plaintiff’s injury is part of the
threshold standing inquiry—the standing lingo is
“traceability”—that ensures we are only deciding
constitutional issues when they arise in “cases” or
“controversies.” Raines, 521 U.S. at 818–19. For
numerous reasons described below (some of which are

App. 140
recognized in the court’s remedial ruling), the Net
Worth Sweep is not traceable to the for-cause
limitation on the President’s power to remove the
FHFA Director. In deciding whether Congress has
violated the separation of powers at the behest of
plaintiffs who lack standing, we violate the separation
of powers ourselves. See Clapper v. Amnesty Int’l, 568
U.S. 398, 408 (2013) (“The law of Article III standing
. . . is built on separation-of-powers principles.”).
This is not just a case in which plaintiffs fail to
prove standing; the history and nature of the Net
Worth Sweep, as well as the Shareholders’ own
allegations, disprove standing. Let us count the ways
the record refutes the required causal link.
For starters, the Acting Director of the FHFA who
agreed to the Third Amendment was subject to full
removal power. See 12 U.S.C. § 4512(f) (allowing Acting
Directors with no limits on the President’s ability to
remove them). Recognizing the problem for this lawsuit
if the FHFA was not insulated from presidential
control at the Net Worth Sweep’s inception, the
majority opinion contends that the for-cause limit on
removal also applies to Acting Directors. Maj. Op. 48.
This novel reading is a stark departure from textualist
principles. Unlike the tenure protection the statute
provides the FHFA’s Senate-confirmed Directors, 12
U.S.C. § 4512(b)(2), it does not impose a for-cause
limitation on the removal of Acting Directors. 12 U.S.C.
§ 4512(f). “[I]t is a general principle of statutory
construction that when Congress includes particular
language in one section of a statute but omits it in
another section of the same Act, it is generally

App. 141
presumed that Congress acts intentionally and
purposely in the disparate inclusion or exclusion.”
Barnhart v. Sigmon Coal Co., Inc., 534 U.S. 438, 452
(2002) (quotations omitted).
That Congress created the FHFA as “an
independent agency,” Majority Op. at 48 (citing 12
U.S.C. § 4511(a)), is no license for us to graft onto the
statute a for-cause limitation on removal of Acting
Directors that Congress did not include.1 As the Office
of Legal Counsel recently pointed out, “Congress does
not, by purporting to give tenure protection to a
Senate-confirmed officer, afford similar protection to an
individual who temporarily performs the functions and
duties of that office when it is vacant.” Designating an
Acting Director of the Bureau of Consumer Financial
Protection, 41 Op. O.L.C. ___, 2017 WL 6419154, Slip
Op. at 11 (Nov. 25, 2017). The D.C. Circuit agrees that
courts should not create for-cause removal restrictions
for officers Congress does not explicitly protect. Swan
v. Clinton, 100 F.3d 973, 988 (D.C. Cir. 1996) (refusing
to assume certain officials retained removal protection
after their terms expired because the statute allowing
those officials to continue in a “holdover capacity” made
no mention of such protection). No authority has ever

1

The court is looking in the wrong place for the removal power
over Acting Directors when it states that Section 4512(f) “does not
explicitly address removal.” Majority Op. at 48. That power comes
from the Constitution, not Congress. Myers v. United States, 272
U.S. 52, 163–64 (1926). One would thus search in vain for a statute
giving the President authority to remove the Attorney General, the
Secretary of Defense, or any other cabinet secretary.

App. 142
read in tenure protection for acting officials not subject
to Senate confirmation.2
Doing so for the first time here is particularly
problematic because penciling in a for-cause limitation
on the removal of Acting Directors creates a
constitutional issue. In interpreting statutes, we are
supposed to avoid constitutional difficulties, not create
them. Edward J. Bartolo Corp. v. Fla. Gulf Coast Bldg.
& Const. Trades Council, 485 U.S. 568, 575 (1988)
(“[W]here an otherwise acceptable construction of a
statute would raise serious constitutional problems, the
Court will construe the statute to avoid such problems
unless such construction is plainly contrary to the
intent of Congress.”).

2

Wiener v. United States read in tenure protection only for Senateconfirmed officials, not for acting officials, who in another respect
are already exclusively the product of presidential power because
they do not go through the advice-and-consent process. 357 U.S.
349, 350 (1958). And unlike the FHFA statute and the CFPB
statute OLC addressed, Wiener was not a case in which Congress
extended for-cause protection to one kind of officer and not to
another. The “expressio unius est exclusio alterius” canon thus had
no role in Wiener. Instead, it was addressing a complete silence as
to removal. Here there is no “congressional failure of
explicitness”—Congress explicitly gave tenure protection only to
Senate-confirmed Directors. Id. at 352. Finally, Wiener predates
Morrison v. Olson’s shift in removal power cases from a focus on
the nature and function of the office in question (that is, whether
the officer performing purely executive functions and therefore in
need of greater presidential control) to one about the degree to
which the president’s prerogative is impaired. See 487 U.S. 654,
691 (1988). The “intrinsic judicial character” of the War Claims
Commission made its members one of the stronger candidates for
tenure protection under the then-governing conception of removal
power. Wiener, 357 U.S. at 355.

App. 143
Why turn these cardinal rules of statutory
construction upside down? Because the implication is
quite clear when the statute governing Acting Directors
is read according to its plain language: If the FHFA
agreed to the Net Worth Sweep when its leader was
fully accountable to the President, then any injury that
policy caused is not traceable to the for-cause removal
limitation the Shareholders seek to challenge. Indeed,
this may be why none of the numerous other statutory
challenges to the Net Worth Sweep that courts of
appeals have decided included the constitutional claim
about the removal power. See Jacobs v. FHFA, 908
F.3d 884 (3d Cir. 2018); Saxton v. FHFA, 901 F.3d 954
(8th Cir. 2018); Roberts v. FHFA, 889 F.3d 397 (7th Cir.
2018); Robinson v. FHFA, 876 F.3d 220 (6th Cir. 2017);
Perry Capital LLC v. Mnuchin, 864 F.3d 591 (D.C. Cir.
2017). As for the only other case that challenged the
removal power in connection with the Net Worth
Sweep, a court dismissed it for lack of standing,
recognizing that the policy came from an Acting
Director subject to full presidential control. Bhatti v.
FHFA, 332 F. Supp. 3d 1206, 1213–14 (D. Minn. 2018),
appeal docketed, No. 18-2506 (8th Cir. July 16, 2018).
The role of a presidentially accountable FHFA
official in agreeing to the Net Worth Sweep is enough
to reject traceability. But there is more.
The Shareholders’ allegations confirm that the
Third Amendment was not the product of any improper
insulation of the FHFA from presidential control. In
fact, their theory is the opposite—that the Third
Amendment was a “deliberate strategy” of the Obama
Administration. The complaint often refers FHFA and

App. 144
Treasury collectively as “the Agencies,” not as
independent actors. The Shareholders allege that
“those Agencies initiated a long-term policy of seeking
to seize control of Fannie and Freddie.” They further
contend that the Net Worth Sweep was part of “the
Administration’s plans to keep Fannie and Freddie in
perpetual conservatorship.”
Treasury’s role provides even more proof that the
Net Worth Sweep is not traceable to the for-cause
removal limitation. The necessary and ongoing
involvement of an agency not suffering from any
alleged constitutional defect is an unusual feature in a
separation-of-powers case.3 Ever since Treasury was
established in 1789 as the third department in the
executive branch,4 its secretary has been subject to atwill removal. So even if the President could not express
any disapproval of the Net Worth Sweep policy through
the FHFA once a Senate-confirmed Director replaced
the Acting Director, the Treasury Secretary was always
an outlet for any such views. Yet Treasury has
3

Indeed, the Treasury Secretary is the lead defendant in this case,
demonstrating that the executive branch is enforcing the policy
that the Shareholders contend is the product of an improperly
insulated bureaucrat.
4

The First Congress created Treasury on September 2, 1789. An
Act to Establish the Treasury Department, 1 Stat. 65, Ch. 12,
65–67 (1789). Earlier in that first year of the republic, the State
Department (then called the Department of Foreign Affairs) was
created on July 27 and the War Department on August 7. An Act
for Establishing an Executive Department, to Be Denominated the
Department of Foreign Affairs, 1 Stat. 28, Ch. 4, 28–29 (1789); An
Act to Establish an Executive Department, to Be Denominated the
Department of War, 1 Stat. 49, Ch. 7, 49–50 (1789).

App. 145
continued to accept the dividends for each of the past
27 quarters (since the Third Agreement was signed in
August 2012), showing that Treasury’s leadership has
not viewed the Net Worth Sweep as out of step with the
preferred policy of either the Obama or Trump
Administration. If that stance ever changes, all it
would take is for the President to direct the Treasury
Secretary to stop accepting the dividends.
Looking at the government officials involved in both
the creation and continuation of the Net Worth Sweep
leads to one conclusion: The injury Shareholders
complain about in no way flows from any limits on the
President’s ability to influence FHFA policy.
Nor can the Shareholders rely on “regulated entity”
standing. That doctrine describes removal power cases
in which courts have found standing because the party
bringing the challenge is under investigation. Free
Enter. Fund v. Pub. Co. Accounting Oversight Bd., 561
U.S. 477, 487–88 (2010); Morrison v. Olson, 487 U.S.
654, 667–68 (1988); PHH Corp. v. Consumer Fin. Prot.
Bureau, 881 F.3d 75, 82 (D.C. Cir. 2018). But those
cases were brought by the individuals or corporations
subject to agency authority. In contrast, the FHFA is
not “overseeing” or regulating the Shareholders. To the
extent it is engaged in ongoing oversight of anything, it
is of the government sponsored entities. Corporate law
distinguishes between a corporation and its
shareholders for standing purposes; a shareholder, or
even a majority of them, cannot litigate in the shoes of

App. 146
the corporation.5 See Dole Food Co. v. Patrickson, 538
U.S. 468, 474-75 (2003) (“A basic tenet of American
corporate law is that the corporation and its
shareholders are distinct entities. An individual
shareholder, by virtue of his ownership of shares, does
not own the corporation’s assets . . . .” (citations
omitted)); Fox v. Harbottle, 2 Hare 461 (Eng. 1843)
(seminal corporate law case holding that the proper
plaintiff in an action alleging an injury to the
corporation is the corporation). Think of the potential
for chaos if the law were otherwise. Any shareholder of
a corporation—for major ones like Wal-Mart or GE we
are talking about tens of thousands of potential
plaintiffs—could claim to represent the company
despite shareholders holding widely varying views on
issues affecting the corporation. Consistent with the
long-established rule that a business entity has to

5

A derivative suit is the notable exception. As noted in the
majority opinion, our sister circuits have determined that the
FHFA, not the Shareholders, has sole authority to bring a
derivative suit. Maj. Op. 21–22. See also Roberts, 889 F.3d at 408;
Perry Capital, 864 F.3d at 624. And while two circuits have found
an exception in an analogous situation—when the FDIC as
conservator of a bank has a conflict of interest with respect to a
particular claim—no such exception to HERA’s grant of “all rights,
titles, powers, and privileges of the regulated entity, and of any
stockholder” to the FHFA as conservator appears in the statutory
text. 12 U.S.C. § 4617(b)(2)(A)(i); Roberts, 889 F.3d at 409–10.
But those issues arise in the context of whether Shareholders
can bring their statutory claim. The majority opinion concludes
that this is a direct shareholder action. That analysis does not
carry over to standing for the constitutional claims based on
regulated entity status. For that, it has always been the entity
being regulated—not its shareholders—that has standing to
challenge the structure of the regulating agency.

App. 147
litigate on its own behalf, no case has recognized that
the shareholders of a regulated entity have standing to
bring constitutional challenges to the structure of the
regulator. That astonishingly expansive view of
regulated entity standing cannot be the law.
So if Shareholders have standing at all, it must be
founded on harms the Net Worth Sweep directly
inflicts on them. On that score, while the standing
requirements are sometimes relaxed in separation-ofpowers cases,6 they are not removed. See Bond v.
United States, 564 U.S. 211, 225 (2011) (continuing to
require that a plaintiff must show an “actual or
imminent harm that is concrete and particular, fairly
traceable to the conduct complained of, and likely to be
redressed by a favorable decision”). The Supreme Court
has loosened the standing inquiry when it was not
possible to know if the allegedly unconstitutional
structure of an agency caused the challenger’s injury.
See Free Enter. Fund, 561 U.S. at 512 n.12. Given the
usual difficulty of proving that “counterfactual world,”
plaintiffs do not have to prove that causation is more
than a possibility when the alternative reality is
unknowable. Id; see also Landry v. F.D.I.C., 204 F.3d
1125, 1131 (D.C. Cir. 2000) (explaining the traceability
requirement is relaxed when it is “difficult or
6

One important way standing is relaxed is that we do not require
the branch of government whose powers are being encroached to
bring the separation-of-powers claim. Because structural
limitations in the Constitution protect individual liberty, affected
individuals can bring such claims. See Bond v. United States, 564
U.S. 211, 222–23 (2011) (discussing the rationale). But that does
not mean they don’t have to be affected by the allegedly
unconstitutional law.

App. 148
impossible for someone subject to a wrongly designed
scheme to show that the design . . . played a causal role
in his loss”).7 But it is one thing to give plaintiffs the
benefit of the doubt when we cannot know if a properly
structured agency would have taken the same action.
It is quite another to ignore the traceability
requirement when there is no doubt that the alleged
constitutional error did not cause the plaintiffs’ injury.
That is the case here. We know the Net Worth Sweep
is a presidentially-sanctioned policy because a
Treasury Secretary and Acting Director of FHFA
subject to full removal authority adopted the policy,
and the presidentially-controlled Treasury has
continued to enforce it. If there is standing even in this
situation when real world events disprove traceability,
then there is nothing left of the Article III limitation.8

7

In its standing discussion, court cites another line from Free
Enterprise—that “the separation of powers does not depend on the
views of individual Presidents, nor on whether ‘the encroachedupon branch approves the encroachment.’” Majority Op. 44
(quoting Free Enter. Fund, 561 U.S. at 497 (quoting New York v.
United States, 505 U.S. 144, 182 (1992))). But the Supreme Court
did not make that comment in discussing standing. It instead was
directed at the merits, pointing out that presidential acquiescence
in a limit on removal power does not eliminate the constitutional
defect. Free Enter. Fund, 561 U.S. at 496. The standing inquiry
requires us to answer not whether “the encroached-upon branch
approves the encroachment,” but instead whether the
encroachment caused the injury.
8

Two other cases the Shareholders rely on are inapposite. Noel
Canning arose directly from an enforcement action brought by the
challenged agency, so standing was not even discussed. N.L.R.B.
v. Noel Canning, 573 U.S. 513 (2014). Beyond that, the case
involved an unconstitutional appointment, not an improperly

App. 149
Because presidential control over the creation and
enforcement of the Net Worth Sweep refutes any link
between it and the challenged limits on presidential
oversight of the FHFA, Shareholders have little more
claim to litigate the structure of that agency than any
taxpayer would. Hein v. Freedom from Religion Found.,
551 U.S. 587, 609–10 (2007) (recognizing that taxpayer
standing generally does not exist). If they could be

insulated agency. That is an important distinction—any action an
improperly appointed agency official takes is “void ab initio.” Noel
Canning v. N.L.R.B., 705 F.3d 490, 493 (D.C. Cir. 2013), aff’d, 573
U.S. 513 (2014). Whereas a lack of authority permeates every
agency action, a lack of oversight only injures a regulated party if
the required oversight would have made a difference. Compare
Lucia v. S.E.C., 138 S. Ct. 2044, 2055 (2018) (vacating and
remanding decision of an improperly appointed ALJ) with Free
Enter. Fund, 561 U.S. at 508 (rejecting the “broad holding” that
improper insulation rendered the challenged agency “and all power
and authority exercised by it in violation of the Constitution”
(quotation omitted)).
Bowsher v. Synar may provide even less assistance. 478 U.S.
714 (1986). For one, as Judge Higginson points out, that case is
less about limiting the President’s ability to control an agency and
more about placing executive authority in the hands of a legislative
officer. Higginson Op. at 3. And in any case, unlike here, in
Bowsher there was evidence that the constitutional defect
prevented the President from carrying out his preferred policy. See
Brief for the United States, Bowsher v. Synar, 478 U.S. 714 (1986),
1986 WL 728082, at *44–51. Indeed, the central purpose of the
statute challenged in Bowsher was to tie the President’s hands and
force him to sequester funds hand-selected by a Comptroller
General who answered directly to Congress. Bowsher, 478 U.S. at
718. So standing for union members whose cost of living
adjustments were withheld as a result of sequestration was easily
satisfied—their money was sequestered at the behest of a
Comptroller General who never should have had that authority in
the first place. Id. at 721.

App. 150
parties to this case, most taxpayers would present a
different perspective on the Net Worth Sweep. It has
helped repay the roughly $190 billion taxpayers lent to
bail out Fannie and Freddie before the 2008 financial
collapse—a key component of the recovery from the
Great Recession given the outsized role of Fannie and
Freddie in the housing market.9 Plaintiffs who invested
before the collapse would have lost their entire
investment were it not for the bailout. Those who have
invested since have paid “pennies on the dollar” in a
speculative play based on hopes that either the
Treasury Department would change the Net Worth
Sweep policy or that the courts would undo it for them.
See Robert Stowe England, Against All Odds: The Long
Bet on Fannie Mae and Freddie Mac, Institutional
Investor, Sept. 6, 2013.10 The former may happen.
Treasury is reviewing whether to end the
conservatorship, yet another reminder that the
President has always held full policymaking authority
over this issue. Andrew Ackerman, Administration
Nears Plan to Return Fannie, Freddie to Private
Ownership, WALL ST. J., May 30, 2019.11 But if we were

9

Shareholders point out that now, more than a decade later, the
dividends have repaid the billions lent. But looking only at the
principal ignores the return one would expect based on the risk the
enormous sum would not be repaid and the time value of money.
10

Available at https://www.institutionalinvestor.com/article/
b14zbcy3kts0t7/against-allodds-the-long-bet-on-fannie-mae-andfreddie-mac.
11

Available at https://www.wsj.com/articles/administration-nearsplan-to-return-fannie-mae-freddie-mac-to-private-ownership1155925207.

App. 151
to grant Shareholders that relief based on their
separation-of-powers claim, they would be receiving not
just a financial windfall. Unravelling the Net Worth
Sweep because of limits on the removal power that had
nothing to do with the creation or continuation of that
financial policy would also be giving Shareholders a
constitutional windfall.

App. 152
WILLETT, Circuit Judge, joined by JONES, SMITH,
ELROD, HO, ENGELHARDT, and OLDHAM, Circuit
Judges, dissenting in part:
In my view, the proper remedy for Count IV is to
vacate the Third Amendment. I respectfully dissent
from the court’s decision to instead grant a prospective
remedy.
I
When a plaintiff with Article III standing challenges
the action of an unconstitutionally-insulated officer,
that action must be set aside. In Bowsher v. Synar, the
Supreme Court held the Comptroller General could not
prescribe budget reductions because he was not
removable by the President.1 “Once an officer is
appointed, it is only the authority that can remove him,
and not the authority that appointed him, that he must
fear and, in the performance of his functions, obey.”2
The Comptroller General exercised executive power:
His role required him to “interpret” the law and
“exercise judgment” in applying it.3 Because he did so
outside the President’s supervision, the Court set aside
his sequestration order. The Court affirmed the district
court’s judgment “that the presidential sequestration
order issued . . . pursuant to the unconstitutional

1

478 U.S. 714, 736 (1986).

2

Id. at 726 (quoting Synar v. United States, 626 F. Supp. 1374,
1401 (D.D.C. 1986)).
3

Id. at 733.

App. 153
automatic deficit reduction process be, and hereby is,
declared without legal force and effect.”4
Synar’s remedial approach applies here. It is the
only Supreme Court case that presented the issue. In
Myers v. United States, the Court upheld a
postmaster’s removal, so it had no need to grant relief
against past government action.5 In Morrison v. Olson,
the Court found no constitutional defect in the
independent counsel’s removal protection, so it granted
no relief.6
In Free Enterprise Fund, the Court held the Public
Company Accounting Oversight Board’s double forcause removal protection unconstitutional.7 But no
Board action had become final against the plaintiff, an
accounting firm.8 So the Court “excised” the offending
removal protection from the statute going forward.9
The plaintiff had standing for prospective relief
because the challenged agency “regulate[d] every detail
of an accounting firm’s practice.” 1 0 The

4

Synar, 626 F. Supp. at 1404, aff’d, 478 U.S. at 736.

5

272 U.S. 52, 176 (1926); see id. at 106.

6

487 U.S. 654, 691–92 (1988).

7

Free Enter. Fund v. Pub. Co. Accounting Oversight Bd., 561 U.S.
477, 496 (2010).
8

Id. at 490.

9

Id. at 509.

10

Id. at 485.

App. 154
unconstitutionally-insulated regulator inflicted an
ongoing injury.
Here, in contrast, FHFA generally regulates the
GSEs, not their shareholders. And the Third
Amendment, which became final in 2012, caused the
Shareholders’ injury. So I disagree with Judge
Duncan’s view that Free Enterprise Fund, or any
Supreme Court decision, counsels against a vacatur
remedy in this case. And the Shareholders’ lack of
“regulated party” standing separates me from Judge
Haynes’s remedial theory.
Despite having no occasion to vacate agency action,
Free Enterprise Fund reinforces Synar’s principle that
an unconstitutionally-insulated officer may not exercise
executive power. “[T]he Framers sought to ensure that
‘those who are employed in the execution of the law will
be in their proper situation, and the chain of
dependence be preserved; the lowest officers, the
middle grade, and the highest, will depend, as they
ought, on the President, and the President on the
community.’”11 “By granting the Board executive power
without the Executive’s oversight, this Act subverts the
President’s ability to ensure that the laws are faithfully
executed—as well as the public’s ability to pass
judgment on his efforts. The Act’s restrictions are
incompatible with the Constitution’s separation of
powers.”12

11

Id. at 498 (quoting 1 Annals of Cong. 499 (J. Madison)).

12

Id.

App. 155
II
Unconstitutional protection from removal, like
unconstitutional appointment, is a defect in authority.
Appointments Clause decisions routinely set aside
agency action. In Lucia v. SEC, the Court held that
administrative law judges must be appointed by a
“head of department,” not by staff.13 As remedy, the
Court granted a new hearing before a different ALJ.14
It disapproved curing the defective appointment by a
quick (already-issued) ratification of the ALJ’s
appointment.15 Similarly, in NLRB v. Noel Canning,
the Court held that three NLRB Members were
unconstitutionally appointed without Senate advice
and consent.16 It affirmed the Court of Appeals’s
decision that the NLRB order, issued without a
properly-appointed quorum, was “invalid.”17
These cases are apt because there, as here, a defect
in authority made agency action unlawful. In debating
the first executive agencies, James Madison insisted
the President naturally had “the power of appointing,
overseeing, and controlling those who execute the

13

138 S. Ct. 2044, 2051 (2018).

14

Id. at 2055.

15

Id. at 2055 nn. 5&6.

16

573 U.S. 513, 519 (2014) (interpreting U.S. CONST. art. II, § 2, cl.
3, Recess Appointments Clause).
17

Id. at 521; see id. at 557.

App. 156
laws.”18 Unlike judicial power or (arguably) legislative
power, executive power can be delegated.19 But if an
unconstitutional removal protection breaks the “chain
of dependence” between the officer and the President,
t he del e g a t i o n b r e a k s d o w n t oo. 2 0 An
unconstitutionally-insulated officer lacks authority to
act.21
Treasury contends that when agency action is held
unlawful, vacatur is not mandatory but subject to
equitable remedial authority.22 And it maintains that
18

1 Annals of Cong. 463 (1789).

19

See Mistretta v. United States, 488 U.S. 361, 424 (1989) (Scalia,
J., dissenting) (citing Wolsey v. Chapman, 101 U.S. 755 (1880);
Williams v. United States, 42 U.S. 290 (1843)) (“Although the
Constitution says that ‘[t]he executive Power shall be vested in a
President of the United States of America,’ Art. II, § 1, it was never
thought that the President would have to exercise that power
personally. He may generally authorize others to exercise
executive powers, with full effect of law, in his place.”).
20

Free Enter. Fund, 561 U.S. at 498 (quoting 1 Annals of Cong. 499
(J. Madison)); see Kisor v. Wilkie, 139 S. Ct. 2400, 2413 (2019)
(opinion of Kagan, J.) (“[A]gencies . . . have political accountability,
because they are subject to the supervision of the President, who
in turn answers to the public.”).
21

See Free Enter. Fund, 561 U.S. at 498; Neomi Rao, Removal:
Necessary and Sufficient for Presidential Control, 65 ALA. L. REV.
1205, 1242 (2014) (“Removal . . . provides the constitutionally
requisite presidential control.”).
22

Cf. Abbott Labs. v. Gardner, 387 U.S. 136, 155 (1967) (stating in
APA context that “the declaratory judgment and injunctive
remedies are equitable in nature, and other equitable defenses
may be interposed”); see also Weinberger v. Romero-Barcelo, 456

App. 157
the case for such relief here is weak. The Shareholders
waited four years to sue; vacatur might disrupt the
GSEs’ operations or the housing market generally; and
the Shareholders wielded 20/20 hindsight to target an
initially risky, but now astute, Treasury bargain. It
also says the case for equitable relief here is worse than
Synar, where the statutory fallback provision was
ready at hand.23
These arguments do not defeat vacatur here.
Appointments Clause cases refute the point that
vacatur is too disruptive. As a remedial matter, Lucia
granted the petitioner a new hearing based on an
appointment defect that was common to every single
SEC ALJ.24 Noel Canning held an NLRB order invalid
because of three defective appointments, which infected
all the Board’s actions during those Members’ tenure.25
If setting aside agency action was proper in those cases,
it is proper here. FHFA and Treasury have other tools
to arrange their affairs going forward. The FHFA
Director, constitutionally supervised by the President,
generally can enter new agreements or ratify past ones
that are not challenged here. As for the Third
Amendment, it must be aside. The Shareholders have

U.S. 305, 311–19 (1982) (holding that traditional equitable
principles apply to injunctive relief unless Congress intervenes to
guide the courts’ discretion).
23

Cf. 478 U.S. at 734–36.

24

138 S. Ct. at 2049, 2055.

25

573 U.S. at 520–21, 557.

App. 158
invoked judicial review of agency action that injured
them in fact and violated the separation of powers.26
Treasury’s cases urging equitable discretion are
distinguishable. They discuss prospective remedies like
prohibitory or mandatory injunctions, not vacatur of
agency action that violated the separation of powers.27
In contrast, neither Synar, Lucia, nor Noel Canning
discusses equitable-discretion principles or applies the
four-factor test for granting an injunction.
III
Although setting aside agency action is not subject
to the four-factor injunction standard, it remains an
equitable remedy. Doing so here is like rescinding a
contract. “A transfer by an agent, trustee, or other
fiduciary outside the scope of the transferor’s authority,
or otherwise in breach of the transferor’s duty to the

26

See Bond v. United States, 564 U.S. 211, 223 (2011) (“If the
constitutional structure of our Government that protects
individual liberty is compromised, individuals who suffer otherwise
justiciable injury may object.”); Synar, 478 U.S. at 736 (setting
aside sequestration order because “the powers vested in the
Comptroller General . . . violate the command of the
Constitution”).
27

See North Carolina v. Covington, 137 S. Ct. 1624, 1625 (2017)
(per curiam) (reversing special-election injunction in redistricting
case); Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 12 (2008)
(reversing preliminary injunction against Navy sonar training);
eBay Inc. v. MercExchange, LLC, 547 U.S. 388, 394 (2006) (holding
that traditional four-factor test applies to injunctions against
patent infringement); Weinberger, 456 U.S. at 320 (holding that
Federal Water Pollution Control Act did not mandate injunctions
against its violation).

App. 159
principal or beneficiary, is subject to rescission and
restitution.”28 The Third Amendment is the smallest
independent agreement that caused the Shareholders’
injury, so that is what to rescind. When a contract is
rescinded, restitution is generally in order, and the
plaintiff may also need to return benefits it received.29
I would recognize the district court’s authority, on
remand, to decide the parties’ rights and duties to
restore their rightful position. So I don’t share Judge
Haynes’s concern that this remedy resembles a “pickand-choose approach” and grants Shareholders a
windfall.
***
The Shareholders are entitled to declaratory
judgment that the Third Amendment exceeded FHFA’s
lawful authority because the agency adopted it outside
the President’s supervision.30 This analysis also
supports an injunction vacating the Third

28

RESTATEMENT (THIRD) OF RESTITUTION AND UNJUST ENRICHMENT
§ 17 (AM. LAW INST. 2011).

29

See id. (“The transferee is liable in restitution to the principal or
beneficiary as necessary to avoid unjust enrichment.”).
30

See Free Enter. Fund, 561 U.S. at 513 (holding petitioners were
entitled to declaratory relief that PCAOB standards “will be
enforced only by a constitutional agency accountable to the
Executive”); see also Kisor, 139 S. Ct. at 2413 (opinion of Kagan, J.)
(“[A]gencies . . . have political accountability, because they are
subject to the supervision of the President, who in turn answers to
the public.”).

App. 160
Amendment.31 In light of recent developments, I would
remand Count IV to the district court for entry of a
judgment consistent with this opinion.32

31

See Synar, 478 U.S. at 736, aff’g Synar, 626 F. Supp. at 1404
(ordering “that the presidential sequestration order issued . . .
pursuant to the unconstitutional automatic deficit reduction
process be, and hereby is, declared without legal force and effect”).
32

FHFA’s newly appointed Director has publicly indicated he is
considering renegotiating FHFA’s agreements with Treasury.
Andrew Ackerman & Ben Eisen, Push to Overhaul Fannie, Freddie
Nudges Up Mortgage Costs, WALL STREET J. (June 25, 2019,
https://www.wsj.com/articles/trump-push-on-housing-financenudges-up-mortgage-costs-11561474203?mod=searchresults
&page=1&pos=2).

App. 161
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 17-20364
D.C. Docket No. 4:16-CV-3113
[Filed September 6, 2019]
___________________________________
PATRICK J. COLLINS;
)
MARCUS J. LIOTTA;
)
WILLIAM M. HITCHCOCK,
)
)
Plaintiffs - Appellants,
)
)
v.
)
)
STEVEN T. MNUCHIN,
)
SECRETARY, U.S.
)
DEPARTMENT OF TREASURY;
)
DEPARTMENT OF THE
)
TREASURY; FEDERAL HOUSING )
FINANCE AGENCY; MARK A.
)
CALABRIA, DIRECTOR OF THE
)
FEDERAL HOUSING FINANCE
)
AGENCY,
)
)
Defendants - Appellees.
)
___________________________________ )
Appeal from the United States District Court
for the Southern District of Texas
Before STEWART, Chief Judge, JONES, SMITH,
DENNIS, OWEN, ELROD, SOUTHWICK, HAYNES,
GRAVES, HIGGINSON, COSTA, WILLETT, HO,

App. 162
DUNCAN, ENGELHARDT, and OLDHAM, Circuit
Judges.
JUDGMENT ON REHEARING EN BANC
This cause was considered on the record on appeal
and was argued by counsel.
It is ordered and adjudged that the judgment of the
District Court is affirmed in part and reversed in part,
and the cause is remanded to the District Court for
further proceedings in accordance with the opinion of
this Court.
IT IS FURTHER ORDERED that each party bear
its own costs on appeal.

STUART KYLE DUNCAN, Circuit Judge, joined by
OWEN, Circuit Judge, concurring.
ANDREW S. OLDHAM and JAMES C. HO, Circuit
Judges, concurring in part and dissenting in part.
HAYNES, Circuit Judge, joined by STEWART, Chief
Judge, and DENNIS, SOUTHWICK, GRAVES,
HIGGINSON, and COSTA, Circuit Judges, dissenting
with respect to statutory claims.
STEPHEN A. HIGGINSON, Circuit Judge, joined by
STEWART, Chief Judge, and DENNIS and COSTA,
Circuit Judges, dissenting in part.
GREGG COSTA, Circuit Judge, joined by STEPHEN A.
HIGGINSON, Circuit Judge, dissenting in part.

App. 163
WILLETT, Circuit Judge, joined by JONES, SMITH,
ELROD, HO, ENGELHARDT, and OLDHAM, Circuit
Judges, dissenting in part.

App. 164

APPENDIX B
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 17-20364
[Filed November 12, 2018]
___________________________________
PATRICK J. COLLINS;
)
MARCUS J. LIOTTA;
)
WILLIAM M. HITCHCOCK,
)
)
Plaintiffs– Appellants,
)
)
v.
)
)
STEVEN T. MNUCHIN,
)
SECRETARY, U.S.
)
DEPARTMENT OF TREASURY;
)
DEPARTMENT OF THE
)
TREASURY; FEDERAL HOUSING )
FINANCE AGENCY; MELVIN L.
)
WATT,
)
)
Defendants – Appellees.
)
___________________________________ )
Appeal from the United States District Court
for the Southern District of Texas
_______________
ON PETITIONS FOR REHEARING EN BANC

App. 165
(Opinion July 16, 2018, 5 Cir., 2018, 896 F.3d 640)
Before STEWART, Chief Judge, JONES, SMITH,
DENNIS, OWEN, ELROD, SOUTHWICK, HAYNES,
GRAVES, HIGGINSON, COSTA, WILLETT, HO,
DUNCAN, ENGELHARDT, and OLDHAM, Circuit
Judges.
BY THE COURT:
A member of the court having requested a poll on
the petitions for rehearing en banc, and a majority of
the circuit judges in regular active service and not
disqualified having voted in favor,
IT IS ORDERED that this cause shall be reheard by
the court en banc with oral argument on a date
hereafter to be fixed. The Clerk will specify a briefing
schedule for the filing of supplemental briefs.

App. 166

APPENDIX C
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 17-20364
[Filed July 16, 2018]
___________________________________
PATRICK J. COLLINS;
)
MARCUS J. LIOTTA;
)
WILLIAM M. HITCHCOCK,
)
)
Plaintiffs–Appellants,
)
)
v.
)
)
STEVEN T. MNUCHIN,
)
SECRETARY, U.S.
)
DEPARTMENT OF TREASURY;
)
DEPARTMENT OF THE
)
TREASURY; FEDERAL HOUSING )
FINANCE AGENCY; MELVIN L.
)
WATT,
)
)
Defendants–Appellees.
)
___________________________________ )
Appeal from the United States District Court
for the Southern District of Texas
_______________
Before STEWART, Chief Judge, and HAYNES and
WILLETT, Circuit Judges.

App. 167
PER CURIAM:1
A decade ago, the United States was engulfed in
perhaps the worst financial crisis since the Great
Depression. Toxic mortgage debt had poisoned the
global financial system. Hoping to reverse a national
housing-market meltdown, Congress passed the
Housing and Economic Recovery Act of 2008 (“HERA”),
Pub. L. No. 110-289, 122 Stat. 2654 (codified in various
sections of 12 U.S.C.). Among other things, HERA
created a new independent federal entity—the Federal
Housing Finance Agency (“FHFA”)—to oversee two of
the nation’s largest financial companies, governmentchartered mainstays of the U.S. mortgage market: the
Federal National Mortgage Association (“Fannie Mae”)
and the Federal Home Loan Mortgage Corporation
(“Freddie Mac”).
Since their inception, these twin mortgage-finance
giants have always been government-sponsored entities
(“GSEs”). But Fannie and Freddie are also private
corporations with private stockholders, and many
investors are disenchanted with the Federal
Government’s management. This case is the latest in a
series of shareholder challenges to an agreement
between the FHFA, as conservator to Fannie and
Freddie, and the Treasury Department. Under the
2012 agreement, Treasury provided billions of taxpayer
dollars in capital. In exchange, Fannie and Freddie
1

Chief Judge Stewart joins in the entire opinion and judgment
except for Section II.B.2 and the judgment on the constitutional
issue; Judge Haynes joins in the entire opinion and judgment;
Judge Willett joins in the entire opinion and judgment except for
Section II.A and the judgment on the statutory issue.

App. 168
were required to pay Treasury quarterly dividends
equal to their entire net worth. This exchange is known
as the “net worth sweep,” and aggrieved investors are
unhappy with the bailout terms.
Plaintiffs–Appellants Patrick J. Collins, Marcus J.
Liotta, and William M. Hitchcock (collectively
“Shareholders”) are Fannie Mae and Freddie Mac
shareholders. They sued the FHFA and its Director, as
well as Treasury and its Secretary, arguing that the
agreement rendered their shares valueless. They
contend that Treasury and the FHFA (collectively the
“Agencies”) exceeded their statutory authority under
HERA and that the agreement was arbitrary and
capricious under the Administrative Procedure Act, 5
U.S.C. § 706(2)(A) (“APA”). They also claim that the
FHFA is unconstitutionally structured in violation of
Article II, §§ 1 and 3 of the Constitution because,
among other things, the agency is headed by a single
Director removable only for cause, does not depend on
congressional appropriations, and evades meaningful
judicial review. The district court dismissed the
Shareholders’ statutory claims and granted summary
judgment in favor of the Agencies on the constitutional
claim.
Because we find that the FHFA acted within its
statutory authority by adopting the net worth sweep,
we hold that the Shareholders’ APA claims are barred
by § 4617(f). But we also find that the FHFA is
unconstitutionally structured and violates the
separation of powers. Accordingly, we AFFIRM in part
and REVERSE in part.

App. 169
I. BACKGROUND
A. Fannie and Freddie
The foundation of the United States housing market
is built on two entities: Fannie Mae and Freddie Mac.
Congress created Fannie Mae in 1938 to “provide
stability in the secondary market for residential
mortgages,” to “increas[e] the liquidity of mortgage
investments,” and to “promote access to mortgage
credit throughout the Nation.”2 Congress created
Freddie Mac in 1970 to “increase the availability of
mortgage credit for the financing of urgently needed
housing.”3 Both Fannie and Freddie are now publicly
traded, for-profit corporations. Together, they purchase
and guarantee mortgages originating in private banks
and bundle them into mortgage-backed securities. In
doing so, these GSEs leverage shareholder investments
to provide liquidity to the residential mortgage market,
ensuring that homeownership is a realistic goal for
American families.

2

3

12 U.S.C. §§ 1716, 1717

Federal Home Loan Mortgage Corporation Act, Pub. L. No. 91351, preamble, 84 Stat. 450 (1970).

App. 170
B. The Recession
In 2007, the housing market collapsed,4 and the
United States economy fell into a severe recession. At
the time, Fannie and Freddie controlled combined
mortgage portfolios valued at approximately $5
trillion—nearly half of the United States mortgage
market. As essential players in the housing market,
Fannie and Freddie suffered multi-billion dollar losses.
Indeed, the GSEs lost more in 2008 ($108 billion) than
they had earned in the previous thirty-seven years

4

The financial crisis was caused, in part, by a series of mortgage
loans to borrowers with poor credit, known as “subprime”
mortgages. Crash Course: The Origins of the Financial Crisis,
ECONOMIST (Sept. 7, 2013), https://www.economist.com/
news/schoolsbrief/21584534-effects-financial-crisis-are-still-beingfelt-five-years-article. Lenders eased their standards for subprime
mortgages, requiring little or no down-payment or income
documentation, and loans often came with discounted interest
rates that reset after two years. JOINT CENTER FOR HOUSING
STUDIES OF HARVARD UNIVERSITY, The State of the Nation’s
Housing: 2008, at 2 (2008), https://web.archive.org/web/
20100630164105/http://www.jchs.harvard.edu/publications/mar
kets/son2008/son2008.pdf. Even the GSEs relaxed their lending
standards to compete with private banks. See Charles Duhigg,
Pressured to Take More Risk, Fannie Reached Tipping Point, N.Y.
TIMES (Oct. 4, 2008), https://www.nytimes.com/2008/10/05/
business/05fannie.html. Subprime mortgages were then pooled
together to back securities that received deceptively high credit
ratings. ECONOMIST, supra. Home prices suffered a steep decline
in 2006. Justin Lahart, Egg Cracks Differ in Housing, Finance
Shells, WALL ST. J. (Dec. 24, 2007), https://www.wsj.com/articles/
SB119845906460548071?mod=googlenews_wsj. As a result,
subprime borrowers defaulted on their mortgages, and foreclosures
drastically increased. See HARVARD UNIVERSITY, supra at 3.

App. 171
combined ($95 billion).5 Yet the GSEs remained
solvent. Because they had taken a relatively
conservative approach to the riskier mortgages that
were issued in the years preceding the recession, they
remained in comparatively sound financial condition.
As a result, Fannie and Freddie continued to support
the United States home mortgage system as distressed
banks failed.
C. The FHFA and HERA
During the summer of 2008, President Bush signed
HERA into law in an effort to protect the fragile
national economy from further losses. HERA
established the FHFA as an “independent” agency and
classified Fannie and Freddie as “regulated entit[ies]”
subject to the direct “supervision” of the FHFA.6
Separately, HERA granted Treasury temporary
authority “to purchase any obligations and other
securities” issued by the GSEs,7 so long as Treasury
determined that the terms of purchase would “protect
the taxpayer,”8 and imposed “limitations on the
payment of dividends.”9 HERA terminated Treasury’s
5

Office of Inspector General (OIG), FHFA, Analysis of the 2012
Amendments to the Senior Preferred Stock Purchase Agreements 5
(Mar. 20, 2013), https://www.fhfaoig.gov/Content/Files/WPR-2013002_2.pdf.
6

12 U.S.C. § 4511(a), (b).

7

Id. §§ 1455(l)(1)(A), 1719(g)(1)(A).

8

Id. §§ 1455(l)(1)(B)(iii), 1719(g)(1)(B)(iii).

9

Id. §§ 1455(l)(1)(C)(vi), 1719(g)(1)(C)(vi).

App. 172
authority to purchase securities on December 31,
2009.10 After that, Treasury was only authorized to
“hold, exercise any rights received in connection with,
or sell, any obligations or securities [it] purchased.”11
How Congress chose to structure the FHFA through
HERA is central to this appeal.
1. Authority
The FHFA possesses broad discretion to exercise
regulatory and enforcement authority over the GSEs’
operations.
We first outline the FHFA’s regulatory authority.
HERA charges the FHFA Director with the broad duty
to “oversee the prudential operations” of the GSEs and
to ensure that: the GSEs “operate[] in a safe and sound
manner, including maintenance of adequate capital
and internal controls;” “the operations and activities of
each regulated entity foster liquid, efficient,
competitive, and resilient national housing finance
markets;” and the GSEs’ activities “are consistent with
the public interest.”12 The Director may issue “any
regulations, guidelines, or orders necessary to carry
out” this duty.13

10

Id. §§ 1455(l)(4), 1719(g)(4).

11

Id. §§ 1455(l)(2)(D), 1719(g)(2)(D).

12

Id. § 4513(a)(1)(A), (B)(i), (B)(ii), (B)(v).

13

Id. § 4526(a).

App. 173
Next, we turn to FHFA’s enforcement authority. For
one, the Director may issue and serve a “notice of
charges” to the GSE or an entity-affiliated party if the
party is, or is reasonably suspected of, engaging in
“unsafe or unsound practice[s] in conducting the
business” of the GSE or otherwise violating laws, rules,
or regulations imposed by the Director.14 The notice of
charge schedules a formal hearing, during which the
FHFA determines whether to issue a cease and desist
order.15 After the hearing, the Director may issue the
order and may require the entity to take “affirmative
action to correct or remedy” the violation.16 The
Director can also: (1) obtain an injunction17 in federal
court to enforce his cease and desist orders; (2) seek
judicial enforcement of outstanding notices or orders
that the FHFA issued;18 and (3) issue subpoenas,19
which may be enforced in federal court.20 Finally, the

14

See id. § 4631(a)(1). The statute does impose some limits to the
Director’s authority, such as restrictions on the ability to enforce
compliance with achieving housing goal provisions, among other
things. See id. § 4631(a)(2).
15

Id. at § 4631(c)(1).

16

Id. at § 4631(c)(2).

17

Id. § 4632(e).

18

See id. § 4635.

19

Id. § 4641(a).

20

See id. § 4641(c).

App. 174
Director may “require the regulated entity to take such
other action as the Director determines appropriate.”21
Under certain circumstances, the Director may
impose civil monetary penalties “on any regulated
entity or any entity-affiliated party.”22 The Director
must abide by certain conditions before imposing a
penalty, such as providing notice to the entity and
providing the opportunity for a hearing23 before the
FHFA. There are tiers of potential penalties depending
on the severity of the offense, and the Director has
wide discretion to determine the appropriate penalty.24
The penalty “shall not be subject to review, except” by
the D.C. Circuit.25 If the penalized entity does not
comply, the Director may sue to obtain a monetary
judgment and “the validity and appropriateness of the
order of the Director imposing the penalty shall not be
subject to review.”26
HERA also authorizes the FHFA Director to appoint
the FHFA as either conservator or receiver for the

21

Id. at § 4631(d).

22

Id. § 4636(a).

23

The FHFA may conduct hearings regarding certain enforcement
decisions; parties may appeal the outcome of the hearing to the
D.C. Circuit. See id. §§ 4633, 4634(a).
24

Id. § 4636(b), (c).

25

Id. § 4636(c), (d).

26

Id. § 4636(d).

App. 175
GSEs, “for the purpose of reorganizing, rehabilitating,
or winding up the[ir] affairs.”27
Once appointed conservator or receiver, the FHFA
enjoys sweeping authority over GSE operations. For
example, the FHFA “may . . . take over the assets of
and operate the regulated entity with all the powers of
the shareholders, the directors, and the officers of the
regulated entity and conduct all business of the
regulated entity.”28 The FHFA may also “collect all
obligations and money due,” “perform all functions of
the regulated entity in the name of the regulated entity
which are consistent with the appointment as
conservator or receiver,” “preserve and conserve the
assets and property of the regulated entity,” and
“provide by contract for assistance in fulfilling any
function, activity, action, or duty of the Agency as
conservator or receiver.”29 And upon appointment, the
FHFA “immediately succeed[s] to all rights, titles,
powers, and privileges of such regulated entity with
respect to the regulated entity and the assets of the
regulated entity.”30 The FHFA also has discretion to
“transfer or sell any asset or liability of the regulated
entity in default, and may do so without any approval,
assignment, or consent.”31

27

Id. § 4617(a)(2).

28

Id. § 4617(b)(2)(B)(i).

29

Id. § 4617(b)(2)(B)(ii)–(v).

30

Id. § 4617(b)(2)(A)(i).

31

Id. § 4617(b)(2)(G); see also id. § 4617(b)(2)(H).

App. 176
More specifically, as conservator, HERA authorizes
the FHFA to “take such action as may be . . .
(i) necessary to put the regulated entity in a sound and
solvent condition; and (ii) appropriate to carry on the
business of the regulated entity and preserve and
conserve the assets and property of the regulated
entity.”32
The FHFA also has broad incidental powers when
it acts as conservator or receiver. The FHFA may
“exercise all powers and authorities specifically granted
to conservators or receivers, respectively, under this
section, and such incidental powers as shall be
necessary to carry out such powers,” and it may “take
any action authorized by this section, which the Agency
determines is in the best interests of the regulated
entity or the Agency.”33 The FHFA also has
independent litigation authority; it may issue
subpoenas,34 “disaffirm or repudiate [certain]
contract[s] or lease[s],”35 and impose civil fines.36
2. Structure
The FHFA is led by a single Director, “appointed by
the President, by and with the advice and consent of

32

Id. § 4617(b)(2)(D).

33

Id. § 4617(b)(2)(J).

34

Id. § 4617(b)(2)(I).

35

Id. § 4617(d)(1).

36

See id. § 4585.

App. 177
the Senate.”37 The Director must be a United States
citizen who has “a demonstrated understanding of
financial management or oversight, and ha[s] a
demonstrated understanding of capital markets,
including the mortgage securities markets and housing
finance.”38 The Director is appointed for a five-year
term39 and may only be removed “for cause by the
President.”40
The Director is also responsible for picking three
Deputy Directors.41 And the Director has substantial
influence over how the Deputy Directors may exercise
their authority.42
The statute establishes the process for replacing a
Director whose service terminates early due to “death,
resignation, sickness, or absence.”43 In such case, “the
President shall designate” a Deputy Director “to serve
as acting Director until the return of the Director, or

37

Id. § 4512(a), (b)(1).

38

Id. § 4512(b)(1).

39

Id. § 4512(b)(2).

40

Id.

41

Id. § 4512(c)(1) (Deputy Director of the Division of Enterprise
Regulation), (d)(1) (Deputy Director of the Division of Federal
Home Loan Bank Regulation), (e)(1) (Deputy Director for Housing
Mission and Goals).
42

Id. § 4512(c)(2), (d)(2), (e)(2).

43

Id. § 4512(f).

App. 178
the appointment of a successor.”44 The newly appointed
Director only serves the remainder of the former
Director’s term.45 “An individual may serve as the
Director after the expiration of the term for which
appointed until a successor has been appointed.”46
3. Oversight
Congress structured the FHFA as an independent
agency.47 The FHFA’s operations as conservator are
insulated from judicial review: “[N]o court may take
any action to restrain or affect the exercise of powers or
functions of the Agency as a conservator or a
receiver.”48 Plus, the FHFA is funded through annual
assessments collected from the “regulated entities” for
reasonable costs and expenses of the running the
FHFA.49 The assessments are “not . . . subject to

44

Id.

45

Id. § 4512(b)(3).

46

Id. § 4512(b)(4).

47

Agencies may be classified as either independent or executive.
Where the agency head is removable at will, the agency is
“executive.” In re Aiken Cty., 645 F.3d 428, 439 (D.C. Cir. 2011),
subsequent mandamus proceeding, 725 F.3d 255 (D.C. Cir. 2013)
(Kavanaugh, J., concurring). But where the head or heads of an
agency are removable only for cause, the agency “is an independent
agency that operates free of presidential direction and
supervision.” Id.
48

12 U.S.C. § 4617(f).

49

Id. § 4516(a).

App. 179
apportionment,”50 and are “not . . . construed to be
Government or public funds or appropriated money.”51
The FHFA is overseen by the Federal Housing
Finance Oversight Board (“Board”), which “advise[s]
the Director with respect to the overall strategies and
policies in carrying out” his duties.52 The four-member
Board includes two cabinet-level Executive Branch
officials—the Secretary of the Treasury and the
Secretary of Housing and Urban Development—the
FHFA Director, and the Securities and Exchange
Commission (“SEC”) Chairperson.53 The FHFA Director
is the Board’s Chairperson.54 The Board meets at least
quarterly, but it can meet more frequently by notice of
the Director.55 Beyond that, Board members may
require a special meeting through written notice to the
Director.56 The Board is responsible for testifying
annually before Congress about, among other things,
the “safety and soundness” of the GSEs, “their overall
operational status,” and the “performance of the

50

Id. § 4516(f)(3).

51

Id. § 4516(f)(2).

52

Id. § 4513a(a).

53

Id.

54

Id.

55

Id. § 4513a(d)(1).

56

Id. § 4513a(d)(2).

App. 180
[FHFA].”57 The Board may not “exercise any executive
authority, and the Director may not delegate to the
Board any of the functions, powers, or duties of the
Director.”58 That is, the Board cannot require the FHFA
or Director to do much of anything; the Board can only
order “a special meeting of the Board.”59
D. The Underlying Dispute
On September 6, 2008, the FHFA’s Acting Director
placed the GSEs into conservatorship. The next day,
Treasury entered into Preferred Stock Purchase
Agreements (“PSPAs”) with the GSEs. Under the
PSPAs, Treasury purchased large amounts of stock,
infusing the GSEs with additional capital to ensure
liquidity and stability. Treasury also provided the
GSEs with access to a capital commitment, initially
capped at $100 billion per GSE, to keep them from
defaulting. In return, Treasury received one million
senior preferred shares in each GSE. Those shares
entitled Treasury to (1) a $1 billion senior liquidation
preference; (2) a dollar-for-dollar increase in that
preference each time Fannie or Freddie drew on
Treasury’s funding commitment; (3) quarterly
dividends the GSEs could pay either at a rate of 10% of
Treasury’s liquidation preference or as a commitment
to increase the liquidation preference by 12%;
(4) warrants allowing Treasury to purchase up to 79.9%
of common stock; and (5) the possibility of periodic
57

Id. § 4513a(e).

58

Id. § 4513a(b).

59

Id. § 4513a(d)(2).

App. 181
commitment fees over and above any dividends. The
PSPAs prohibited the GSEs from “declar[ing] or
pay[ing] any dividend (preferred or otherwise) or
mak[ing] any other distribution (by reduction of capital
or otherwise)” without Treasury’s consent.
Treasury and the FHFA subsequently amended the
PSPAs. In May 2009, Treasury agreed to double its
funding commitment to $200 billion for each GSE
under the First Amendment. On December 24, 2009,
Treasury agreed to further raise its commitment cap
under the Second Amendment. This time, the cap was
raised to an adjustable figure determined in part by the
GSEs’ quarterly cumulative losses between 2010 and
2012. On December 31, 2009, Treasury’s authority to
purchase GSE securities expired, leaving Treasury
authorized only to “hold, exercise any rights received in
connection with, or sell, any obligations or securities
purchased.”60
As of August 8, 2012, the GSEs had drawn
approximately $189 billion from Treasury’s funding
commitment. Yet the GSEs still struggled to generate
capital to pay the 10% dividend owed to Treasury. As
a result, the FHFA and Treasury adopted the Third
Amendment to the PSPAs on August 17, 2012.
The Third Amendment replaced the quarterly 10%
dividend formula, with a requirement that the FHFA
pay Treasury quarterly variable dividends equal to the
GSEs’ excess net worth after accounting for prescribed
capital reserves. The capital reserve buffer started at
60

Id. §§ 1455(l)(2)(D), 1719(g)(2)(D); see also id. §§ 1455(l)(4),
1719(g)(4).

App. 182
$3 billion and decreased annually until it reached zero
in 2018. Under the net worth sweep, the GSEs would
no longer incur debt to make dividend payments, but
they would also no longer accrue capital. Treasury also
suspended the periodic commitment fee. Treasury
believed this would “support a thoughtfully managed
wind down” of the GSEs and observed that the GSEs
“will not be allowed to retain profits, rebuild capital,
[or] return to the market in their prior form.”61
The net worth sweep transferred significant capital
from Fannie and Freddie to Treasury. In 2013, the
GSEs paid Treasury $130 billion in dividends. The
following year, they paid $40 billion. And in 2015, they
paid $15.8 billion. In the first quarter of 2016, Fannie
Mae paid Treasury $2.9 billion, and Freddie Mac paid
no dividend at all. Between the final quarter in 2012
and the first quarter of 2017, the GSEs generated over
$214 billion. Thus, under the net worth sweep Treasury
essentially recovered what the GSEs had drawn on
Treasury’s funding commitment.
E. Procedural History
In October 2016, shareholders of Fannie Mae and
Freddie Mac sued the FHFA and its Director, as well
as Treasury and its Secretary, challenging the net
worth sweep on both statutory and constitutional
grounds. First, the Shareholders brought a claim under
the APA claiming that the FHFA, in agreeing to the
61

Treasury Department Announces Further Steps to Expedite Wind
Down of Fannie Mae and Freddie Mac, U.S. DEP’T OF TREASURY
(Aug. 17, 2012), https://www.treasury.gov/press-center/pressreleases/Pages/tg1684.aspx.

App. 183
Third Amendment net worth sweep provision, exceeded
its statutory authority as conservator under HERA, 12
U.S.C. § 4617(b)(2)(D). Second, the Shareholders
brought claims against Treasury under the APA, 5
U.S.C. §§ 702, 706(2)(C), (D), arguing that Treasury
exceeded its statutory authority under HERA, 12
U.S.C. §§ 1455(l)(4), 1719(g)(1)(B), (g)(4), by
(1) purchasing securities after the sunset provision
period, (2) failing to make the required determinations
of necessity before purchasing securities, and
(3) agreeing to the net worth sweep. Third, the
Shareholders brought claims under the APA, 5 U.S.C.
§§ 702, 706(2)(A), alleging that Treasury acted in an
arbitrary and capricious manner by agreeing to the net
worth sweep. Finally, the Shareholders brought a
constitutional claim under Article II, §§ 1 and 3,
alleging that the FHFA is unconstitutionally
structured because, among other things, it is headed by
a single Director removable only for cause. The
Shareholders sought both declaratory and injunctive
relief invalidating the Third Amendment and returning
all dividend payments made to Treasury under the net
worth sweep.
The Agencies moved to dismiss the three statutory
claims under Federal Rules of Civil Procedure 12(b)(1)
and 12(b)(6) based on HERA’s limitation on judicial
review, 12 U.S.C. § 4617(f). Plaintiffs and Defendants
filed cross-motions for summary judgment on the
constitutional claim. The district court concluded,
based on the D.C. Circuit’s reasoning in Perry Capital
L.L.C. v. Mnuchin, 848 F.3d 1072 (D.C. Cir. 2017),
amended by 864 F.3d 591 (D.C. Cir. 2017), cert. denied,
138 S. Ct. 978 (2018), and cert. denied sub nom.

App. 184
Cacciapalle v. Fed. Hous. Fin. Agency, 138 S. Ct. 978
(2018), that the Shareholders “fail[ed] to demonstrate
that the FHFA’s conduct was outside the scope of its
broad statutory authority as conservator.” And that
“the effect of any injunction or declaratory judgment
aimed at Treasury’s adoption of the Third Amendment
would have just as direct and immediate an effect as if
the injunction operated directly on FHFA.” Thus, the
district court granted the Agencies’ motions to dismiss
the statutory claims as “precluded by § 4617(f).”
Finally, the court found that “FHFA’s removal
provision, when viewed in light of the agency’s overall
structure and purpose, does not impede the President’s
ability to perform his constitutional duty to take care
that the laws are faithfully executed.” The court
therefore granted the FHFA’s motion for summary
judgment on the constitutional claim. The
Shareholders timely appealed.
II. DISCUSSION
This court “review[s] de novo a district court’s
rulings on a motion to dismiss and a motion for
summary judgment, applying the same standard as the
district court.”62 To survive a motion to dismiss, the
Shareholders’ complaint must state a valid claim for
relief, viewed in the light most favorable to the
plaintiff.63 “[A] complaint must contain sufficient
factual matter . . . to ‘state a claim to relief that is
62

TOTAL Gas & Power N. Am., Inc. v. Fed. Energy Reg. Comm’n,
859 F.3d 325, 332 (5th Cir. 2017).
63

Copeland v. Wasserstein, Perella & Co., Inc., 278 F.3d 472, 477
(5th Cir. 2002).

App. 185
plausible on its face.’”64 “[M]ere conclusory statements”
are insufficient to state a claim.65 A claim is facially
plausible only when a plaintiff pleads facts “allow[ing]
the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.”66
A. Statutory Claims
The Shareholders’ statutory claims mirror the
claims made against the FHFA that the D.C., Sixth,
and Seventh Circuits have all rejected.67 We reject the
Shareholders’ statutory claims based on the same wellreasoned basis common to those courts’ opinions.68
HERA bars courts from taking “any action to restrain
or affect the exercise of powers or functions of the
Agency as a conservator or a receiver.”69 Because the
FHFA acted within its statutory authority, any

64

Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570 (2007)).
65

Id.

66

Id.

67

See Roberts v. Fed. Hous. Fin. Agency, 889 F.3d 397, 399 (7th
Cir. 2018); Robinson v. Fed. Hous. Fin. Agency, 876 F.3d 220 (6th
Cir. 2017); Perry Capital, 864 F.3d at 598.
68

Because we find that the Shareholders’ statutory claims are
barred by § 4617(f), we need not resolve whether HERA’s
succession provision, 12 U.S.C. § 4617(b)(2)(A)(i) independently
prevents the Shareholders from asserting their statutory claims.
69

12 U.S.C. § 4617(f).

App. 186
potential exception to that bar does not apply.70 The bar
similarly applies to claims against the Department of
Treasury that would “affect the exercise of powers or
functions of the Agency as a conservator or receiver.”71
Consequently, we lack authority to grant relief on any
of the Shareholders’ statutory claims.
B. The Constitutional Claim
The Shareholders claim the FHFA’s structure
violates the separation of powers because it is headed
by a single Director removable only for cause. Despite
statutory limitations on judicial review, we may
exercise jurisdiction to consider a substantial
constitutional claim.72 Ordinarily, courts have a “duty
. . . to construe the statute in order to save it from
constitutional infirmities” and should be cautious of
“overstat[ing] the matter” when describing the power
and independence of the Director.73 Before we examine
70

See Roberts, 889 F.3d at 402–06; Robinson, 876 F.3d at 227–32;
Perry Capital LLC, 864 F.3d at 606–15.
71

See Roberts, 889 F.3d at 406–08; Robinson, 876 F.3d at 228–29;
Perry Capital LLC, 864 F.3d at 615–16.
72

See Garner v. U.S. Dep’t of Labor, 221 F.3d 822, 825 (5th Cir.
2000).
73

Morrison v. Olson, 487 U.S. 654, 682 (1988); see also INS v.
Chadha, 462 U.S. 919, 944 (1983). The Shareholders dispute that
the presumption of constitutionality applies in separation-ofpowers cases. Justice Scalia noted in his Morrison dissent that
“harmonious functioning of the system demands that we ordinarily
give some deference . . . to the actions of the political branches.”
487 U.S. at 704 (Scalia, J., dissenting). But “where the issue
pertains to separation of powers, and the political branches are . . .

App. 187
the FHFA’s structure, we must determine whether the
Shareholders have standing to bring their claim.
1. Standing
Federal courts are confined to adjudicating actual
“cases” and “controversies.”74 That “requirement is
satisfied only where a plaintiff has standing.”75
“Standing is a question of law that we review de
novo.”76 At its “irreducible constitutional minimum,”
standing requires plaintiffs “to demonstrate: they have
suffered an ‘injury in fact’; the injury is ‘fairly
traceable’ to the defendant’s actions; and the injury will

in disagreement, neither can be presumed correct.” Id. at 704–05;
see also Freytag v. C.I.R., 501 U.S. 868, 879–80 (1991) (declining to
defer to executive branch interpretation of statute alleged to
violate the Appointments Clause because the “structural interests
protected by the Appointments Clause are not those of any one
branch of Government but of the entire Republic”). Indeed, “the
separation of powers does not depend on the views of individual
Presidents . . . nor on whether the encroached-upon branch
approves the encroachment.” Free Enter. Fund v. Public Co.
Accounting Oversight Bd., 561 U.S. 477, 497 (2010) (internal
quotation marks and citations omitted). Because this case disputes
the Constitution’s allocation of governing power, we do not defer
to one branch’s interpretation that would permit it to encroach on
another branch’s constitutional authority.
74

U.S. CONST. art. III, § 2, cl. 1.

75

Sprint Commc’ns Co., L.P. v. APCC Servs., Inc., 554 U.S. 269,
273 (2008).
76

Rivera v. Wyeth-Ayerst Labs., 283 F.3d 315, 319 (5th Cir. 2002).

App. 188
‘likely . . . be redressed by a favorable decision.’”77 The
party invoking federal jurisdiction bears the burden of
establishing these elements.78 And a plaintiff must
demonstrate standing for each claim asserted.79
Standing for separation-of-powers claims is subject
to a more relaxed inquiry: “Party litigants with
sufficient concrete interests at stake may have
standing to raise constitutional questions of separation
of powers with respect to an agency designated to
adjudicate their rights.”80 Under this standard, “a party
is not required to show that he has received less
favorable treatment than he would have if the agency
were lawfully constituted.”81 In essence, the
prophylactic, structural nature of the separation of
powers justifies permitting claims beyond those where
a “specific harm . . . can be identified.”82
The FHFA argues that the Shareholders lack
standing to assert their separation-of-powers claim

77

Pub. Citizen, Inc. v. Bomer, 274 F.3d 212, 217 (5th Cir. 2001)
(quoting Lujan v. Defenders of Wildlife, 504 U.S. 555, 560–61
(1992)).
78

Lujan, 504 U.S. at 561.

79

Davis v. Fed. Election Comm’n, 554 U.S. 724, 734 (2008).

80

Buckley v. Valeo, 424 U.S. 1, 117 (1976) (citations omitted).

81

Comm. for Monetary Reform v. Bd. of Governors of Fed. Reserve
Sys., 766 F.2d 538, 543 (D.C. Cir. 1985) (citing Glidden Co. v.
Zdanok, 370 U.S. 530, 533 (1962) (plurality opinion)).
82

Plaut v. Spendthrift Farm, Inc., 514 U.S. 211, 239 (1995).

App. 189
because the Shareholders’ claimed injury83 is not
traceable to the removal provision, nor would it be
redressed if the restriction were held unconstitutional.
a. Injury-in-fact
Generally, a plaintiff “must assert his own legal
rights and interests, and cannot rest his claim to relief
on the legal rights or interests of third parties.”84 The
shareholder standing rule “prohibits shareholders from
initiating actions to enforce the rights of [a] corporation
unless the corporation’s management has refused to
pursue the same action for reasons other than goodfaith business judgment.”85 “[S]hareholder[s] with a
direct, personal interest in a cause of action,” however,
may “bring suit even if the corporation’s rights are also
implicated.”86
The Shareholders assert that the unconstitutionally
structured FHFA caused them direct economic
injury—“[m]inority shareholders were directly and
uniquely harmed by the expropriation of their rights”
because this case “concern[s] the transfer of all

83

The Agencies do not contest the Shareholders’ injury-in-fact.
Nevertheless, the court “must—where necessary—raise” standing
issues sua sponte. Ford v. NYLCare Health Plans of Gulf Coast,
Inc., 301 F.3d 329, 331–32 (5th Cir. 2002).
84

Franchise Tax Bd. of Cal. v. Alcan Aluminium Ltd., 493 U.S.
331, 336 (1990) (quoting Warth v. Seldin, 422 U.S. 490, 499 (1975)).
85

Id.

86

Id. at 336–37.

App. 190
minority shareholder economic rights to a single,
majority shareholder.”
We agree. Divesting the Shareholders’ property
rights caused a direct injury.87 In Bowsher v. Synar, for
example, a statute required the President to issue an
“order mandating the spending reductions specified by
the Comptroller General.”88 The statute automatically
suspended scheduled cost-of-living increases to
National Treasury Employees Union members.89 The
Union filed suit alleging that the statute violated the
separation of powers.90 The Court found the Union had
standing because it would “sustain injury by not
receiving a scheduled increase in benefits.”91 The
statutory deprivation of benefits was sufficient to
injure Union members directly.92
Here, the transfer of the Shareholders’ economic
rights to Treasury by an allegedly unlawfully
constituted agency resembles the statutory deprivation
of benefits to the Union members in Bowsher. The
Shareholders are directly and uniquely affected by the
net worth sweep.

87

See, e.g., Bowsher v. Synar, 478 U.S. 714 (1986).

88

Id. at 718.

89

Id. at 719.

90

Id. at 720.

91

Id. at 721.

92

See id. at 718–19.

App. 191
b. Causation
Next, standing requires “a causal connection
between the injury and the conduct complained of—the
injury has to be fairly traceable to the challenged
action of the defendant.”93 Whether an injury is
traceable to a defendant’s conduct depends on “the
causal connection between the assertedly unlawful
conduct and the alleged injury.”94 The injury cannot be
“the result of the independent action of some third
party not before the court.”95
Because the FHFA was unconstitutionally insulated
from executive control, the Shareholders argue that its
actions are presumptively unconstitutional and thus
void. In Landry v. FDIC, the D.C. Circuit noted that
separation-of-powers matters justify a relaxed
causation inquiry because “it will often be difficult or
impossible for someone subject to a wrongly designed
scheme to show that the design—the structure—played
a causal role in his loss.”96 We endorse that inquiry
here.

93

Lujan, 504 U.S. at 560 (cleaned up).

94

Allen v. Wright, 48 U.S. 737, 753 n.19, 757 (1984), abrogated in
part on other grounds by Lexmark Int’l, Inc. v. Static Control
Components, Inc., 134 S. Ct. 1377 (2014).
95

Lujan, 504 U.S. at 560 (quoting Simon v. Eastern Ky. Welfare
Rights Org., 426 U.S. 26, 41–41 (1976)).
96

Landry v. FDIC, 204 F.3d 1125, 1130–31 (D.C. Cir. 2000); see
also Buckley, 424 U.S. at 117.

App. 192
The FHFA argues that the Shareholders’ harm is
not traceable to the removal restriction for two reasons.
First, the Third Amendment was the decision of an
acting director whose designation was not subject to
the for-cause removal restriction. Second, the FHFA
does not exercise “executive” power; instead, the FHFA
“steps into the shoes” of the GSEs—private financial
institutions—when it acts as conservator. Neither
argument is persuasive.
Section 4512(f) specifies when an acting Director
may serve the FHFA in the Director’s place.97 The
FHFA argues that because § 4512(f) does not specify a
fixed term nor restrict the President’s removal
authority, the acting Director is not subject to the forcause removal restriction. But if the acting Director
could be removed at will, the FHFA would be an
executive agency—not an independent agency. There is
no indication that Congress sought to revoke the
FHFA’s status as an independent agency when it is led
by an acting, rather than appointed, Director.98 So an
acting Director, like an appointed one, is covered by the
removal restriction.99
Second, the FHFA argues that it does not exercise
executive functions that Article II vests in the

97

“In the event of the death, resignation, sickness, or absence of
the Director, the President shall designate [one of the Deputy
Directors] to serve as acting Director until the return of the
Director, or the appointment of a successor.” 12 U.S.C. § 4512(f).
98

See Wiener v. United States, 357 U.S. 349, 353 (1958).

99

See 12 U.S.C. § 4512(b)(2).

App. 193
Executive Branch. Under HERA, the FHFA as
conservator succeeds to “all rights, titles, powers, and
privileges” of the GSEs.100 Courts interpret this
provision as evincing Congress’s intent for the FHFA to
step into the shoes of the GSEs; although the FHFA is
a federal agency, as conservator it “shed[s] its
government character and also becom[es] a private
party.”101 And the GSEs are undoubtedly private
entities.102
When an agency acts as conservator, we have held
that it does not exercise governmental functions. In
United States v. Beszborn, the Government filed
indictments against various defendants for their role in
scheming to defraud financial institutions.103 Earlier,
however, the Resolution Trust Corporation (“RTC”)
participated in a civil action seeking punitive damages
against the defendants as conservator to a financial
institution based on the same conduct leading to
criminal charges.104 Our circuit assessed whether the
government’s prosecution following the RTC’s role in

100

Id. § 4617(b)(2)(A)(i).

101

Meridian Invs., Inc. v. Fed. Home Loan Mortg. Corp., 855 F.3d
573, 579 (4th Cir. 2017); see also O’Melveney & Myers v. FDIC, 512
U.S. 79, 86–87 (1994) (interpreting the nearly identical provision
12 U.S.C. § 1821(d)(2)(A)(i)); Perry Capital, 864 F.3d at 622;
Herron v. Fannie Mae, 861 F.3d 160, 169 (D.C. Cir. 2017).
102

See 12 U.S.C. §§ 1452(a), 1723(b).

103

21 F.3d 62, 64–65 (5th Cir. 1994).

104

Id. at 67.

App. 194
the civil trial violated the Double Jeopardy Clause.105
The court noted the “uniqueness” of the RTC’s role as
receiver: It was represented by private attorneys, and
proceeds from successful actions benefited the creditors
and stockholders of the institution it represented
rather than the Treasury.106 Thus, the court found that
by acting as receiver, “the RTC stands as a private,
non-governmental entity, and is not the Government
for purpose of the Double Jeopardy Clause.”107
In Beszborn, however, it was “the conduct or actions
of the Government which the Double Jeopardy Clause
seeks to limit.”108 The court reasoned that “[t]he
rationale behind the protection of the Double Jeopardy
Clause rests upon the doctrine that the Government or
the sovereign with all of its power should not be
allowed to make repeated attempts to convict an
individual for an alleged offense.”109 As a result,
whether or not the agency was acting as a receiver or
regulator decided the issue of whether it violated
constitutional protections. We emphasized that “for the
Double Jeopardy Clause to have any application, there
must be actions by a sovereign, which place the

105

Id.

106

Id. at 68.

107

Id.

108

Id. at 67 (emphasis added).

109

Id.

App. 195
individual twice in jeopardy.”110 The separation of
powers, however, rests on an entirely different
foundation than the Double Jeopardy Clause.
Once again, the Supreme Court has emphasized the
nature of the separation-of-powers principle as a
“prophylactic device” and structural safeguard rather
than a remedy available only when a specific harm is
identified.111 Whether the FHFA’s specific conduct or
actions were governmental in nature is not
relevant—the structure of the agency is. In Free
Enterprise Fund, for example, the Court considered the
causation prong of standing in the context of a
separation-of-powers claim.112 Like the Agencies in the
instant case, the Public Company Accounting Oversight
Board (“PCAOB”) argued that petitioners lacked
standing because their injuries were not fairly
traceable to an invalid appointment.113 The Court
rejected this argument, finding that “standing does not
require precise proof of what the PCAOB’s policies
might have been” had the agency’s structure met
constitutional requirements.114
Thus, to establish standing, the Shareholders are
not required to show what the FHFA may have done

110

Id. (emphasis added).

111

See Plaut, 514 U.S. at 239.

112

See Free Enter. Fund, 561 U.S. at 477.

113

Id. at 512 n.12.

114

Id.

App. 196
had it been constitutionally structured.115 Beyond its
powers as conservator, the FHFA enjoys broad
regulatory power over the GSEs.116 And that regulatory
power will continue to cast a shadow over the
Shareholders’ interests even after this case is resolved.
As regulator, the FHFA has the ongoing potential to
make decisions that affect the Shareholders’ economic
rights. We are satisfied that the Shareholders’ injury is
fairly traceable to the FHFA’s unconstitutional
structure.
c. Redressability
Redressability examines “the causal connection
between the alleged injury and the judicial relief
requested.”117 “The point has always been the same:
whether a plaintiff personally would benefit in a
tangible way from the court’s intervention.”118 “[I]t
must be likely, as opposed to merely speculative, that
the injury will be redressed by a favorable decision.”119
Treasury argues that there is no basis to set aside
the Third Amendment, and thus ruling on FHFA’s
constitutionality would result in an impermissible

115

See id.

116

12 U.S.C. § 4511 et seq.

117

Allen, 468 U.S. at 753 n.19.

118

Sprint Commc’ns Co., 554 U.S. at 300 (cleaned up).

119

Lujan, 504 U.S. at 561 (cleaned up).

App. 197
advisory opinion.120 In essence, Treasury argues
severing the removal restriction would be the
appropriate remedy for the Shareholders’ claim, which
would not resolve the Shareholders’ injury.
We disagree. The Shareholders allege an ongoing
injury—being subjected to enforcement or regulation by
an unconstitutionally constituted body. This is
consistent with standing in separation-of-powers cases.
In Free Enterprise, for example, the Court concluded
that the petitioners were “entitled to declaratory relief
sufficient to ensure that the reporting requirements
and auditing standards to which they are subject will
be enforced only by a constitutional agency accountable
to the Executive.”121 Striking the removal provision was
meaningful because a plaintiff was registered with the
PCAOB and subject to its continuing jurisdiction,
regulation, and investigation.122 Declaratory relief
addressing the constitutional issue stopped the ongoing
injury from persisting. Petitioners thus had a tangible
interest in ensuring that the PCAOB met
constitutional requirements 123 —just like the
Shareholders here.
The relationship between the FHFA and the
Shareholders is sufficiently close to subject the

120

See Bayou Liberty Ass’n v. U.S. Army Corps of Eng’rs, 217 F.3d
393, 397–98 (5th Cir. 2000).
121

Free Enter. Fund, 561 U.S. at 513.

122

See 561 U.S. at 487–88, 513.

123

Id.

App. 198
Shareholders to FHFA oversight. In exercising its
power as conservator, the FHFA has stepped into the
shoes of the directors and managers charged with
making decisions that directly affect the Shareholders’
interests. As a result, the Shareholders’ injury stems
from the continued harm caused by the FHFA’s
ongoing conservatorship without executive oversight.
The relatively sparse case law seems to support this
conclusion: The Supreme Court’s most authoritative
statement on Article III standing of shareholders and
the prudential doctrine of shareholder standing came
in Franchise Tax Board of California v. Alcan
Aluminium Ltd.124 There, a wholly-owned subsidiary
was taxed by the state of California. The subsidiary’s
parent companies, rather than the subsidiary itself,
sued for relief. The Supreme Court concluded that the
parent companies clearly had standing.125 But the
“more difficult issue [was] whether respondents [could]
meet the prudential requirements of . . . the so-called
shareholder standing rule.”126 Although the Court left
that issue unresolved, it left bread crumbs that
resulted in courts using the direct–derivative action

124

493 U.S. at 335.

125

Id. at 336 (“If [taxes against the subsidiary] are higher than the
law of the land allows, that method threatens to cause actual
financial injury to [the parent companies] by illegally reducing the
return on their investments in [the subsidiary] and by lowering the
value of their stockholdings.”).
126

Id.

App. 199
dichotomy for the shareholder standing rule.127
Consistent with this approach, the Shareholders here
assert direct, personal interest in their cause of
action128—their security interests are subject to the
FHFA’s continuing jurisdiction, regulation, and control.
Because the Article III standard is subject to a more
relaxed inquiry than the shareholder standing rule, we
conclude that the Shareholders have Article III
standing to seek declaratory relief. The FHFA as
conservator and regulator has extensive authority and
responsibility that impacts the Shareholders’ rights.
Vacatur of the net worth sweep alone would not fully
resolve the Shareholders’ constitutional injury—it fails
to remedy the ongoing separation-of-powers violation.
We are satisfied that the Shareholders have
standing to bring their constitutional claim.
2. The FHFA is Unconstitutionally Structured
Our Constitution divides the powers and
responsibilities of governing across three co-equal
branches. Each branch may exercise only the powers
explicitly enumerated in the Constitution—executives
execute, legislators legislate, and judges judge. This

127

Id. (stating that there is an exception to the shareholder
standing rule for “a shareholder with a direct, personal interest in
a cause of action to bring suit even if the corporation’s rights are
also implicated”).
128

We recognize that, while not a test for Article III standing, the
shareholder standing rule is an exception to the prudential
doctrine that could prevent the Shareholders’ claims for want of
standing.

App. 200
structural division of power aims to ensure no single
branch becomes too powerful.129 The Framers were not
tinkerers; they upended things. The Revolution
produced a revolutionary design. “Ambition must be
made to counteract ambition.”130 The Constitution’s
unique architecture is “the central guarantee of a just
government”131 and essential to protecting individual
liberty.132

129

See THE FEDERALIST NO. 47 (James Madison) (“The
accumulation of all powers legislative, executive and judiciary in
the same hands, whether of one, a few or many, and whether
hereditary, self appointed, or elective, may justly be pronounced
the very definition of tyranny.”).
130

THE FEDERALIST NO. 51 (James Madison).

131

Freytag, 501 U.S. at 870.

132

See Clinton v. City of New York, 524 U.S. 417, 450 (1998)
(Kennedy, J., concurring) (explaining that our system of separated
powers aims “to implement a fundamental insight: Concentration
of power in the hands of a single branch is a threat to liberty”);
Mistretta v. United States, 488 U.S. 361, 380 (1989) (citations
omitted) (“This Court consistently has given voice to, and has
reaffirmed, the central judgment of the Framers of the
Constitution that, within our political scheme, the separation of
governmental powers into three coordinate Branches is essential
to the preservation of liberty.”); Morrison, 487 U.S. at 697 (Scalia,
J., dissenting) (“The Framers . . . viewed the principle of separation
of powers as the absolutely central guarantee of a just
Government.”); id. (“Without a secure structure of separated
powers, our Bill of Rights would be worthless.”); Bowsher, 478 U.S.
at 722 (“[C]hecks and balances [are] the foundation of a structure
of government that would protect liberty.”); id. at 730 (“The
Framers recognized that, in the long term, structural protections
against abuse of power were critical to preserving liberty.”).

App. 201
Yet when one branch tries to impair the power of
another, this upsets the co-equality of the branches and
degrades the Constitution’s deliberate separation of
powers. Accordingly, the Supreme Court “ha[s] not
hesitated to strike down provisions of law that either
accrete to a single Branch powers more appropriately
diffused among separate Branches or that undermine
the authority and independence of one or another
coordinate Branch.”133
Here, the Shareholders assert the FHFA, as
currently structured, undermines the separation of
powers; they claim that the Executive Branch cannot
adequately control the agency. Before evaluating the
merits of the Shareholders’ challenge, we must discuss
the powers and obligations of the two branches
implicated in this case.
Incidental to the exercise of its enumerated powers,
Congress may establish independent agencies as
“necessary and proper.”134 Over the past century,
Congress has established dozens of independent
agencies responsible for performing executive,
regulatory, and quasi-judicial functions.135 These

133

Mistretta, 488 U.S. at 381 (emphasis added).

134

See Free Enter. Fund, 561 U.S. at 515 (Breyer, J., dissenting)
(citations omitted).
135

See PHH Corp. v. Consumer Fin. Prot. Bureau, 881 F.3d 75, 170
(D.C. Cir. 2018) (Kavanaugh, J., dissenting).

App. 202
independent agencies “wield[] vast power and touch[]
almost every aspect of daily life.”136
Congress often structures agencies to be
independent from the Executive Branch in hopes that
a measure of political insulation will enable the
agencies to pursue policy objectives that (hopefully)
yield long-term benefits.137 To do so, Congress selects
from a “menu of options”138 in order “to structure the
agency to be more or less insulated from presidential
control.”139
The quintessential independence-promoting
mechanism is restricting the Executive Branch’s ability
136

Free Enter. Fund, 561 U.S. at 499; see PHH Corp., 881 F.3d at
170 (Kavanaugh, J., dissenting) (“Ever since the 1935 Humphrey’s
Executor decision, independent agencies have played a significant
role in the U.S. Government. The independent agencies possess
extraordinary authority over vast swaths of American economic
and social life—from securities to antitrust to telecommunications
to labor to energy. The list goes on.”).
137

See, e.g., PHH Corp., 881 F.3d at 78 (“Congress has historically
given a modicum of independence to financial regulators like the
Federal Reserve, the FTC, and the Office of the Comptroller of the
Currency. That independence shields the nation’s economy from
manipulation or self-dealing by political incumbents and enables
such agencies to pursue the general public interest in the nation’s
longer-term economic stability and success, even where doing so
might require action that is politically unpopular in the short
term.”).
138

See Kirti Datla & Richard L. Revesz, Deconstructing
Independent Agencies (and Executive Agencies), 98 CORNELL L.
REV. 769, 825 (2013).
139

See Datla & Revesz, supra note 138, at 825.

App. 203
to remove agency leaders at will. The Supreme Court
in 1935 explained the rationale this way: “[O]ne who
holds his office only during the pleasure of another
cannot be depended upon to maintain an attitude of
independence against the latter’s will.”140 As a result,
Congress will often permit the President to remove
agency leadership only “for cause.” And the Supreme
Court has approved this design: “Congress can, under
certain circumstances, create independent agencies run
by principal officers appointed by the President, whom
the President may not remove at will but only for good
cause.”141
Beyond the removal restriction, Congress may
impose other independence-promoting features.142 For
example, Congress may:
• Empower a single director or a body of coequal leaders to manage the agency;
• Establish fixed terms of service for agency
leadership;
• Mandate the agency be composed of a
bipartisan leadership team;
• Exempt the agency from the standard
appropriations process;

140

Humphrey’s Ex’r v. United States, 295 U.S. 602, 629 (1935).

141

Free Enter. Fund, 561 U.S. at 483 (citations omitted).

142

See Datla & Revesz, supra note 138, at 826–27 (recognizing
agencies “fall along a continuum” ranging “from most insulated to
least insulated from presidential control”).

App. 204
• Require the Senate to formally approve
agency leadership nominations;
• Establish a formal oversight board that
monitors and manages the independent
agency’s activities; and
• Grant the agency unilateral litigation
authority, untethered from the Department
of Justice.143
Sometimes, Congress imposes multiple independencepromoting mechanisms. Ultimately, “an agency’s
practical degree of independence from presidential
influence depends” on the combined effect of these
(sometimes mutually reinforcing) structural features.144
While “[t]he Supreme Court has long recognized
that, as deployed to shield certain agencies, a degree of
independence is fully consonant with the
Constitution,”145 a vast “field of doubt” remains
regarding how much Congress can insulate an
independent agency from Executive Branch

143

See generally id.

144

Id. at 824.

145

PHH Corp., 881 F.3d at 78.

App. 205
influence.146 In other words: “where, in all this, is the
role for oversight by an elected President?”147
The President’s oversight role originates in Article
II. The Constitution vests the “executive Power” in the
President and obligates him to “take Care that the
Laws be faithfully executed.”148 Independent agencies
are staffed by subordinate executive officers,149 so the
President bears the ultimate responsibility for
overseeing those officials.150 Accordingly, “[s]ince 1789,
the Constitution has been understood to empower the
President to keep these officers accountable—by
removing them from office, if necessary.”151 The
President cannot shirk this oversight obligation:
“Abdication of responsibility is not part of the
constitutional design.”152
If an independent agency is too insulated from
Executive Branch oversight, the separation of powers
146

Humphrey’s Ex’r, 295 U.S. at 632.

147

Free Enter. Fund, 561 U.S. at 499; id. (“The Constitution
requires that a President chosen by the entire Nation oversee the
execution of the laws.”).
148

U.S. CONST. art. II § 1, cl. 1; id. § 3.

149

See Free Enter. Fund, 561 U.S. at 483.

150

See id.; id. at 492 (“It is his responsibility to take care that the
laws be faithfully executed. The buck stops with the President, in
Harry Truman’s famous phrase.”).
151

Id. at 483 (citations omitted).

152

Clinton, 524 U.S. at 452 (1998) (Kennedy, J., concurring).

App. 206
suffers. First, excessive insulation impairs the
President’s ability to fulfill his Article II oversight
obligations.153 By limiting his ability to oversee
subordinates, Congress weakens the President’s ability
to fulfill his “constitutionally assigned duties, and thus
undermines . . . the balance of constitutionally
prescribed power among the branches.”154
Second, excessive insulation allows Congress to
accumulate power for itself. As the Supreme Court
recognized, excessively insulating an independent
agency from Executive Branch influence “provides a
blueprint for extensive expansion of the legislative
power.”155 Congress can expand its powers through its
“plenary control over the salary, duties, and even

153

Cf. Free Enter. Fund, 561 U.S. at 498 (“By granting the [Public
Company Accounting Oversight] Board executive power without
the Executive’s oversight, this Act subverts the President’s ability
to ensure that the laws are faithfully executed—as well as the
public’s ability to pass judgment on his efforts. The Act’s
restrictions are incompatible with the Constitution’s separation of
powers.”).
154

Martin H. Redish & Elizabeth J. Cisar, “If Angels Were to
Govern”: The Need for Pragmatic Formalism in Separation of
Powers Theory, 41 DUKE L.J. 449, 501 (1991) (footnote omitted); see
Free Enter. Fund, 561 U.S. at 500 (“‘Even when a branch does not
arrogate power to itself,’ . . . it must not ‘impair another in the
performance of its constitutional duties.’” (quoting Loving v. United
States, 517 U.S. 748, 757 (1996) (footnote omitted))).
155

Free Enter. Fund, 561 U.S. at 500 (2010) (quoting Metro. Wash.
Airports Auth. v. Citizens for Abatement of Aircraft Noise, Inc., 501
U.S. 252, 277 (1991)).

App. 207
existence of executive offices.”156 And without
meaningful tools to oversee the agency, the President
cannot counteract Congress’s ambition.157
For these reasons, agencies may be independent,
but they may not be isolated. Surveying the Supreme
Court’s removal-power cases, a unifying principle
emerges: The outer limit of Congress’s ability to
insulate independent agencies from executive oversight
is the President’s Article II obligation to ensure that
the nation’s laws are faithfully executed. In other
words, Article II’s Take Care Clause must impose a
hard limit on what is “necessary and proper” under
Article I.158 Otherwise, Congress could insulate an
agency to the point where the President could not
adequately oversee the agency’s activities, impairing
the President’s ability to fulfill his Article II
156

Id.

157

See id. (“Only Presidential oversight can counter its influence.”);
id. at 501 (citing THE FEDERALIST No. 51 (James Madison)).
158

Congress may establish independent agencies as “necessary and
proper” in order to exercise its enumerated powers. But whatever
Congress finds “necessary and proper” must be consistent with
Constitution’s “letter and spirit.” Nat’l Fed’n of Indep. Bus. v.
Sebelius, 567 U.S. 519, 537 (2012) (quoting McCulloch v.
Maryland, 4 Wheat. 316, 421 (1819)); id. at 559 (“As our
jurisprudence under the Necessary and Proper Clause has
developed, we have been very deferential. . . . But we have also
carried out our responsibility to declare unconstitutional those
laws that undermine the structure of government established by
the Constitution.”); see Free Enter. Fund, 561 U.S. at 516 (Breyer,
J., dissenting) (“The Necessary and Proper Clause does not grant
Congress power to free all Executive Branch officials from
dismissal at the will of the President.”).

App. 208
obligations.159 This excessive insulation upsets the
separation of powers both by allowing Congress to
weaken the President’s performance of his
constitutionally mandated duties and by allowing
Congress to accumulate power for itself. Therefore,
Congress cannot enshroud an agency in layers of
independence-promoting insulation to the point at
which the President cannot adequately control the
agency’s behavior.160
To determine when insulating an independent
agency from Executive Branch control goes too far, we
must review the Supreme Court’s leading removalpower cases.
a. Free Enterprise Fund
The Supreme Court in Free Enterprise Fund
evaluated whether Public Company Accounting
Oversight Board (“PCAOB”) members were excessively
insulated from Executive Branch control.

159

Free Enter. Fund, 561 U.S. at 496 (finding that when the
President could not hold agency officials accountable for their
conduct, “his ability to execute the laws . . . [was] impaired” in
violation of Article II); see Humphrey’s Ex’r, 295 U.S. at 629. (“The
fundamental necessity of maintaining each of the three general
departments of government entirely free from the control or
coercive influence, direct or indirect, of either of the others, has
often been stressed and is hardly open to serious question.”).
160

Free Enter. Fund, 561 U.S. at 508 (holding that Congress cannot
“deprive the President of adequate control over the [Public
Company Accounting Oversight] Board, which is the regulator of
first resort and the primary law enforcement authority for a vital
sector of our economy”).

App. 209
The PCAOB was a “nonprofit corporation” with
“expansive powers to govern” foreign and domestic
accounting firms that audit public companies to ensure
compliance with our nation’s securities laws.161
Congress charged the SEC with the responsibility of
overseeing the PCAOB.162 Yet, Congress also
“substantially insulated” PCAOB members “from the
Commission’s control.”163 PCAOB members could not be
removed “except for good cause,” and the Securities and
Exchange Commissioners decided “whether good cause
exist[ed].”164 The President had virtually no oversight
over the good-cause determination made by the SEC
Commissioners; the President “was powerless to
intervene—unless that determination [was] so
unreasonable as to constitute inefficiency, neglect of
duty, or malfeasance in office.”165 Thus, to the Court,
none of those Commissioners were “subject to the
President’s direct control.”166
The Court concluded that excessively insulating the
PCAOB members through two layers of for-cause
removal protection unconstitutionally impaired the
President’s ability to fulfill his Article II responsibility.

161

Id. at 484–85.

162

Id. at 485.

163

Id.

164

Id. at 496.

165

Id. (cleaned up).

166

Id.

App. 210
Congress “withdr[ew] from the President any decision
on whether . . . good cause exists” and “vested” that
decision in SEC Commissioners.167 This meant that the
PCAOB was “not accountable to the President,” and the
President was “not responsible for the Board.”168 This
arrangement was unconstitutional because:
[n]either the President, nor anyone directly
responsible to him, nor even an officer whose
conduct he may review only for good cause, ha[d]
full control over the Board. The President [was]
stripped of the power our precedents have
preserved, and his ability to execute the laws—by
holding his subordinates accountable for their
conduct—[was] impaired.169
We draw three important lessons from Free
Enterprise.
First, Congress may not “shelter the bureaucracy”
to the point where executive officers are “immune from
Presidential oversight.”170 We must not forget the
Court’s fear that, absent effective oversight tools, the
Chief Executive could lose control over the Executive
Branch.171
167

Id.

168

Id.

169

Id. at 496 (emphasis added).

170

Id. at 497.

171

Id. at 499 (“The growth of the Executive Branch, which now
wields vast power and touches almost every aspect of daily life,

App. 211
Second, to maintain “adequate control”172 over his
subordinates, the President must retain sticks that he
can use to demand accountability—including the power
to remove.173 As the Free Enterprise Court made clear,
Congress cannot transform the President into a
“cajoler-in-chief” who can only offer carrots.174
Third, we must look at the aggregate effect of the
insulating mechanisms to determine whether an
agency is excessively insulated. The Court in Free
Enterprise explicitly recognized that “the language
providing for good-cause removal” “working together”
with “a number of statutory provisions” “produce[d] a
constitutional violation.”175 Indeed, all nine Justices
adopted this analytical approach.176

heightens the concern that it may slip from the Executive’s control,
and thus from that of the people.” (emphasis added)).
172

Id. at 508 (holding that Congress cannot “deprive the President
of adequate control over the Board, which is the regulator of first
resort and the primary law enforcement authority for a vital sector
of our economy”).
173

See id. at 483–84; id. at 499.

174

Id. at 501–02; id. (“The President . . . is not limited, as in Harry
Truman’s lament, to ‘persuad[ing]’ his unelected subordinates ‘to
do what they ought to do without persuasion.’” (alterations in
original)); id. at 502 (“Congress cannot reduce the Chief Magistrate
to a cajoler-in-chief.”).
175

176

See id. at 509.

Justice Breyer—dissenting and joined by Justices Stevens,
Ginsburg and Sotomayor—followed roughly the same analytical
framework. The dissent recognized that the removal restriction’s

App. 212
b. Morrison
Morrison involved the constitutionality of the Ethics
in Government Act (“EGA”), which permitted “the
appointment of an ‘independent counsel’ to investigate
and, if appropriate, prosecute certain high-ranking
Government officials for violations of federal criminal
laws.”177 The EGA conferred upon the independent
counsel protection from at-will removal by the
Executive Branch.178

constitutionality must be decided “in light of the provision’s
practical functioning in context,” id. at 523 (Breyer, J., dissenting),
because “[i]n practical terms no ‘for cause’ provision can, in
isolation, define the full measure of executive power,” id. at 524
(emphasis added). Congress’s agency-design decisions—such as the
agency’s “scope of power” and funding—”affect the President’s
power to get something done.” See id. Thus, the dissent posed the
central question as: “To what extent [] is the . . . ‘for cause’
[removal] provision likely, as a practical matter, to limit the
President’s exercise of executive authority?” Id. The dissent
concluded that, even with the removal restriction, the
President—through his “constitutionally sufficient” control over
the SEC—could adequately control the PCAOB. Id. at 528–30. In
other words, after evaluating the cumulative effect of the
insulating mechanisms, the dissent concluded the President could
still adequately control the PCAOB.
177

178

Morrison, 487 U.S. at 660 (footnote omitted).

Id. at 663; id. at 686 (recognizing that the Attorney General
may remove the independent counsel for good cause, after
following a statutorily-prescribed process).

App. 213
The independent counsel was an “inferior officer”179
within the Executive Branch, who was “subject to goodcause removal by a higher Executive Branch official”
(i.e., the Attorney General).180 The counsel had no
“authority to formulate policy for the Government or
the Executive Branch, nor . . . [authority to exercise]
any administrative duties outside of those necessary to
operate her office.”181 The counsel could “only act within
the scope of the jurisdiction that ha[d] been granted by
the Special Division182 pursuant to a request by the
Attorney General.”183 The Attorney General—a
principal executive officer who is removable at will by
the President—exercised substantial oversight over the
authority and actions of the independent counsel.
Although the EGA provided the independent
counsel protection from at-will removal, the Court
found this removal restriction did not “sufficiently
deprive[] the President of control over the independent
counsel to interfere impermissibly with his
constitutional obligation to ensure the faithful
179

The Court reached this conclusion when evaluating the claim
that the EGA violated Article II’s Appointments Clause. We do not
find it necessary to recite the Court’s reasoning. We note, however,
that this conclusion influenced the Court’s subsequent analysis of
the separation-of-powers challenge.
180

Id. at 671, 686.

181

Id. at 671–72.

182

The Special Division was “a special court . . . created by the Act
‘for the purpose of appointing independent counsels.’” Id. at 661.
183

Id. at 672.

App. 214
execution of the laws.”184 The Court recognized that the
separation of powers aims to ensure “Congress does not
interfere with the President’s exercise of the ‘executive
power’ and his constitutionally appointed duty to ‘take
care that the laws be faithfully executed’ under Article
II.”185 But it concluded that the removal restriction did
not “impede the President’s ability to perform his
constitutional duty.”186 This is because the EGA
provided the Executive Branch various other tools to
supervise and control the independent counsel.187 For
example:
• The independent counsel may be appointed
only following a “specific request by the
Attorney General, and the Attorney
General’s decision not to request
appointment if he finds ‘no reasonable
grounds to believe that further investigation
is warranted’ is committed to his
unreviewable discretion.”188 This gave “the

184

Id. at 693.

185

Id. at 689.

186

Id. at 691.

187

Id. at 695–96 (“It is undeniable that the Act reduces the amount
of control or supervision that the Attorney General and, through
him, the President exercises over the investigation and prosecution
of a certain class of alleged criminal activity. . . . Nonetheless, the
Act does give the Attorney General several means of supervising
or controlling the prosecutorial powers that may be wielded by an
independent counsel.”).
188

Id. at 696.

App. 215
Executive a degree of control over the power
to initiate an investigation by the
independent counsel.”189
• The independent counsel’s jurisdiction was
“defined with reference to the facts submitted
by the Attorney General.”190
• “[O]nce a counsel [was] appointed, the Act
require[d] that the counsel abide by Justice
Department policy unless it [was] not
‘possible’ to do so.”191
Considering the combined effect of the EGA’s
provisions, the Court concluded that “[n]otwithstanding
the fact that the counsel [was] to some degree
‘independent’ and free from executive supervision . . .
[those] features of the Act g[a]ve the Executive Branch
sufficient control over the independent counsel to
ensure that the President [was] able to perform his
constitutionally assigned duties.”192 Congress, in effect,
compensated for the removal restriction by providing
the Executive Branch other effective tools to monitor
and control the independent counsel. Thus, the
Morrison Court held, the independent counsel was not

189

Id.

190

Id.

191

Id.

192

Id. at 696 (emphasis added).

App. 216
excessively insulated from presidential control, so there
was no separation-of-powers violation.193
***
The overarching imperative to prevent an agency
from being unconstitutionally insulated from Executive
Branch oversight explains why an at-will removal limit
survived in Morrison but died in Free Enterprise.
Restricting at-will removal of PCAOB Members in Free
Enterprise—in combination with the other mechanisms
that insulated the PCAOB from executive
oversight—went too far.194 But in Morrison, the
Executive retained tools to meaningfully oversee the
independent counsel, despite the removal restriction.
After considering the combined effect of the provisions
governing the independent counsel, the Morrison Court
concluded that Congress had not excessively insulated
the independent counsel from the Executive Branch.195
Congress cannot isolate an independent agency
from meaningful executive oversight. Otherwise, the
President could not fulfill his Article II responsibility to
ensure the faithful execution of the nation’s laws, thus
undermining the separation of powers.

193

See id. at 697.

194

Free Enter. Fund, 561 U.S. at 509 (“It is true that the language
providing for good-cause removal is only one of a number of
statutory provisions that, working together, produce a
constitutional violation.”) (emphasis added).
195

See Morrison, 487 U.S. at 696.

App. 217
c. The FHFA
We hold that Congress insulated the FHFA to the
point where the Executive Branch cannot control the
FHFA or hold it accountable.196 We reach this
conclusion after assessing the combined effect of the:
(1) for-cause removal restriction; (2) single-Director
leadership structure; (3) lack of a bipartisan leadership
composition requirement; (4) funding stream outside
the normal appropriations process; and (5) Federal
Housing Finance Oversight Board’s purely advisory
oversight role.
i. The for-cause removal restriction
The President may remove the FHFA Director only
“for cause.” Limiting the President to only “for cause”
removal dulls an important tool197 for supervising the
FHFA because the agency is protected from Executive

196

Admittedly, measuring the degree of insulation is
difficult—especially when each insulating feature, standing alone,
may pass constitutional muster. Nevertheless, we must remain
faithful to the Supreme Court’s guidance and engage in a factspecific inquiry to decide whether the various insulating
provisions, “working together, produce a constitutional violation.”
See Free Enter. Fund, 561 U.S. at 509.
197

Query whether a policy disagreement constitutes cause to
remove. See Rachel E. Barkow, Insulating Agencies: Avoiding
Capture Through Institutional Design, 89 TEXAS L. REV. 15, 27
(2010) (footnote omitted) (“Though the issue has not been decided
by the Supreme Court, most commentators agree that it is not
good cause for removal if an agency performs a lawful regulatory
agency action that the President disagrees with as a matter of
policy.”).

App. 218
influence and oversight.198 Although the power to
remove “for cause” may be a dull oversight tool,199

198

See Neal Devins & David E. Lewis, Not-So Independent
Agencies: Party Polarization and the Limits of Institutional Design,
88 B.U. L. REV. 459, 488 (2008) (finding that when “[p]residents
cannot fire independent-agency heads on policy grounds . . . [they]
have been constrained in their efforts to direct independent-agency
policy making.”); Lisa Schultz Bressman & Robert B. Thompson,
The Future of Agency Independence, 63 VAND. L. REV. 599, 611
(2010) (“[A] President who cannot remove the personnel of the
agency for policy disagreements lacks a key method to impose
administration views.”); see also Datla & Revesz, supra note 138,
at 787 (footnote omitted) (“The ability to remove an agency head at
will is an enforcement tool that helps the President ensure that the
agency follows his policy preferences.”); Barkow, supra note 197,
at 28 (“Empirical studies on when Congress opts for good-cause
provisions support the view that this design feature seems largely
aimed at stopping presidential pressure [on independent
agencies].”); id. at 30 (“A removal restriction undoubtedly gives an
agency head greater confidence to challenge presidential
pressure.”).
199

Indeed, the contours of “for cause” removal are uncertain. “No
recent President has attempted to remove the head of an
independent agency for cause . . . .” Datla & Revesz, supra note
138, at 788; id. at 787–89 (theorizing that the uncertainty
regarding what constitutes “for cause” removal and the potential
political costs of litigating the issue discourage Presidents from
firing agency officials for cause).
Also, statutory provisions governing how to replace the FHFA
Director may blunt the effectiveness of “for cause” removal. If the
Director is absent, a Deputy Director (chosen by the recently
removed former Director) is designated by the President to serve
as the FHFA’s acting Director. See 12 U.S.C. § 4512. This former
Deputy serves as acting Director until “the appointment of a
successor” following a formal appointment proceeding. Even if a
President removes the Director “for cause,” the President must
designate an acting Director from the ranks of Deputy Directors

App. 219
limiting the President to “for cause” removal is not
sufficient to trigger a separation-of-powers violation.200
Cognizant of this restriction, we consider whether this
and other independence-promoting mechanisms—
“working together”201—excessively insulate the FHFA,
violating the separation of powers.
ii. Single-Director agency leadership
The FHFA’s single-Director structure further
insulates the Agency from presidential influence and
oversight.
Traditionally, independent agencies are governed by
multi-member bodies.202 Early examples of agencies
whose directors were protected from at-will
removal—such as the Interstate Commerce
Commission and the Federal Trade Commission—were
“multi-member bodies: They were designed as nonpartisan expert agencies that could neutrally and

whom the recently removed Director selected. And the President
cannot install the Director of his choice until the Senate approves
his replacement. These speedbumps to appointing a replacement
Director render for-cause removal an impotent oversight
mechanism.
200

See Free Enter. Fund, 561 U.S. at 483 (citations omitted).

201

See id. at 509.

202

See generally PHH Corp., 881 F.3d at 177–79 (Kavanaugh, J.,
dissenting) (discussing the nation’s “deeply rooted
tradition—namely, that independent agencies are headed by
multiple commissioners—[that] has been widely recognized by
leading judges, congressional committees, and academics who have
studied the issue”).

App. 220
impartially issue rules, initiate law enforcement
actions, and conduct or review administrative
adjudications.”203
The distinction affects the President’s ability to
monitor independent agencies. In multi-member
agencies whose leaders are protected from at-will
removal, the President can still influence the agency
through the power “to designate the chairs of the
agencies and to remove chairs at will from the chair
position.”204 By designating a chair, a new President
can “quickly” exert supervisory oversight.205
The FHFA has no chair. “[A] President may be
stuck for years with a [FHFA] Director who was
appointed by the prior President and who vehemently

203

See id. at 169; id. at 173 (“Until this point in U.S. history,
independent agencies exercising substantial executive authority
have all been multi-member commissions or boards.”).
204

See id. at 166; see Datla & Revesz, supra note 138, at 796–97
(summarizing the chairperson’s ability to influence agency
direction and recognizing “it is clear that the ability to appoint the
head of an independent agency allows the President to retain some
control over that agency’s activities”); Peter L. Strauss, The Place
of Agencies in Government: Separation of Powers and the Fourth
Branch, 84 COLUM. L. REV. 573, 590 (1984) (explaining that the
President can influence an independent agency’s priorities and
policymaking by designating a chairperson); id. at 590 n.68 (“The
personal, political loyalty of the chairman assures the President a
substantial impact on agency administration, and consequent
influence on policy.”).
205

Barkow, supra note 197, at 38–39.

App. 221
opposes the current President’s agenda.”206 This
“dramatic and meaningful difference vividly illustrates
that the . . . single-Director structure diminishes
Presidential power more than traditional multimember independent agencies do.”207 Thus, the FHFA’s
single-Director leadership structure insulates the
agency from presidential oversight.
iii.

Lack of bipartisan balance

Another factor is whether the independent agency
has a statutorily mandated requirement of bipartisan
leadership.
A bipartisan leadership structure gives the
President allies: “[C]ommon sense and existing
scholarship point to the increasing identity of interests
between the President and independent-agency
commissioners from the president’s party.”208 Even
when the President inherits an agency led by the
opposing party, he often can secure a majority of the
leadership on the governing board within the first two
years of his term.209 And “[o]nce the President has a

206

See PHH Corp., 881 F.3d at 167 (Kavanaugh, J., dissenting).

207

Id.

208

Devins & Lewis, supra note 198, at 491 (footnote omitted); see
also id. (“[S]ystematic studies of both commissioner voting and the
nomination process support our claim that, in this era of party
polarization, independent-agency heads are especially likely to
support the priorities of the political party they represent.”).
209

See Barkow, supra note 197, at 38 (citations omitted) (finding
that recent Presidents have managed to obtain a partisan majority

App. 222
majority of members of his or her party, the
commissions fall in line with the President’s priorities
and positions.” 210 Thus, bipartisan balance
requirements bolster presidential involvement.
The FHFA, however, lacks this requirement. “Its
single Director is from a single party—presumably the
party of the President who appoints him.”211 Given the
Director’s fixed five-year term, the opposing party may
dominate the Agency for the duration of the President’s
term.
Plus, bipartisan leadership requirements enhance
Executive Branch oversight. Party members on an
agency’s governing board are “likely to . . . dissent if the
agency goes too far in one direction,”212 which serves as
a “fire alarm” that alerts the President about
controversial agency actions.213 But, at the FHFA, no
one is there to sound the alarm.

on multi-member independent agencies in an average of twenty
months (a historically slow rate)).
210

Barkow, supra note 197, at 38; Devins & Lewis, supra note 198,
at 498 (concluding “there is good reason to think that independent
agencies will adhere to presidential preferences once a majority of
commissioners are from the President’s party”).
211

See PHH Corp., 881 F.3d at 148 (Henderson, J., dissenting).

212

See Barkow, supra note 197, at 41.

213

See id.

App. 223
iv. Abnormal agency funding
An agency’s funding stream bears on presidential
influence.214 If the agency is subject to the normal
appropriations process, the President can veto a
spending bill containing appropriations for the
agency.215 Also, the President submits an annual
budget to Congress, which he uses “to influence the
policies of independent agencies.”216
By placing an agency outside the normal
appropriations process, the President loses “leverage”
over the agency’s activities.217 As Justice Breyer’s Free
Enterprise dissent recognized, “who controls the
agency’s budget requests and funding” affects the “full
measure of executive power” to oversee an agency; an
agency’s funding stream “affect[s] the President’s
ability to get something done.”218

214

See PHH Corp., 881 F.3d at 146–47 (Henderson, J., dissenting)
(citation omitted); see also Barkow, supra note 197, at 43 (“To be
sure, the power of the purse is one of the key ways in which
democratic accountability is served.” (footnote omitted)).
215

See PHH Corp., 881 F.3d at 147 (Henderson, J., dissenting)
(citation omitted).
216

Id. (citation omitted).

217

See id. at 147; Barkow, supra note 197, at 44 (“With
independent funding, the agency is insulated from . . . the
President.” (footnote omitted)).
218

Free Enter. Fund, 561 U.S. at 524 (Breyer, J., dissenting).

App. 224
The FHFA stands outside the budget219— in stark
contrast to “nearly all other administrative
agencies” 220 —and is therefore immune from
presidential control.
v. No formal control over agency activities
No statutory provision provides for formal
Executive Branch control over the FHFA’s activities.
The closest thing is the statutorily created Federal
Housing Finance Oversight Board (the “Board”).221 Two
of the Board’s four members are Cabinet officials who
are beholden to the President: the Secretary of the
Treasury and the Secretary of Housing and Urban
Development. But the Board may not “exercise any
executive authority, and the Director may not delegate
to the Board any of the functions, powers, or duties of
the Director.”222 The Board exercises purely advisory
functions; it cannot require the FHFA or Director to do
anything—beyond ordering “a special meeting of the
Board.”223 Thus, Cabinet officials—through the
Board—can do nothing more than cajole the FHFA into
acting.
219

12 U.S.C. § 4516(f)(2); see HENRY B. HOGUE ET AL., CONG.
RESEARCH SERV., R43391, INDEPENDENCE OF FEDERAL FINANCIAL
REGULATORS: STRUCTURE, FUNDING, AND OTHER ISSUES 27 (2017).
220

Cf. PHH Corp., 881 F.3d at 146 (Henderson, J., dissenting)
(citations omitted) (emphasis added).
221

12 U.S.C. § 4513a(a).

222

Id. § 4513a(b).

223

Id. § 4513a(d)(2).

App. 225
This lack of formal involvement contrasts with
situations where courts have upheld the insulation of
independent agencies: PHH (the Consumer Financial
Protection Bureau) and Morrison (independent
counsel).
With respect to the Consumer Financial Protection
Bureau (“CFPB”), the President, through the Financial
Stability Oversight Council (“FSOC”), can influence the
CFPB’s activities.224 The Council is comprised of ten
voting members.225 The Treasury Secretary is the
Council’s Chairperson.226 The other voting members are
heads of various independent agencies, including the
SEC, Commodity Futures Trading Commission, CFPB,
and FHFA.227 “Significantly, a supermajority of persons
on the Council are designated by the President.”228

224

See id. § 5321.

225

Id. § 5321(b)(1).

226

Id. § 5321(b)(1)(A).

227

Id. § 5321(b)(1). The President, with the advice and consent of
the Senate, also appoints a voting “independent member . . .
having insurance expertise” to the FSOC who serves a six-year
term. Id. § 5321(b)(1)(J), (c)(1).
228

PHH Corp., 881 F.3d at 120 (Wilkins, J., concurring); see id. at
120 n.3 (Wilkins, J., concurring) (explaining that “the chairpersons
of five independent agencies serve on the Council, each of whom
the President has the opportunity to appoint either at the outset
or near the beginning of the administration” and “[o]nly four
members of the FSOC have terms longer than four years and are
thus potentially not appointed by a one-term President”).

App. 226
The FSOC holds veto-power over the CFPB’s
policies.229 Specifically, the FSOC may “set aside a final
regulation prescribed by the [CFPB], or any provision
thereof, if the Council decides . . . the regulation or
provision would put the safety and soundness of the
United States banking system or the stability of the
financial system of the United States at risk.”230 “Any
member of the Council can file a petition to stay or
revoke a rule, which can be granted with a two-thirds
majority vote.”231 This veto is a “powerful” oversight
mechanism.232 Thus, despite the CFPB’s independent
status, the Executive Branch retains an emergency
brake to hold the CFPB accountable.233
With respect to the independent counsel in
Morrison, the EGA established formal mechanisms for
the Attorney General to oversee the independent

229

See PHH Corp., 881 F.3d at 98; id. at 120–21 (Wilkins, J.,
concurring) (finding these “additional statutory requirements on
CFPB action make[] the CFPB Director more accountable to the
President”).
230

Id. § 5513(a).

231

PHH Corp., 881 F.3d at 120 (Wilkins, J., concurring) (citing 12
U.S.C. § 5513).
232

233

Id.

Some question whether the FSOC is a “meaningful substitute
check” on the CFPB’s actions. See id. at 159–60 (Henderson, J.,
dissenting) (“The fact that anyone mentions the Council’s narrow
veto as a check is instead a testament to the CFPB’s
unaccountable policymaking power.”). This magnifies the concern
here: The FHFA lacks any oversight body.

App. 227
counsel. And these mechanisms, in part, persuaded the
Court to uphold the removal restriction.
In sum, there are no formal mechanisms by which
the Executive Branch can control how the FHFA
exercises authority. The only formal oversight body is
the Federal Housing Finance Oversight Board—a
purely advisory body that cannot impose its will on the
FHFA. Although the Treasury Secretary is a member
of the Board, she cannot pump the brakes on the
FHFA’s actions.
d. There are
agencies.

no

similarly

insulated

The FHFA defends its constitutionality by asserting
that it follows in a long line of independent agencies
that courts have found to be constitutional—namely,
the Federal Trade Commission, the Office of the
Independent Counsel, and the Consumer Financial
Protection Bureau. We see things differently. The
FHFA is sui generis, and its unique constellation of
insulating features offends the Constitution’s
separation of powers.
i. The FTC in Humphrey’s Executor
The FTC is an independent agency whose leaders
are protected from at-will removal. The Supreme Court
approved this arrangement 80-plus years ago in
Humphrey’s Executor—which the FHFA takes as
validation.
But the Court has since clarified that Humphrey’s
Executor did not grant Congress blanket authority to
create independent agencies whose leaders are

App. 228
protected from at-will removal.234 The Humphrey’s
Executor Court established two demarcations regarding
the President’s oversight power: The President has
“unrestrictable power to remove purely executive
officers,” and Congress may limit the President’s power
to remove commissioners of an independent agency
that is “wholly disconnected from the executive
department.”235 Between those poles lies a “field of
doubt.”236
The Humphrey’s Executor Court’s description of the
FTC instructs how we tend the field. First, the Court
described the FTC as “an administrative body created
by Congress to carry into effect legislative policies” that
“act[ed] in part quasi legislatively and in part quasi
judicially.”237 The Court emphasized that the FTC
“cannot in any proper sense be characterized as an arm

234

See Free Enter. Fund, 561 U.S. at 483 (reading Humphrey’s
Executor to mean that “Congress can, under certain circumstances,
create independent agencies run by principal officers appointed by
the President, whom the President may not remove at will but only
for good cause.” (emphasis added)); see also PHH Corp., 881 F.3d
at 186 (Kavanaugh, J., dissenting) (interpreting Humphrey’s
Executor as limited to approving removal limitations for
independent agencies with multi-member leadership structures).
235

Humphrey’s Ex’r, 295 U.S. at 630.

236

Id. at 632.

237

Id. at 628; see id. at 624 (finding the FTC’s duties were “neither
political nor executive, but predominantly quasi judicial and quasi
legislative.”).

App. 229
or an eye of the executive.”238 And “any executive
function” it does exercise—“as distinguished from
executive power in the constitutional sense”239—is “in
the discharge and effectuation of its quasi legislative or
quasi judicial powers, or as an agency of the legislative
or judicial departments of the government.”240 Thus,
central to the Court’s decision was its perception that
the FTC did not exercise executive power.
This discussion highlights how the FTC differs from
the FHFA. The FHFA—unlike the FTC241—exercises
executive functions. For example, the FHFA can
enforce rules that it creates through cease-and-desist
orders and monetary civil penalties.242 Thus, the FHFA
can easily “be characterized as an arm or eye of the
executive.”243
238

Id. at 628.

239

Id.

240

Id. (footnote omitted).

241

The Morrison Court acknowledged, however, that the
Humphrey’s Executor Court may have misperceived the FTC’s
authority: “[I]t is hard to dispute that the powers of the FTC at the
time of Humphrey’s Executor would at the present time be
considered ‘executive,’ at least to some degree.” Morrison, 487 U.S.
at 690 n.28 (citations omitted). The Court has not, however,
formally abrogated the Humphrey’s Executor holding.
242

243

See 12 U.S.C. §§ 4585, 4636.

See Humphrey’s Ex’r, 295 U.S. at 628. Decades later, the
Morrison Court de-emphasized the focus on the agency’s function
in favor of an approach that focused on “whether the removal
restrictions are of such a nature that they impede the President’s

App. 230
Also, the FHFA lacks formal nonpartisanship
requirements. The President appoints the Director, and
the Director then appoints three deputies. Most likely,
the agency’s approach to exercising its broad discretion
will slant toward the views of the President’s party.244
The FTC, on the other hand, is bipartisan.245 The FTC
is also structured to allow the President to choose a
chairperson,246 which allows the Executive Branch to
wield considerable influence over the agency’s priorities
and actions.247
One final distinction: The FTC is subject to the
traditional appropriations process.248 “Accordingly, the
FTC must go to the Congress every year with a detailed
budget request explaining its expenditure of public
money,”249 which allows the President to monitor and
shape the agency’s activities.250
ability to perform his constitutional duty, and the functions of the
officials in question must be analyzed in that light.” Morrison, 487
U.S. at 691.
244

See PHH Corp., 881 F.3d at 144–48 (Henderson, J., dissenting).

245

See Humphrey’s Ex’r, 295 U.S. at 628. Compare 15 U.S.C. § 41
(FTC) with 12 U.S.C. § 4512 (FHFA).
246

15 U.S.C. § 41.

247

See supra notes 202–213 and accompanying text.

248

8 15 U.S.C. § 42. See generally PHH Corp., 881 F.3d at 146
(Henderson, J., dissenting).
249

PHH Corp., 881 F.3d at 146 (Henderson, J., dissenting).

250

See supra notes 214–220 and accompanying text.

App. 231
Humphrey’s Executor, therefore, is inapposite. By
structuring the FTC to preserve Executive Branch
influence, Congress mitigated the impact of limiting
the President’s removal power. Congress did not stifle
the President’s ability to directly impact the agency. As
a result, the President could fulfill his Article II
responsibility, and the FTC survived constitutional
challenge. The FHFA is a different beast.
ii. The independent counsel in Morrison
The Executive Branch could exercise far greater
control over the independent counsel as compared with
the FHFA.251 Indeed, the EGA gave the Executive
Branch control over when and how the independent
counsel performed its prosecutorial functions; this
control was “sufficient” to allow the President to fulfill
his Article II responsibilities.252 No principal Executive
Branch official can exert comparable influence over the
FHFA.
The FHFA Director also does not resemble the
independent counsel. The independent counsel
“exercised only executive power, not rulemaking or
adjudicative power” and “had only a limited jurisdiction
for particular defined criminal investigations.”253
Because the FHFA Director can write and enforce

251

See supra notes 177–193 and accompanying text; see also
Morrison, 487 U.S. at 696; PHH Corp., 881 F.3d at 176
(Kavanaugh, J., dissenting).
252

Morrison, 487 U.S. at 696.

253

PHH Corp., 881 F.3d at 176 (Kavanaugh, J., dissenting).

App. 232
laws—as opposed to just enforcing existing laws—the
FHFA Director “poses a more permanent threat to the
President’s faithful execution of the laws.”254
iii.

The CFPB in PHH Corporation

The D.C. Circuit recently evaluated the
constitutionality of the structure of the Consumer
Financial Protection Bureau, an independent agency
that exercises executive, legislative, and adjudicatory
functions. Congress structurally insulated the CFPB
from Executive Branch oversight; this insulation
included a restriction on the President’s ability to
remove the CFPB’s director at will.255 Ultimately, the
en banc court found the agency’s structure
constitutional.256
The D.C. Circuit found that “[t]he [Supreme] Court
has consistently upheld ordinary for-cause removal
restrictions like the one at issue here, while
invalidating only provisions that either give Congress
some role in the removal decision or otherwise make it
abnormally difficult for the President to oversee an
executive officer.”257 Following that framing, the court

254

Cf. id. at 152–53 (Henderson, J., dissenting) (comparing the
CFPB Director to the independent counsel).
255

Id. at 78 (recognizing “[t]he Director may be fired only for
‘inefficiency, neglect of duty, or malfeasance in office’” (quoting 12
U.S.C. § 5491(c)(3)).
256

We compliment our colleagues for their numerous incisive,
detailed opinions, from which we have drawn extensively.
257

Id. at 85.

App. 233
approved “Congress’s application of a modest removal
restriction to the CFPB, a financial regulator akin to
the independent FTC in Humphrey’s Executor and the
independent SEC in Free Enterprise Fund, with a sole
head like the office of independent counsel in
Morrison.”258
The D.C. Circuit explained its conclusion as follows.
First, the CFPB’s structure was consistent with
historical practice with regard to independent,
financial regulatory agencies.259 Second, “Congress
validly decided that the CFPB needed a measure of
independence and chose a constitutionally acceptable
means to protect it,”260 including budgetary
independence.261 Third, an agency led by a single
director is likely as responsive to the Executive Branch
as an agency with a multi-member leadership
structure.262 Finally, the D.C. Circuit disagreed with
Judge Kavanaugh’s dissenting position; according to
the majority, the CFPB’s novel structure was, standing

258

Id. at 85. The D.C. Circuit also described the removal
restrictions at-issue as “wholly ordinary” and “mild.” Id. at 78.
259

Id. at 91 (“Financial regulation, in particular, has long been
thought to be well served by a degree of independence.”).
260

Id. at 92–93.

261

Id. at 93.

262

Id. (“[T]here is no reason to assume an agency headed by an
individual will be less responsive to presidential supervision than
one headed by a group.”).

App. 234
alone, not constitutionally problematic,263 nor did the
CFPB lose under a freestanding “liberty” inquiry.264
Ultimately, “[n]o relevant consideration g[ave] [the
court] reason to doubt the constitutionality of the
independent CFPB’s single-member structure.
Congress made constitutionally permissible
institutional design choices for the CFPB with which
courts should hesitate to interfere.”265
We are mindful of our sister court’s analysis
regarding the FHFA’s constitutionality. But salient
distinctions between the agencies compel a contrary
conclusion.
First, the agencies are structured differently. The
Executive Branch can directly control the CFPB’s
actions through the FSOC—a feature the PHH
majority found highly relevant.266 The FHFA, on the
other hand, has no formal oversight beyond the purely
advisory Federal Housing Finance Oversight Board.
Second, the Shareholders here challenge not only
the removal-power limitation or the FHFA’s singlehead structure. Instead, they challenge the FHFA’s
unconstitutional insulation from Executive Branch
263

See id. at 102–05.

264

See id. at 105–06.

265

Id. at 110. The D.C. Circuit seemed disturbed that PHH’s
position “call[ed] into question the structure of a host of
independent agencies that make up the fabric of the
administrative state.” Id. at 93.
266

Id. at 98.

App. 235
oversight—the cumulative effect of Congress’s agencydesign decisions. Indeed, as the D.C. Circuit
recognized, “for two unproblematic structural features
to become problematic in combination, they would have
to affect the same constitutional concern and amplify
each other in a constitutionally relevant way.”267 That
is precisely the case here: The structural insulation of
the FHFA Director—who may be appointed by a former
President, who cannot be replaced at-will, and who is
insulated from Executive Branch oversight—interferes
with the President’s ability to fulfill his duties under
the Constitution.
***
Article I cannot cannibalize Article II. Congress has
broad discretion to establish independent agencies, but
Congress cannot go so far as to impair the President’s
ability to fulfill his Article II obligations. The
independent agencies Congress may establish may not
be excessively insulated from Executive Branch
oversight—even if insulation is normatively
desirable.268 Article II is an outer limit on what is
“necessary and proper.”
267

Id. at 96; see id. at 85 (recognizing that the Supreme Court has
invalidated statutory provisions that “make it abnormally difficult
for the President to oversee an executive officer”); id. at 79
(framing its task as follows: “The ultimate purpose of our
constitutional inquiry is to determine whether the means of
independence, as deployed at the agency in question, impedes the
President’s ability under Article II of the Constitution to take Care
that the Laws be faithfully executed” (cleaned up and emphasis
added)).
268

See Free Enter. Fund, 561 U.S. at 499.

App. 236
In order to achieve a “workable government,”269 the
FHFA asks to us trust that Congress can adequately
monitor the FHFA, altering the agency’s budget or
authority if necessary. But this highlights the
separation-of-powers concern: The FHFA performs
executive functions, but the agency’s operations are
subject primarily (if not exclusively) to Congress’s will,
divorced from Executive control. The Executive Branch
should not—and, constitutionally, cannot—delegate to
Congress the responsibility to ensure the faithful
execution of the nation’s laws.270 And, even if Congress
could fix the FHFA’s unconstitutionality in the future,
we must fulfill our own constitutional obligation here
and now.271

269

See Youngstown Sheet & Tube Co. v. Sawyer, 343 U.S. 579, 635
(1952) (Jackson, J., concurring) (“While the Constitution diffuses
power the better to secure liberty, it also contemplates that
practice will integrate the dispersed powers into a workable
government.”).
270

See Clinton, 524 U.S. at 451–52 (Kennedy, J., concurring)
(“Abdication of responsibility is not part of the constitutional
design.”); see also Free Enter. Fund, 561 U.S. at 497 (“The
President can always choose to restrain himself in his dealings
with subordinates. He cannot, however, . . . escape responsibility
for his choices by pretending that they are not his own.”).
271

See Free Enter. Fund, 561 U.S. at 510 (recognizing that while
“Congress of course remains free to” re-structure an agency, the
Court cannot shirk its responsibility to remedy constitutional
violations in cases before it); PHH Corp., 881 F.3d at 158
(Henderson, J., dissenting) (“At all events, an otherwise invalid
agency is no less invalid merely because the Congress can fix it at
some undetermined point in the future.”).

App. 237
We conclude that the FHFA’s structure violates
Article II. Congress encased the FHFA in so many
layers of insulation—by limiting the President’s power
to remove and replace the FHFA’s leadership,
exempting the Agency’s funding from the normal
appropriations process, and establishing no formal
mechanism for the Executive Branch to control the
Agency’s activities—that the end “result is a[n]
[Agency] that is not accountable to the President.”272
The President has been “stripped of the power [the
Supreme Court’s] precedents have preserved, and his
ability to execute the laws—by holding his
subordinates accountable for their conduct—[has been]
impaired.”273 In sum, while Congress may create an
independent agency as a necessary and proper means
to implement its enumerated powers, Congress may
not insulate that agency from meaningful Executive
Branch oversight.274
272

Free Enter. Fund, 561 U.S. at 496.

273

Id.

274

We do not question Congress’s authority to establish
independent agencies, nor do we decide the validity of any agency
other than the FHFA. Governing through independent agencies
may be normatively desirable. It may not be. That is neither here
nor there: Our sole task is to decide whether the FHFA is
constitutionally structured. See Marbury v. Madison, 5 U.S. (1
Cranch) 137, 177 (1803) (“It is emphatically the province and duty
of the judicial department to say what the law is.”). We found, after
an in-depth examination, that the FHFA is excessively insulated
from Executive Branch influence and is, therefore, structured in
violation of the Constitution. We leave for another day the question
of whether other agencies suffer from similar constitutional
infirmities.

App. 238
3. Relief Available for Separation-of-Powers
Violations
Having concluded that the FHFA structure violates
Article II, we must now determine what to do about it.
When fashioning relief for constitutional violations,
courts “try to limit the solution to the problem, severing
any problematic portions while leaving the remainder
intact.”275 When a removal limitation crosses
constitutional lines, courts routinely declare the
limitation inoperative, prospectively correcting the
error.276 Severability is appropriate so long as the
remaining statute remains “fully operative as a law
with the tenure restrictions excised”277 and nothing in
the text or historical context of the statute makes it
“evident” that Congress would have preferred no law at
all to excising the restriction.278 Indeed, there is a
presumption that “the objectionable provision can be

And, of course, our opinion does not abrogate the Morrison
Court’s holding regarding the constitutionality of an independent
agency tasked with investigating high-ranking Executive Branch
officials.
275

Free Enter. Fund, 561 U.S. at 508–09 (quotation marks and
citation omitted).
276

See id. at 508; PHH Corp., 881 F.3d at 160–61 (Kavanaugh, J.,
dissenting); John Doe Co. v. Consumer Fin. Prot. Bureau, 849 F.3d
1129, 1133 (D.C. Cir. 2017).
277

Free Enter. Fund, 561 U.S. at 509.

278

Id.

App. 239
excised.”279 In doing so, courts routinely “accord[]
validity to past acts of unconstitutionally structured
governmental agencies.”280
We conclude that severing the removal restriction
from HERA is the proper remedy in the instant case.
As a result, we leave the remainder of HERA
undisturbed. The removal restriction itself has little
effect on the remainder of HERA. In fact, HERA
remains operative as a law without the restriction; its
remaining provisions are capable of functioning
independently from the removal restriction.281 Given
the exigent context in which the law was passed, it is
unlikely that the entirety of HERA depended on a
removal restriction. And though HERA contains no
severability clause,282 “there is nothing in the statute’s
text or historical context that makes it ‘evident’ that
Congress, faced with the limitations imposed by the
Constitution, would have preferred no [FHFA] at all” to
one with a Director “removable at will” by the
President.283

279

Alaska Airlines, Inc. v. Brock, 480 U.S. 678, 686 (1987).

280

John Doe Co., 849 F.3d at 1133 (citing Buckley, 424 U.S. at 142;
Citizens for Abatement of Aircraft Noise, Inc. v. Metropolitan Wash.
Airports Auth., 917 F.2d 48, 57 (D.C. Cir. 1990), aff’d, 501 U.S. 252
(1991)); see also Free Enter. Fund, 51 U.S. at 508–09.
281

Free Enter. Fund, 561 U.S. at 509.

282

See Alaska Airlines, 480 U.S. at 686.

283

Free Enter. Fund, 561 U.S. at 509.

App. 240
The appropriate remedy for the constitutional
infirmity is to strike the language providing for goodcause removal from 12 U.S.C. § 4512(b)(2), restoring
Executive Branch oversight to the FHFA. It is true
here, as it was in Free Enterprise Fund, that the
removal restriction is just one of several provisions that
cumulatively offend the separation of powers. To be
sure, we could “blue-pencil” other edits to HERA, but,
as the Supreme Court advises, “such editorial freedom
. . . belongs to the Legislature, not the Judiciary.”284 We
leave intact the remainder of HERA and the FHFA’s
past actions—including the Third Amendment. In
striking the offending provision from HERA, the FHFA
survives as a properly supervised executive agency.
III. CONCLUSION
We AFFIRM the district court’s order granting the
Agencies’ motions to dismiss the Shareholders’ APA
claims because such claims are barred by 12 U.S.C.
§ 4617(f).
We REVERSE the district court’s order granting the
Agencies’ motion for summary judgment regarding the
Sha reholders’ claim that the FHF A is
unconstitutionally structured in violation of Article II
and the Constitution’s separation of powers, and we
REMAND to the district court with instructions to
enter judgment declaring the “for cause” limitation on
removal of the FHFA’s Director found in 12 U.S.C.
§ 4512(b)(2) violates the Constitution’s separation-ofpowers principles.

284

Id. at 509–10.

App. 241
CARL E. STEWART, Chief Judge, dissenting in part:
The constitutional issue presented by the
Shareholders—whether the FHFA’s structure
impermissibly inhibits the President’s ability to oversee
and remove the Director consistent with his Article II
obligation to “take care that the laws are faithfully
executed”—does not lend itself to a clear-cut answer.
As the panel majority’s opinion states, Congress may
mix and match a number of “features of independence”
when crafting an independent agency’s internal
structure, subject of course to constitutional limitations
set both within the Constitution’s text and by Supreme
Court precedent. These features include: placing formal
constraints on the President’s removal power through
the use of “for-cause” removal restrictions, establishing
a multimember leadership structure, subjecting agency
heads to fixed terms of service, mandating that an
agency be composed of a bipartisan leadership team,
exempting the agency from the standard
appropriations process, and granting the agency
unilateral litigation authority. See P.C. Opn. at pg. 28;
see also Free Enter. Fund v. Pub. Co. Accounting
Oversight Bd, 561 U.S. 477, 588 app. D (2010) (Breyer,
J., dissenting). And Congress has used these features
in several different combinations. Importantly, neither
the presence nor absence of any given feature is
dispositive of the agency’s viability under Articles I and
II and separation-of-powers principles.
The Supreme Court’s Article II removal precedent,
although sparse, has only rejected Congress’s attempts
to fashion independent agencies on two occasions. The
first was in Myers v. United States, 272 U.S. 52, 60

App. 242
(1926), in which Congress attempted to simultaneously
limit the President’s removal power and increase its
own authority over the agency by conditioning the
President’s removal power on the Senate’s advice and
consent. This form of appropriation and
aggrandizement was deemed violative of the
Constitution’s separation of powers. The second was in
Free Enterprise Fund, which presented an “extreme
variation on the traditional good-cause removal
standard” by doubly insulating members of Public
Company Accounting Oversight Board with two layers
of for-cause removal protection. PHH Corp. v.
Consumer Fin. Prot. Bureau, 881 F.3d 75, 89 (D.C. Cir.
2018) (en banc). These cases and others within the
Supreme Court’s body of Presidential removal-power
precedent establish, as the panel majority explains,
that Congress’s use and construction of independent
agencies is subject to constitutional limitations, the
outer boundary of which is the President’s domestic
executive authority under Article II.
Notwithstanding my agreement with this
fundamental principle of law, I conclude that the
FHFA’s structure does not reach that boundary and
therefore does not impinge on the President’s oversight
and removal authority. My reasoning substantially
mirrors that of the D.C. Circuit’s en banc majority
opinion in PHH Corporation, which concluded that the
CFPB’s similar structure does not exceed constitutional
constraints on the agency’s makeup. Thus, and for
reasons expressed by the en banc majority in PHH
Corporation, I respectfully dissent from the panel
majority opinion’s conclusion that the FHFA’s

App. 243
structure unconstitutionally restricts the President’s
removal power under Article II.
I elaborate to briefly address and distinguish a
feature of the CFPB’s structure that is absent from the
FHFA. As the majority opinion notes, when Congress
created the CFPB, it also created the Financial
Stability Oversight Council (“FSOC”), 12 U.S.C. § 5321,
which is composed of several members of the Executive
Branch and independent agency heads chosen by the
President who have substantial stay and veto authority
over any rule promulgated by the Director that the
FSOC believes might “put the safety and soundness of
the United States banking system or the stability of the
financial system of the United States at risk.” 12
U.S.C. § 5513. No such “mandatory oversight”
committee, with stay and veto power, exists under
HERA’s provisions creating the FHFA. Rather, HERA
created the Federal Housing Finance Oversight Board
(“FHFOB”), 12 U.S.C. § 4513a(a). Two Executive
Branch officials—the Treasury Secretary and the
Secretary of Housing and Urban Development—are
members of the FHFOB, see id. § 4513(c). However,
unlike the FSOC, the Board may not “exercise any
executive authority” and may not be delegated “any
functions, powers, or duties of the Director.” Id.
§ 4513a(b). The FHFOB’s involvement in the FHFA
Director’s execution of his statutory mandate is limited
to “advis[ing] the Director with respect to overall
strategies and policies in carrying out” his duties. Id.
§ 4513a(a). The panel majority opinion highlights the
advisory status of the FHFOB as further removing the
FHFA from Presidential oversight.

App. 244
The mandatory-versus-advisory oversight
distinction, although important, does not meaningfully
alter the constitutional analysis in this case. Notably,
the FHFA is not the only single-leader independent
agency subject to the “mere advice” of an advisory
board. The Social Security Act created the Social
Security Advisory Board (“SSAB”) which is statutorily
required to “advise” the Social Security Commissioner
“on policies related to” the availability of benefits to
Social Security beneficiaries. 42 U.S.C. § 903(b). The
SSAB’s functions are largely limited to “making
recommendations” with respect to several aspects of
the Administration’s duties, see id. § 903(b), and the
SSAB is not statutorily authorized to exercise veto
power over the Commissioner’s decisions.
Further, even without mandatory oversight
authority, the FHFOB wields some sway over the
FHFA Director’s exercise of his statutory power. The
Director is required to meet with the FHFOB at least
once every three months and must at the very least
subject himself to their advice. See 12 U.S.C.
§ 4513a(a), (d)(1). And once every year, the FHFOB
must testify before Congress regarding, inter alia, the
“operations, resources, and performance of the [FHFA]”
and “such other matters relating to the [FHFA] and its
fulfillment of its mission,” id. § 4513a(e)(5), (6). At
these Congressional hearings, the FHFOB may either
testify in support of the Director’s leadership or testify
that the Director has derogated from his duties under
HERA, thereby providing grounds for the President to
exercise his “prerogative to consider whether any
excesses amount to cause for removal.” PHH Corp., 881
F.3d at 106. Although giving the FHFOB a more active

App. 245
role in the promulgation of policy decisions would more
explicitly submit the Director to Executive Branch
control, when it comes to independent agencies, control
in the sense encouraged by the panel majority opinion
is not required by the Constitution. An advisory board
both preserves permissible agency independence and
exposes the FHFA Director to policy perspectives held
by Executive Branch officials immediately answerable
to the President and, thereby, the President, thus
achieving the oversight and accountability necessary to
satisfy Article II.
Neither the for-cause removal restriction nor the
single-leader feature of the FHFA’s structure place the
agency outside the Presidents purview in violation of
the Constitution or the Supreme Court’s removal
jurisprudence. Nor does the absence of a mandatory
oversight board in this case unduly inhibit the
President’s ability to remove the Director or oversee
the goings-on of the FHFA. For the foregoing reasons,
I respectfully dissent.

App. 246
WILLETT, Circuit Judge, dissenting in part:
Desperate times breed desperate measures. Exhibit
A is the Housing and Economic Recovery Act of 2008
(“HERA”), enacted after the United States housing
bubble burst and triggered a massive mortgagesecurity and general-credit crisis. Nobody disputes that
Congress created the Federal Housing Finance
Authority (“FHFA”) amid a dire financial calamity. The
situation, both domestic and international, was grim
and worsening quickly:
• housing market—melting down
• national economy—circling the drain
• global financial system—teetering on collapse
The FHFA was cast as a silver bullet, a superagency endowed with far-reaching regulatory authority
to stanch the bleeding and to restore liquidity to the
U.S. housing and financial markets.
But contrary to how other federal courts have so far
ruled on this issue (including this court’s opinion
today), Congress did not vest the FHFA with
unbounded, unreviewable power. The FHFA—like any
agency—is restrained by the four corners of its
enabling statute: “An agency literally has no power to
act . . . unless and until Congress confers power upon
it.”1 Every agency requires a defined statutory basis for
its actions. Absent a valid delegation of authority, an
agency’s actions are dubious at best, and contrary to
bedrock constitutional principles at worst. Exigency
1

New York v. FERC, 535 U.S. 1, 18 (2002).

App. 247
does not justify conferring nigh-unchecked power on an
agency insulated from judicial review. Expedience does
not license omnipotence.
This case concerns whether the net worth sweep
falls within the scope of the FHFA’s statutory authority
as conservator. To answer the question before us, we
need only look to HERA’s plain text. And it is our duty
to ensure that the FHFA operates squarely within the
bounds of its statutory authority.
Regrettably, the majority opinion does otherwise.
The upshot is a lucrative limbo: Mortgage-finance
giants Fannie Mae and Freddie Mac are forever
trapped in a zombie-like trance as wards of the state,
bled of their profits quarter after quarter in perpetuity.
In rejecting the Shareholders’ statutory claims, the
majority opinion embraces the views of our sister
circuits, adopting “the same well-reasoned basis
common to those courts’ opinions.”2 But what the
majority opinion finds convincing, I find confounding.
With respect I dissent.
I
In essence, the judicial consensus is that HERA’s
anti-injunction provision bars the Shareholders claims
because (1) the text of HERA does not require the
FHFA as conservator to “preserve and conserve” the
assets of these colossal government-sponsored

2

Maj. Op. at 15.

App. 248
enterprises (“GSEs”);3 and (2) regardless, the net worth
sweep is consistent with the FHFA’s statutory
authority.4
Respectfully, this reading, while popular, flouts
HERA’s plain text, which should be the North Star of
our analysis. HERA tells us two important things.
First, the anti-injunction provision bars only claims
that would “restrain or affect” the FHFA’s statutory
powers as conservator (not the case here).5 Second, the
FHFA does not have unfettered discretion to dispose of
the GSEs’ assets and property at will so long as it dons
the conservator cowl.
By enacting the net worth sweep in the Third
Amendment, the FHFA exceeded the scope of its

3

Roberts v. Fed. Hous. Fin. Agency, 889 F.3d 397, 403–04 (7th Cir.
2018); Robinson v. Fed. Hous. Fin. Agency, 876 F.3d 220, 232 (6th
Cir. 2017); Perry Capital L.L.C. v. Mnuchin, 864 F.3d 591, 607–09
(D.C. Cir. 2017).
4

Roberts, 889 F.3d at 404 (characterizing the Shareholders’ claims
as “whether the Agency made a poor business judgment”);
Robinson, 876 F.3d at 231; Perry Capital, 864 F.3d at 607 (“FHFA’s
execution of the Third Amendment falls squarely within its
statutory authority to operate the Companies, to reorganize their
affairs, and to take such action as may be appropriate to carry on
their business.” (cleaned up)).
5

All courts agree: HERA’s anti-injunction provision does not apply
when a plaintiff “properly alleges that ‘FHFA acted beyond the
scope of its conservator power.’” Robinson, 876 F.3d at 228 (quoting
Cty. of Sonoma v. Fed. Hous. Fin. Agency, 710 F.3d 987, 992 (9th
Cir. 2013)); see also Roberts, 889 F.3d at 402; Perry Capital, 864
F.3d 591, 605; accord id. at 638, 641 (Brown, J., dissenting in part).
The Shareholders have made this showing.

App. 249
statutory authority as conservator. HERA makes clear
that the FHFA may operate either as conservator or
receiver at any given time. The statute then provides a
list of role-specific duties. As conservator, the FHFA
must “preserve and conserve the assets and property”
of the GSEs.6 This statutory command is mandatory,
not discretionary. Stripping the GSEs of their cash
reserves by depriving them of their net worth—in
perpetuity—is antithetical to this “preserve and
conserve” requirement. This permanent pillaging of
capital violates the FHFA’s obligation as conservator to
“put the [GSEs] in a sound and solvent condition.”7 The
sweep siphons the GSEs’ net worth quarter after
quarter—all but guaranteeing that they will draw on
Treasury’s funding commitment, increasing its
liquidation preference. This action is fundamentally
incompatible with the FHFA’s statutory mandate as
conservator. Indeed, Congress specifically permits the
FHFA to perform this action as receiver, yet the FHFA
seeks to evade the carefully crafted statutory scheme
by proposing an impermissibly broad, and
unnecessarily encroaching, view of its powers as
conservator. This overstep cannot sidestep judicial
review.
According to the majority opinion, however, there is
essentially no limit to the FHFA’s conservatorship
authority, and courts are powerless to intervene so long
as the FHFA operates under the guise of “conservator.”
The majority opinion’s conception of conservatorship is

6

12 U.S.C. § 4617(b)(2)(D)(ii).

7

Id. § 4617(b)(2)(D)(i).

App. 250
foreign to this (or any) court. Adopting this exotic
approach betrays the letter and the spirit of limitations
provided by HERA, and ultimately allows the FHFA to
raze our established principles governing
administrative entities.
I cannot endorse such a willy-nilly delegation of
authority to an administrative entity impervious to
meaningful judicial review. The FHFA’s professed
power is something special—so spacious it’s specious.
In terms of unfettered clout, the FHFA has no rival
across the federal agency landscape. But unfettered
must never be unfretted. Agencies must always operate
within the carefully crafted statutory schemes that
govern their existence. And while the FHFA’s averred
authority as conservator is audacious, it is not
limitless.
I cannot join the majority opinion’s conclusion that
the Shareholder’s statutory claims are barred by
HERA’s anti-injunction provision.
II
Agencies require statutory authorization for their
actions. The full extent of FHFA’s authority as
conservator is thus found within HERA’s text.8 As we
recently made clear, “the text is the alpha and the

8

See City of Arlington, Tex. v. FCC, 569 U.S. 290, 317 (2013)
(Roberts, C.J., dissenting) (quoting La. Pub. Serv. Comm’n v. FCC,
476 U.S. 355, 374 (1986)).

App. 251
omega of the interpretive process.”9 So I begin with the
language Congress actually used.
Congress created the FHFA to supervise and
regulate the GSEs and Federal Home Loan banks.10
HERA granted the FHFA’s director discretionary
authority to place the GSEs in conservatorship. The
statute authorizes the FHFA to “be appointed
conservator or receiver for the purpose of reorganizing,
rehabilitating, or winding up the affairs of a regulated
entity.”11 When serving as conservator or receiver, the
FHFA enjoys an array of general powers enumerated
in § 4617(b)(2). Once appointed as either conservator or
receiver, the FHFA succeeds to the “rights, titles,
powers, and privileges of the [GSE], and of any
stockholder, officer, or director . . . with respect to the
[GSE] and the assets of the [GSE].”12 And the FHFA
may assume the assets, business operations, and
functions of the GSE, collect money due to the GSE,
and “preserve and conserve the assets and property” of
the GSE.13 Finally, HERA permits the FHFA to

9

United States v. Maturino, 887 F.3d 716, 723 (5th Cir. 2018); see
also New York, 535 U.S. at 18 (“[W]e must interpret the statute to
determine whether Congress has given [the agency] the power to
act as it has.”).
10

12 U.S.C. § 4511.

11

Id. § 4617(a)(2) (emphasis added).

12

Id. § 4617(b)(2)(A).

13

Id. § 4617(b)(2)(B).

App. 252
exercise any function of any stockholder, director or
officer of the GSE.14
These general powers, however, must be read in
concert with the more specific powers enumerated for
conservators and receivers, respectively. Acts of
Congress should be read cohesively, contextually, and
comprehensively, not “as a series of unrelated and
isolated provisions.”15 Under our precedent, “it is a
‘cardinal rule that a statute is to be read as a whole,’ in
order not to render portions of [a statute] inconsistent
or devoid of meaning.”16 The majority opinion’s focus on
general powers ignores HERA’s specific provisions
governing how the FHFA is to behave.
Reading the statute holistically, it is clear that
HERA outlines two distinct roles—conservator and
receiver—that come with distinct powers. And when
the FHFA acts as conservator, HERA imposes
mandatory duties on the FHFA to “preserve and
conserve” the GSEs’ assets and property.
A
Crucial to the issue before us today is that HERA
distinguishes between the role of conservator and the
role of receiver. The FHFA Director may designate the
agency as either conservator or receiver, but once the
14

Id. § 4617(b)(2)(C).

15

In re Burnett, 635 F.3d 169, 172 (5th Cir. 2011) (quoting Soliman
v. Gonzales, 419 F.3d 276, 282 (4th Cir. 2005)).
16

Id. (quoting Zayler v. Dep’t of Agric. (In re Supreme Beef
Processors, Inc.), 468 F.3d 248, 253 (5th Cir. 2006)).

App. 253
FHFA is appointed as one or the other, its powers
depend on the role. And HERA prescribes and
proscribes those powers.
HERA explicitly provides that the FHFA may “be
appointed as conservator or receiver for the purpose of
reorganizing, rehabilitating, or winding up the affairs
of a regulated entity.”17 The statute uses the disjunctive
“or,” denoting that the FHFA may not act as both
conservator and receiver simultaneously.18 Indeed, the
text further makes clear that these roles are mutually
exclusive—appointing the FHFA as receiver
“immediately terminate[s] any conservatorship
established for the GSE.”19 The roles are distinctive,
not cumulative.
So are the powers attaching to each role. Section
4617(b)(2)(D) specifies the FHFA’s powers as
conservator. The FHFA may take any action “necessary
to put the [GSE] in a sound and solvent condition” and
“appropriate to carry on the business of the [GSE] and
preserve and conserve the [GSE’s] assets and
property.”20 By contrast, § 4617(b)(2)(E), (F)
enumerates powers reserved to the FHFA as

17

12 U.S.C. § 4617(a)(2).

18

In ordinary use, the term “or” “is almost always disjunctive, that
is, the words it connects are to be given separate meanings.”
Loughrin v. United States, 134 S. Ct. 2384, 2390 (2014) (quoting
United States v. Woods, 134 S. Ct. 557, 567 (2013)).
19

12 U.S.C. § 4617(a)(4)(D).

20

Id. § 4617(b)(2)(D).

App. 254
receiver—which include liquidating the GSE and
organizing a “successor enterprise” to operate the
GSE.21 Elsewhere, HERA emphasizes the contrasting
nature of these powers. In operating the GSEs, the
statute permits the FHFA to “perform all functions of
the [GSE] in the name of the [GSE] which are
consistent with the appointment as conservator or
receiver.”22 This language echoes later in the statute.
Under the incidental powers provision, the FHFA is
empowered only to “exercise all powers and authorities
specifically granted to conservators or receivers,
respectively, under this section . . . .”23 This use of
“respectively” further severs the role of “conservator”
from that of “receiver.” HERA thus outlines a distinct
vision for the FHFA’s role as conservator and its role as
receiver.
This distinction is not a mere procedural formality.
When the FHFA acts as receiver, HERA imposes
specific statutory requirements to protect the various
rights and interests of creditors and investors.24 These
procedures exist to ensure that receivers “fairly
adjudicate claims against failed institutions.”25
Liquidation is exclusively reserved for the FHFA when

21

See id. § 4617(b)(2)(E), (F).

22

Id. § 4617(b)(2)(B)(iii) (emphasis added).

23

Id. (emphasis added).

24

See id. § 4617(b)(3)–(9), (c).

25

Whatley v. Resolution Tr. Corp., 32 F.3d 905, 909–10 (5th Cir.
1994).

App. 255
it acts as receiver.26 In fact, liquidation is mandatory,
leaving no hope to “rehabilitate” a GSE in
receivership.27 On the other hand, when the FHFA acts
as conservator, it may take any action “necessary to
put the [GSE] in a sound and solvent condition” and
“appropriate to carry on the business of the [GSE] and
preserve and conserve the [GSE’s] assets and
property.”28 These explicit grants of power to the FHFA
when it acts as conservator or receiver define the
nature of authority in each role. In this light, the
FHFA-as-conservator does not have authority to
“wind[] up” the GSEs. That is inherently, textually, and
exclusively the function of a receiver.
This plain-language interpretation of the FHFA’s
conservatorship powers follows our interpretation of
near-identical language in the Financial Institutions
Reform, Recovery, and Enforcement Act of 1989
(“FIRREA”). Congress essentially cut-and-pasted the
FHFA’s powers and functions as conservator, including
the anti-injunction provision, from FIRREA.29 And it is
a treasured canon of statutory interpretation that
when “Congress adopts a new law incorporating
sections of a prior law, Congress normally can be

26

See 12 U.S.C. § 4617(b)(2)(E), (F), (b)(3); 12 C.F.R. § 1237.3(b).

27

See 12 U.S.C. § 4617(b)(2)(E) (“In any case in which the [FHFA]
is acting as receiver, the [FHFA] shall place the [GSE] in
liquidation.” (emphasis added)).
28

29

Id. § 4617(b)(2)(D).

Compare id. § 1821(d)(2)(D) (FIRREA) with id. § 4617(b)(2)(D)
(HERA).

App. 256
presumed to have had knowledge of the interpretation
given to the incorporated law.”30 Thus, our
interpretation of FIRREA must inform our
interpretation of HERA.
FIRREA empowers the Federal Deposit Insurance
Corporation (“FDIC”) to act as conservator or receiver.31
FIRREA also breaks down the powers and functions of
the FDIC when it acts as conservator or receiver. Once
appointed, the FDIC “succeed[s] to . . . all rights, titles,
powers, and privileges of the insured depository
institution, and of any stockholder, member,
accountholder, depositor, officer, or director . . . with
respect to the institution and the assets of the
institution.”32 FIRREA also permits the FDIC to fully
assume the assets, business operations, and functions
of the institution, to collect money due to the
institution, and to “preserve and conserve the assets
and property” of the institution.33 Finally, the FDIC
may also exercise any function by any stockholder,
director or officer of the institution.34
This should sound familiar. Much of FIRREA’s text
and structure mirrors that of HERA. As under HERA,
30

Lorillard v. Pons, 434 U.S. 575, 580–81 (1978); see also Merrill
Lynch, Pierce, Fenner & Smith Inc. v. Dabit, 547 U.S. 71, 85–86
(2006).
31

12 U.S.C. § 1821(c)(1).

32

Compare id. § 1821(d)(2)(A)(i) with id. § 4617(b)(2)(A)(i).

33

Compare id. § 1821(d)(2)(B) with id. § 4617(b)(2)(B).

34

Compare id. § 1821(d)(2)(C) with id. § 4617(b)(2)(C).

App. 257
the conservator and receiver roles under FIRREA share
common powers and functions, but they are plainly
distinct. Among its general powers in operating the
regulated entity, the FDIC may “perform all functions
of the institution in the name of the institution which
are consistent with the appointment as conservator or
receiver.”35 And, like HERA, FIRREA enumerates
specific, unique powers held by conservators36 and by
receivers.37 FIRREA authorizes conservators to take
“such action as may be . . . necessary to put the insured
depository institution in a sound and solvent condition;
and . . . appropriate to carry on the business of the
institution and preserve and conserve [its] assets.”38 In
particular, it notes the conservator’s “fiduciary duty to
minimize the institution’s losses,”39 whereas receivers
“place the insured depository institution in liquidation
and proceed to realize upon the assets of the
institution.”40 Though the conservator and receiver
roles in FIRREA overlap in some respects, the duties
reflect different interests and distinct powers.41 Under
35

Id. § 1821(d)(2)(B)(iii) (emphasis added).

36

Id. § 1821(d)(2)(D).

37

Id. § 1821(d)(2)(E)–(F).

38

Id. § 1821(d)(2)(D).

39

Id. § 1831f(d)(3).

40

Id. § 1821(d)(2)(E).

41

See McAllister v. Resolution Tr. Corp., 201 F.3d 570, 579 (5th
Cir. 2000); Resolution Tr. Corp. v. CedarMinn Bldg. Ltd. P’ship,
956 F.2d 1446, 1451–52, 1454 (8th Cir. 1992).

App. 258
FIRREA, the FDIC holds distinct roles when it acts as
conservator or receiver with clearly delineated
statutory bounds between the two roles.
We should read HERA consistently with our
previous interpretation of FIRREA. Congress “can be
presumed to have had knowledge of the interpretation
given to the incorporated law.”42 So under HERA’s
nearly identical language, the FHFA as conservator
exercises plainly distinct powers from the FHFA as
receiver.
Nevertheless, the FHFA seeks to make bright lines
blurry. First, it argues that “winding up is different
from liquidation,” so a conservator may take steps akin
to winding up so long as they fall short of liquidation.
Alternatively the FHFA argues that “HERA’s plain text
authorizes FHFA as ‘conservator or receiver’ to be
appointed ‘for the purpose of reorganizing,
rehabilitating, or winding up the affairs’” of the GSEs.
As a result, the FHFA can “wind up” the GSEs as
either conservator or receiver. This argument
convinced the D.C. Circuit, which rejected the idea that
there is “a rigid boundary” between the FHFA’s
conservator and receiver roles.43

42

See Yates v. United States, 135 S. Ct. 1074, 1093 (2015) (Kagan,
J., dissenting) (noting that only the most compelling evidence will
persuade the Court that Congress intended identical terms used
in similar contexts to bear different meanings); Morissette v.
United States, 342 U.S. 246, 263 (1952).
43

Perry Capital, 864 F.3d at 610.

App. 259
To be sure, both as a general matter and as a
textual matter, conservators and receivers share some
common functions under HERA. For example, the
FHFA, acting as either conservator or receiver, may
“transfer or sell any asset or liability” of the GSEs,
“without any approval, assignment, or consent.”44 In
fact, many powers granted to the FHFA are available
to it in either role.45
Winding up the GSEs is not one of those powers.
Reading HERA this way would be absurd: It would
render the carefully crafted, mandatory, receiverspecific, wind-up procedures irrelevant.46 There are no
corresponding procedures for winding up the GSEs
during conservatorship.47 This silence is unsurprising.
As conservator, the FHFA must “preserve and
conserve” the GSEs’ assets. In fact, the powers and
functions unique to the FHFA as receiver—winding up
and liquidating a GSE—are antithetical to the duties of
the FHFA as conservator—rehabilitating a GSE and

44

12 U.S.C. § 4617(b)(2)(G).

45

See, e.g., id. § 4617(b)(2)(G) (power to transfer or sell assets or
liability of GSE in default); id. § 4617(b)(2)(H) (power to pay
certain obligations of GSE); id. § 4617(b)(2)(I) (power to issue
subpoenas); id. § 4617(b)(2)(J) (incidental powers necessary for the
FHFA to execute its authority as conservator or receiver); id.
§ 4617(d)(1) (power to repudiate contracts or leases).
46

See id. § 4617(b)(3)–(9), (c) (describing how to resolve claims
against the GSEs during liquidation).
47

See id. § 4617(b)(2)(D).

App. 260
operating it as a going concern, preserving its assets.48
If the FHFA wished to wind up the GSEs, it must first
be designated as receiver.
This conclusion does not deny the FHFA discretion
to exercise its lawful powers as conservator; it simply
enforces it. The FHFA may not exercise powers
reserved for receivers when it is designated as a
conservator. HERA specifies discrete conduct that the
FHFA may exercise in pursuit of its goals in either role.
All this boils down to the fact that the FHFA cannot
hide behind the conservator label to insulate it from
meaningful judicial review. The FHFA placed the GSEs
into conservatorship. In making that designation, the
FHFA is limited to its authority as a conservator under
HERA.
B
Next, we must outline the contours of the FHFA’s
conservatorship authority. Understanding how HERA
defines the FHFA’s conservatorship role is essential to
determining whether the FHFA exceeded its statutory
authority.
HERA enumerates specific powers for the FHFA
when it acts as conservator. The FHFA “may . . . take
such action as may be . . . necessary to put the
regulated entity in a sound and solvent condition; and
. . . appropriate to carry on the business of the

48

Id. § 4617(a)(2), (b)(2)(D)–(E).

App. 261
regulated entity and preserve and conserve the assets
and property of the regulated entity.”49
These powers accord with the traditional
understanding of the role of conservators at common
law.50 A conservator is “the modern equivalent of the
common-law guardian” and a “managing conservator”
is “[a] person appointed by a court to manage the estate
or affairs of someone who is legally incapable of doing
so.”51 And conservators had specific fiduciary duties:
They were appointed to protect the legal interests of
those unable to protect themselves.52 According to the
Congressional Research Service, “[a] conservator is
appointed to operate the institution, conserve its

49

Id. § 4617(b)(2)(D).

50

“It is a settled principle of interpretation that, absent other
indication, ‘Congress intends to incorporate the well-settled
meaning of the common-law terms it uses.’” United States v.
Castleman, 134 S. Ct. 1405, 1410 (2014) (quoting Sekhar v. United
States, 133 S. Ct. 2720, 2724 (2013)). And “absence of contrary
direction may be taken as satisfaction with widely accepted
definitions.” Morissette, 342 U.S. at 263. Congress’s use of the word
“conservator” in HERA and FIRREA incorporates the tradition of
fiduciary conservatorships at common law. See, e.g., Perry Capital,
864 F.3d at 641 (Brown, J., dissenting in part) (construing FHFA
conservatorship authority in light of common-law principles);
Matter of Still, 963 F.2d 75, 77 (5th Cir. 1992) (construing FDIC
receivership authority in light of common-law understandings).
51

Conservator, BLACK’S LAW DICTIONARY (10th ed. 2014) (emphasis
in original).
52

See, e.g., Unif. Prob. Code § 5-418.

App. 262
resources, and restore it to viability.”53 Traditionally at
common law, conservators thus owed certain
obligations to their wards—power must be exercised for
their benefit.
This common-law understanding forms the
foundation on which Congress built FIRREA and later,
HERA, authorizing agencies to serve as conservators
for an entity by “preserv[ing] and conserv[ing]” its
assets and operating it in a “sound and solvent”
manner.54 As explained above, we have interpreted
FIRREA to “state[] explicitly that a conservator only
has the power to take actions necessary to restore a
financially troubled institution to solvency.”55 We are in
good company—the Fourth, Eighth, Ninth, Eleventh,
and D.C. Circuits have articulated similar views.56 And
53

DAVID H. CARPENTER & M. MAUREEN MURPHY, CONG. RES. SERV.,
FINANCIAL INSTITUTION INSOLVENCY: FEDERAL AUTHORITY OVER
FANNIE MAE, FREDDIE MAC, AND DEPOSITORY INSTITUTIONS 5
(2008), https://digital.library.unt.edu/ark:/67531/metadc
795484/m1/1/high_res_d/RL34657_2008Sep 10.pdf.
54

See 12 U.S.C. § 1821(d)(2)(D); id. § 4617(b)(2)(D).

55

McAllister, 201 F.3d at 579.

56

See, e.g., James Madison Ltd. By Hecht v. Ludwig, 82 F.3d 1085,
1090 (D.C. Cir. 1996) (“The principal difference between a
conservator and receiver is that a conservator may operate and
dispose of a bank as a going concern, while a receiver has the
power to liquidate and wind up the affairs of an institution.”);
Elmco Props., Inc. v. Second Nat’l Fed. Sav. Ass’n, 94 F.3d 914, 922
(4th Cir. 1996) (“[A] conservator’s function is to restore the bank’s
solvency and preserve its assets.”); Del E. Webb McQueen Dev.
Corp. v. Resolution Tr. Corp., 69 F.3d 355, 361 (9th Cir. 1995)
(“The [Resolution Trust Corporation (“RTC”)], as conservator,

App. 263
the FDIC’s own policy statements reflect its view that
the conservatorship role imposes a duty to achieve
“sufficient tangible capitalization” that reasonably
assures “the future viability of the institution.”57
Importantly, a conservator must “minimize the
institution’s losses” and ensure “the future viability of
the institution,” whereas a receiver liquidates and
realizes upon the assets of the institution.
Before this litigation, the FHFA itself agreed with
this understanding of its authority as conservator. The
FHFA acknowledged publicly that “[t]he purpose of
conservatorship is to preserve and conserve each
company’s assets and property and to put the
companies in a sound and solvent condition.”58 The

operates an institution with the hope that it might someday be
rehabilitated. The RTC, as receiver, liquidates an institution and
distributes its proceeds to creditors according to the priority rules
set out in the regulations.”); Resolution Tr. Corp. v. United Tr.
Fund, Inc., 57 F.3d 1025, 1033 (11th Cir. 1995) (“The conservator’s
mission is to conserve assets which often involves continuing an
ongoing business. The receiver’s mission is to shut a business down
and sell off its assets.”); CedarMinn, 956 F.2d at 1453 (noting that
a conservator’s “mission[]” is “to take action necessary to restore
the failed [financial institution] to a solvent position and to carry
on the business of the institution and preserve and conserve the
assets and property of the institution” (quoting 12 U.S.C.
§ 1821(d)(2)(D)).
57

Statement of Policy on Assistance to Operating Insured
Depository Institutions, 57 Fed. Reg. 60203, 60205 (Dec. 18, 1992).
58

Fed. Hous. Fin. Agency, Report to Congress: 2009, at i (May 25,
2010), https://www.fhfa.gov/AboutUs/Reports/ReportDocuments/
2009_AnnualReportToCongress_508.pdf (acknowledging “[t]he
purpose of conservatorship is to preserve and conserve each

App. 264
FHFA has repeatedly emphasized that HERA
“required” it to restore the GSEs to soundness and to
“preserve and conserve” the GSEs’ assets.59 And its own
regulations highlight that “the essential function of a
conservator is to preserve and conserve the institution’s
assets,” and “[a] conservator’s goal is to continue the
operations of a regulated entity, rehabilitate it[,] and
return it to a safe, sound[,] and solvent condition.”60
Neither winding up nor liquidating an entity, whether
synonymous or not, are consistent with this mission.
Now, however, the FHFA no longer thinks a
conservator must conserve. The FHFA argues that
HERA’s conservatorship powers “bear no resemblance
to the type of conservatorship measures that a private
common-law conservator would be able to undertake,”
and Congress empowered the FHFA to act in its own

company’s assets and property and to put the companies in a
sound and solvent condition”).
59

See Fannie Mae and Freddie Mac Loan Purchase Limits:
Request for Public Input on Implementation Issues, 78 Fed. Reg.
77450, 77451 (Dec. 23, 2013) (describing the authority to “preserve
and conserve” the GSEs’ assets as “FHFA’s conservator obligation”
(emphasis added)); 2012-2014 Enterprise Housing Goals, 77 Fed.
Reg. 67535, 67549 (Nov. 13, 2012) (“FHFA’s duties as conservator
require the conservation and preservation of the [GSEs’] assets.”
(emphasis added)); Conservatorship and Receivership, 76 Fed. Reg.
35724, 35726 (June 20, 2011) (describing FHFA’s authority under
§ 4617(b)(2)(D) as its “statutory mission to restore soundness and
solvency to insolvent regulated entities and to preserve and
conserve their assets and property” (emphasis added)).
60

Conservatorship and Receivership, 76 Fed. Reg. 35724, 257327,
35730 (June 20, 2011).

App. 265
best interests under the “incidental powers” provision.
In essence, the FHFA contends that the incidental
powers provision represents a clear, contrary intention
by Congress to displace the common-law interpretation
of “conservator.”
Other circuits have found this argument persuasive.
They believe Congress explicitly delegated authority
that exceeds the customary meaning of conservator, so
the FHFA complied with its general statutory mandate
in adopting the net worth sweep.61 First, they conclude
that the FHFA is not a traditional conservator because
“Congress granted FHFA a broad array of discretionary
authority”—by framing HERA in terms of permissive
authority, Congress intended the FHFA to exercise its
discretion and it is not required to pursue binding
duties under § 4617(b)(2)(D) when it acts as
conservator.62 Second, they find that the FHFA is not
a traditional conservator because express powers

61

See, e.g., Robinson, 876 F.3d at 229–30 (finding that the statute
is framed in terms of discretionary authority and that express
powers conflict with traditional notions of conservatorships); Perry
Capital, 864 F.3d at 613 (“Congress made clear in the Recovery Act
that the FHFA is not your grandparents’ conservator.”).
62

Robinson, 876 F.3d at 229–30; see also Roberts, 889 F.3d at 403
(“[S]ection 4617(b)(2)(D) does not require the Agency to do
anything. It uses the permissive ‘may,’ rather than the mandatory
‘shall’ or ‘must,’ to introduce the Agency’s power as conservator to
‘preserve and conserve’ Freddie’s and Fannie’s assets and to
restore their solvency.”); Perry Capital, 864 F.3d at 607 (“The
statute is thus framed in terms of expansive grants of permissive,
discretionary authority for FHFA to exercise as the ‘Agency
determines is in the best interests of the regulated entity or the
Agency.’” (quoting 12 U.S.C. § 4617(b)(2)(J))).

App. 266
granted by HERA’s incidental powers permit the FHFA
to take its own interests into account when performing
its duties as conservator, conflicting with the
customary meaning of conservatorships.63
There is a textual hook in finding that Congress
granted the FHFA discretionary authority. HERA
provides that the FHFA “may . . . take such action as
may be . . . necessary to put the regulated entity in a
sound and solvent condition; and . . . appropriate to
carry on the business of the regulated entity and
preserve and conserve the assets and property of the
regulated entity.”64 Typically, “may” implies
discretion.65 I do not doubt that “may means may” or
that “‘may is, of course, ‘permissive rather than
obligatory.’”66 But courts seeking a forthright
interpretation should not myopically focus on “may” at
the expense of reading HERA as a cohesive, contextual
whole. In divining statutory meaning, courts must
never divorce text from context.67

63

Robinson, 876 F.3d at 230; Perry Capital, 864 F.3d at 613.

64

12 U.S.C. § 4617(b)(2)(D) (emphasis added).

65

See Kingdomware Techs., Inc. v. United States, 136 S. Ct. 1969,
1977 (2016).
66

Perry Capital, 864 F.3d at 607 (quoting U.S. Sugar Corp. v. EPA,
830 F.3d 579, 608 (D.C. Cir. 2016); Baptist Mem’l Hosp. v. Sebelius,
603 F.3d 57, 63 (D.C. Cir. 2010)).
67

See, e.g., Torres v. Lynch, 136 S. Ct. 1619, 1626 (2016)
(explaining that courts must “interpret the relevant words [of a
statute] not in a vacuum, but with reference to the statutory

App. 267
Once again, “[a]n agency literally has no power to
act . . . unless and until Congress confers power upon
it.”68 Here, “may” enables the FHFA to act—the FHFA
may take any action as conservator that is either
(1) “necessary to put the [GSE] in a sound and solvent
condition” or (2) “appropriate to carry on the business
of the [GSE] and preserve and conserve” GSE assets
and property.69 Logically, the FHFA may not take an
action that is inconsistent with this express list of
powers.70 Any other reading would render the FHFA’s
enumeration of specific conservator powers
meaningless. Section 4617(b)(2)(D), though framed
permissively, thus circumscribes the FHFA’s powers as
conservator—any action it takes must be consistent
with its mission to “preserve and conserve” the GSEs’
assets.
Nor does HERA’s incidental powers provision give
the FHFA carte blanche to ignore its statutory
mandate as conservator. Under its incidental powers,
the FHFA may “exercise all powers and authorities
context” (quoting Abramski v. United States, 134 S. Ct. 2259, 2267
(2014))).
68

New York, 535 U.S. at 18.

69

12 U.S.C. § 4617(b)(2)(D) (emphasis added).

70

Under the negative implication interpretive canon, expressio
unius est exclusio alterius, the specification of one thing implies the
exclusion of the other. Antonin Scalia & Bryan A. Garner, READING
LAW: THE INTERPRETATION OF LEGAL TEXTS 107 (2012); see also
Texas v. United States, 809 F.3d 134, 182 (5th Cir. 2015) (noting
the utility of expressio unius for interpreting statutes in the
administrative law field).

App. 268
specifically granted to conservators or receivers,
respectively, under this section, and such incidental
powers as shall be necessary” to carry them out.71 And
the FHFA may “take any action authorized by this
section, which the [FHFA] determines is in the best
interests of the [GSE] or the [FHFA].”72 According to
the Shareholders, and at least two other circuits, this
provision includes a broad grant of permissive
authority for the FHFA to do whatever it pleases based
on its own self-interest.73
I doubt that Congress “in fashioning this intricate
. . . machinery, would [] hang one of the main gears on
the tail pipe.”74 Interpreting the incidental powers
provision to include such sweeping authority would
treat the incidental powers as ends unto themselves,
swallowing the remainder of HERA’s statutory text.
The incidental powers provision is not a
freestanding source of authority to act. Instead, the
provision is confined to “any action authorized by this
section.”75 In essence, “incidental” powers must be

71

12 U.S.C. § 4617(b)(2)(J)(i).

72

Id. § 4617(b)(2)(J)(ii).

73

See Robinson, 876 F.3d at 232 (finding that the Third
Amendment could be a valid use of the FHFA’s incidental power
as conservator); Perry Capital, 864 F.3d at 607–08 (noting that the
incidental powers provision permits the FHFA to take any action
which it determines is in its best interests).
74

Brannan v. Stark, 342 U.S. 451, 463 (1952).

75

12 U.S.C. § 4617(b)(2)(J)(ii) (emphasis added).

App. 269
“incidental” to something. To support this reading, we
need look no further than a dictionary; “incidental”
means “[s]ubordinate to something of greater
importance; having a minor role.”76 It is inconceivable
that FHFA could exercise such free-wheeling authority
under its “incidental” powers—wholly untethered from
its specific powers as conservator or receiver.
And this broad reading ignores provisions granting
the FHFA specific powers and functions as either
conservator or receiver. The incidental powers
provision references these powers and functions when
it authorizes the FHFA to “exercise all powers and
authorities specifically granted to conservators or
receivers, respectively.”77 Logically, any exercise of the
FHFA’s incidental powers must be in service of a power
specifically provided by HERA.78 It is only with

76

Incidental, BLACK’S LAW DICTIONARY (10th ed. 2014).

77

12 U.S.C. § 4617(b)(2)(J)(i) (emphasis added).

78

In some respects, the Court’s analysis of the Necessary and
Proper Clause, Article I’s “incidental powers” provision, is
instructive. Cf. Nat’l Fed’n of Indep. Bus. v. Sebelius, 567 U.S. 519,
560 (2012) (noting that “cases upholding laws under [the
Necessary and Proper] Clause involved exercises of authority
derivative of, and in service to, a granted power”); McCulloch v.
Maryland, 4 Wheat. 316, 421 (1819) (noting that the general
authority to pass laws “necessary and proper” to executing its
powers are determined by the powers granted under the
Constitution).

App. 270
reference to these specific powers that we may discern
the scope of the FHFA’s authority over the GSEs.79
Regardless, permitting the FHFA to act in its own
best interests does not come close to providing the type
of explicit instruction required to suggest that Congress
displaced the common-law attributes of
conservatorships.80 The FHFA possesses significant
regulatory authority with the potential for
reverberations throughout the United States economy.
Given the importance of the FHFA’s role and the
potential disruption to financial markets, the
incidental powers provision is insufficient to negate the
assumption that the settled common-law meaning of
conservator applies.81 Instead, the provision merely
permits the FHFA to engage in self-dealing

79

See RadLAX Gateway Hotel, LLC v. Amalgamated Bank, 566
U.S. 639, 645 (2012) (noting that it is a well-known canon of
statutory construction that a specific provision of a statute governs
the general, avoiding “the superfluity of a specific provision that is
swallowed by the general one, ‘violat[ing] the cardinal rule that, if
possible, effect shall be given to every clause and part of a statute’”
(quoting D. Ginsburg & Sons, Inc. v. Popkin, 285 U.S. 204, 208
(1932))).
80

81

Cf. Morissette, 342 U.S. at 263.

See FDA v. Brown & Williamson Tobacco Corp., 529 U.S. 120,
160 (2000) (“[W]e are confident that Congress could not have
intended to delegate a decision of such economic and political
significance to an agency in so cryptic a fashion.”).

App. 271
transactions, an act otherwise inconsistent with the
conservator role.82
The FHFA’s topsy-turvy take on the notion of
conservators upends our traditional understanding of
fiduciary conservatorships, and I cannot endorse it.
“Congress’ repetition of a well-established term carries
the implication that Congress intended the term to be
construed in accordance with pre-existing regulatory
interpretations.”83 Conservator is one such term. We
have consistently honed the meaning of conservator at
common law and subsequently under FIRREA. This
court should decline to follow FHFA through the
looking glass to a world where conservators need not
conserve.
Without the statutory command to “preserve and
conserve” the GSEs’ assets and property, the FHFA is
left without any intelligible principle to guide its
discretion as conservator. The FHFA is essentially
permitted to take any action—unmoored from any
statutory guidance—so long as it could plausibly
defend its action as “reorganizing” the GSEs. This
broad reading effectively eviscerates the carefully
crafted statutory authority granted to the FHFA,
permitting it to abandon its conservatorship mission.

82

See Perry Capital, 864 F.3d at 643 (Brown, J., dissenting in
part).
83

Bragdon v. Abbott, 524 U.S. 624, 631 (1998) (citations omitted);
see also Lorillard, 434 U.S. at 580–81 (noting that where
“Congress adopts a new law incorporating sections of a prior law,
Congress normally can be presumed to have had knowledge of the
interpretation given to the incorporated law”).

App. 272
In sum, the FHFA “is not empowered to jettison
every duty a conservator owes its ward, and it is
certainly not entitled to disregard the statute’s own
clearly defined limits on conservator power.”84 The
FHFA cannot act contrary to HERA’s conservator
powers; any such action would not be “incidental” to its
statutorily enumerated authority. Thus, the FHFA may
act in its own interests as conservator, but its actions
must otherwise be consistent with its statutory
authority to “preserve and conserve” the GSEs’ assets
and operate the GSEs in a “sound and solvent” manner.
III
Because the FHFA was appointed as
conservator—not as receiver—we must consider
whether the net worth sweep was consistent with “the
duties, purpose, and actions of a prudent
conservator.”85 The key question is whether the net
worth sweep was designed to “preserve and conserve”
the GSEs’ assets and rehabilitate the GSEs by putting
them in “sound and solvent condition.”86
The FHFA’s conservatorship began on a relatively
optimistic note. Fannie and Freddie were publicly
placed into conservatorship on September 6, 2008, after
failed attempts to recapitalize the GSEs. At the time,
the FHFA Director was concerned about the GSEs’

84

Perry Capital, 864 F.3d at 643 (Brown, J., dissenting in part).

85

Leon Cty. v. Fed. Hous. Fin. Agency, 700 F.3d 1273, 1278 (11th
Cir. 2012).
86

12 U.S.C. § 4617(b)(2)(D).

App. 273
ability to “operate safely and soundly,” and he
explained the conservatorship as “a statutory process
designed to stabilize a troubled institution with the
objective of returning the entities to normal business
operations.”87 In pursuit of its conservatorship goals,
the FHFA enlisted Treasury to provide cash infusions
that preserved the value of Fannie’s and Freddie’s
assets, enhanced their ability to function in the housing
market, and mitigated the systemic risk that
contributed to an unstable market.88 Per the PSPA,
Treasury purchased $1 billion of senior preferred stock
in each GSE from the FHFA in exchange for access to
capital. Treasury also had a right to a 10% dividend
and periodic commitment fee to compensate it for any
capital provided to the GSEs. Treasury believed it had
a “responsibility to both avert and ultimately address
the systemic risk” of GSE debt and to “eliminate any
mandatory triggering of receivership.”89 This is
consistent with its role as conservator—fixing short-

87

Statement of FHFA Director James B. Lockhart at News
Conference Announcing Conservatorship of Fannie Mae and
Freddie Mac, FHFA (Sept. 7, 2008), https://www.fhfa.gov/
Media/PublicAffairs/pages/statement-of-fhfa-director-james-b-lockhart-at-news-conference-annnouncing-conservatorship-offannie-mae-and-freddiemac.aspx.
88

See Questions and Answers on Conservatorship, FHFA (Sept. 7,
2008), https://www.fhfa.gov/Media/PublicAffairs/Pages/Fact-SheetQuestions-and-Answers-on-Conservatorship.aspx.
89

Fact Sheet: Treasury Senior Preferred Stock Purchase
Agreement, U.S. Treasury Dep’t (Sept. 7, 2008),
h t tp s : / / w w w . tre asury.g o v/pre ss- cente r/p re ss- re le ase s /
Documents/pspa_factsheet_090708%20hp1128.pdf.

App. 274
term deficits and returning entities to functioning
market participants is the essence of conservatorships.
But everything changed under the Third
Amendment. The net worth sweep fundamentally
altered the PSPA between the FHFA and Treasury,
replacing the fixed-rate 10% dividend with the right to
sweep the GSEs’ entire quarterly net worth after
accounting for a $3 billion capital reserve buffer that
would gradually fall to zero. Far from ensuring ongoing
access to capital, the net worth sweep denied the GSEs
access to approximately $130 billion in profit that was
instead turned over to Treasury.90 In essence, the
sweep siphoned nearly all of the GSEs’ net worth
between 2012 and the present day directly to a sole
shareholder: Treasury. It is undisputed that Treasury
has collected over $200 billion under the net worth
sweep—well exceeding the $187.5 billion it loaned to
the GSEs.91 Treasury has now recovered far more than
it invested in the companies between 2008 and 2012
under the PSPAs. Yet the GSEs remain on the hook for
the $187.5 billion obtained from Treasury before the
Third Amendment. Under the Third Amendment,
Treasury has the right to retain the GSEs’ net worth in
perpetuity.
Indeed, the Agencies abandoned their original
optimism for a more ominous outlook for the GSEs.
Both Treasury and the FHFA thought the Third
90

See FHFA, Table 2: Dividends on Enterprise Draws from
Treasury, https://www.fhfa.gov/DataTools/Downloads/
Documents/Market-Data/Table_2.pdf.
91

Id.

App. 275
Amendment aimed to wind up the GSEs—in other
words, the GSEs would not return to operating
capacity. Treasury announced that the Third
Amendment would “expedite the wind down of Fannie
Mae and Freddie Mac” and ensure that the GSEs “will
be wound down and will not be allowed to retain
profits, rebuild capital, and return to the market in
their prior form.”92 The FHFA Acting Director also
noted that there “seems to be broad consensus that
Fannie Mae and Freddie Mac will not return to their
previous corporate forms,” that the “preferred course of
action is to wind down the [GSEs],” and that the Third
Amendment “reinforce[d] the notion that the [GSEs]
will not be building capital as a potential step to
regaining their former corporate status.”93 Once again,
in a report to Congress, the FHFA explained that it
was “prioritizing [its] actions to move the housing
industry to a new state, one without Fannie Mae and
Freddie Mac.”94 Treasury and the FHFA did not
attempt to hide their intentions, or, if they did, they

92

Press Release, Dep’t of Treasury, Treasury Department
Announces Further Steps to Expedite Wind Down of Fannie Mae
and Freddie Mac (Aug. 17, 2012), https://www.treasury.gov/presscenter/press-releases/Pages/tg1684.aspx.
93

Edward J. DeMarco, Acting Director, FHFA, Statement Before
the U.S. Sen. Comm. on Banking, Hous., & Urban Affairs (Apr. 18,
2013), https://www.fhfa.gov/Media/PublicAffairs/Pages/Statementof-Edward-J-DeMarco-Acting-Director-FHFA-Before-the-USSenate-Committee-on-Banking-Housing-and-Urban-Affa359.aspx.
94

FHFA, Report to Congress 2012, at 13 (June 13, 2013),
https://www.fhfa.gov/AboutUs/Reports/ReportDocuments/2012_
AnnualReportToCongress_508.pdf.

App. 276
weren’t very good at it. Instead, they proclaimed loudly
and proudly that they wanted to transfer wealth from
the Shareholders to Treasury in an effort to wind up
Fannie’s and Freddie’s affairs.
But to wind up the GSEs’ affairs, the FHFA needed
to follow HERA’s carefully crafted procedures. The
FHFA could be designated as receiver for the GSEs and
put them on the path to liquidation. But that is not the
path that the FHFA chose—the FHFA was designated
as conservator. By evading the receivership label, the
FHFA could unilaterally bleed the GSEs’ assets for its
own use. The Shareholders were essentially denied
their property rights in GSE assets. Even worse, the
FHFA evaded any judicial oversight to ensure
compliance with HERA’s receivership procedures.
The Sixth, Seventh, and D.C. Circuits determined
that the Third Amendment falls squarely within the
FHFA’s authority operate the GSEs, carry on business,
transfer or sell assets, and do so in the GSEs’ or its own
best interests.95 These courts characterize the
Shareholders’ complaint as attacking the “necessity or
financial wisdom” of the net worth sweep, reasoning
that “Congress could not have been clearer about
leaving those hard operational calls to FHFA’s
managerial judgment.”96

95

Robinson, 876 F.3d at 231 (citing 12 U.S.C. § 4617(b)(2));
Roberts, 889 F.3d at 404; Perry Capital, 864 F.3d at 607.
96

Robinson, 876 F.3d at 231 (quoting Perry Capital, 864 F.3d at
607); Roberts, 889 F.3d at 404 (quoting Perry Capital, 864 F.3d at
607).

App. 277
Admittedly, judges are not experts at Byzantine
financial dealings or long-term market strategy. But
interpreting statutes is squarely in the judicial
wheelhouse. The FHFA may not hide behind the label
of conservator to insulate itself from meaningful
judicial review. Instead, we must apply well-settled
principles underlying conservatorships to determine if
the FHFA’s actions were within its statutory authority.
Simply put, HERA requires the FHFA as conservator
to act in a certain way, and the net worth sweep is
inconsistent with those requirements. Draining the
GSEs’ entire net worth in perpetuity makes
rehabilitation—a core function of conservatorships—
impossible. The net worth sweep was thus inconsistent
with what a conservator may do, under HERA or
otherwise.
That the GSEs have returned to profitability is of no
matter. This case concerns whether a discrete action by
the FHFA falls within its statutory conservatorship
authority. The net worth sweep strips the GSEs of
their capital reserves, and it is thus antithetical to the
FHFA’s statutory command that it “preserve and
conserve the assets and property” of the GSEs.97 Yet
the net worth sweep persists—and it persists
indefinitely.
This violates the FHFA’s principal duty as
conservator to “put the [GSEs] in a sound and solvent
condition.”98 One of the FHFA’s regulatory duties over

97

12 U.S.C. § 4617(b)(2)(D)(ii).

98

Id. § 4617(b)(2)(D)(i).

App. 278
the GSEs is “to ensure that [the GSEs] operate[] in a
safe and sound manner, including maintenance of
adequate capital.”99 And FHFA regulations suggest
that allowing this transfer of capital to Treasury,
thereby depleting the conservatorship assets, is
incompatible with its “statutory charge to work to
restore a regulated entity in conservatorship to a sound
and solvent condition.”100 Without capital reserves, the
net worth sweep left the GSEs extremely vulnerable to
market fluctuations and risked further reliance on
Treasury’s funding commitment. This risk increased
each year as the reserve cap decreased, supporting the
position that the net worth sweep is inconsistent with
the statutory command to take actions “necessary to
put the regulated entity in a sound and solvent
condition.101 The FHFA Director said it best: Allowing
the GSEs to operate without a reserve buffer is
“irresponsible.”102
To be sure, the GSEs are now permitted to retain a
$3 billion capital reserve amount under the net worth

99

Id. § 4513(a)(1)(B).

100

Conservatorship and Receivership, 76 Fed. Reg. 35724, 35727
(June 20, 2011).
101

102

12 U.S.C. § 4617(b)(2)(D)(i).

Melvin L. Watt, Director, FHFA, Statement Before the U.S.
House of Representatives Comm. on Fin. Servs. (Oct. 3, 2017),
https://www.fhfa.gov/Media/PublicAffairs/pages/statement-ofmelvin-l--watt,-director,-fhfa,-before-the-u-s--house-ofrepresentatives-committee-on-financial-services.aspx.

App. 279
sweep.103 But removing the GSEs’ entire net worth
beyond that reserve cap still risks increasing
Treasury’s liquidation preference. In fact, the GSEs
have incurred additional debt in order to pay Treasury
under the net worth sweep. Ordering the GSEs to
further weaken their financial position in this manner
is inconsistent with the FHFA’s statutory authority.
Congress carefully delineated the FHFA’s powers as
conservator. And courts have a responsibility to ensure
that the FHFA does not exceed those powers. By
holding otherwise, the majority opinion forecloses any
recourse the Shareholders have to ensure that their
property rights are protected by HERA’s mandatory
procedures.
***
In a legal system governed by the Rule of Law,
investors rely on predictable, well-settled principles of
conservatorships and receiverships and the consistent
interpretation of these terms by courts. HERA
established the FHFA in order to stabilize and restore
confidence in the United States housing market. In
drafting the statute, Congress built HERA on the
foundation of FIRREA, importing the accompanying
predictable, deep-dyed common-law principles of
conservatorships. Importantly, when the FHFA acts as

103

Melvin L. Watt, Director, FHFA, Statement on Capital Reserve
for Fannie Mae and Freddie Mac (Dec. 21, 2017),
https://www.fhfa.gov/Media/PublicAffairs/Pages/Statement-fromFHFA-Director-Melvin-L-Watt-on-Capital-Reserve-for-FannieMae-and-Freddie-Mac.aspx.

App. 280
conservator, Congress requires it to “preserve and
conserve” the property and assets of the GSEs.
The FHFA abandoned this duty as conservator
when it enacted the net worth sweep, thus barring the
GSEs from earning and maintaining a profit. In
essence, the FHFA began to wind up the GSEs and
place them into liquidation—a power reserved for its
role as receiver.104 But the FHFA had not been
designated as receiver, and it disregarded the receiverspecific statutory protections afforded to the GSEs and
their investors.
Nothing in the statute prevents the FHFA from
being designated and acting as a receiver. Perhaps all
this litigation could have been avoided had the FHFA
done so. But the FHFA has made its statutory bed, and
now it must lie in it. If the FHFA wishes to wind up the
GSEs, it must comply with the statutory procedures
designating itself as receiver and terminating the
conservatorship first. Having failed to do just that, the
FHFA exceeded its statutory authority.
HERA neither bars review of the Shareholders’ APA
claim nor authorizes the FHFA as conservator to bleed
the GSEs profits in perpetuity. Because the majority
opinion holds otherwise, I respectfully dissent.

104

See 12 U.S.C. § 4617(a)(4)(D), (b)(2)(E), (b)(3), (c).

App. 281
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 17-20364
D.C. Docket No. 4:16-CV-3113
[Filed July 16, 2018]
___________________________________
PATRICK J. COLLINS;
)
MARCUS J. LIOTTA;
)
WILLIAM M. HITCHCOCK,
)
)
Plaintiffs - Appellants,
)
)
v.
)
)
STEVEN T. MNUCHIN,
)
SECRETARY, U.S.
)
DEPARTMENT OF TREASURY;
)
DEPARTMENT OF THE
)
TREASURY; FEDERAL HOUSING )
FINANCE AGENCY; JOSEPH M.
)
OTTING, ACTING DIRECTOR OF
)
THE FEDERAL HOUSING
)
FINANCE AGENCY,
)
)
Defendants - Appellees.
)
___________________________________ )
Appeal from the United States District Court
for the Southern District of Texas
Before STEWART, Chief Judge and HAYNES and
WILLETT, Circuit Judges.

App. 282
JUDGMENT
This cause was considered on the record on appeal
and was argued by counsel.
It is ordered and adjudged that the judgment of the
District Court is affirmed in part and reversed in part,
and the cause is remanded to the District Court for
further proceedings in accordance with the opinion of
this Court.
CARL E. STEWART, Chief Judge, dissenting in part.
WILLETT, Circuit Judge, dissenting in part.
IT IS FURTHER ORDERED that each party bear
its own costs on appeal.

App. 283

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CIVIL ACTION NO. H-16-3113
[Filed May 22, 2017]
________________________________
PATRICK J. COLLINS, et al.,
)
Plaintiffs,
)
)
v.
)
)
FEDERAL HOUSING FINANCE )
AGENCY, et al.,
)
Defendants.
)
________________________________ )
MEMORANDUM AND ORDER
Plaintiffs Patrick J. Collins, Marcus J. Liotta and
William M. Hitchcock are shareholders in the Federal
National Mortgage Association (“Fannie Mae”) and/or
the Federal Home Loan Mortgage Corporation
(“Freddie Mac”). Plaintiffs complain that actions by the
Federal Housing Finance Agency (“FHFA”) and the
United States Department of Treasury (“Treasury”)
adversely affected the value of Plaintiffs’ shares. The
case is now before the Court on the Motion to Dismiss
[Doc. # 23] filed by Defendants FHFA and its Director
Melvin L. Watt. Also pending is the Motion to Dismiss

App. 284
[Doc. # 25] filed by Treasury and its Secretary Steven
Mnuchin,1 the Motion for Summary Judgment on
Constitutional Claim [Doc. # 33] filed by Plaintiffs, and
the Cross-Motion for Summary Judgment on
Constitutional Claim [Doc. # 35] filed by the FHFA and
Watt.2 The Court has reviewed the full record and the
applicable legal authorities. Based on that review, the
Court grants Defendants’ Motions and denies
Plaintiffs’ Motion.
I. BACKGROUND
The historical background of this dispute is set forth
fully in the well-reasoned decision of the United States
Court of Appeals for the District of Columbia in Perry
Capital, LLC v. Mnuchin, 948 F.3d 1072 (D.C. Cir.
2017). The Federal National Mortgage Association

1

In February 2017, Mnuchin became Secretary of Treasury,
replacing Jacob Lew, the named Defendant. As a result, Mnuchin
was automatically substituted as Defendant in this lawsuit. See
FED. R. CIV. P. 25(d); McCardell v. U.S. Dept. of Hous. and Urban
Dev., 794 F.3d 510, 515 n.19 (5th Cir. 2015).
2

The FHFA and Watt filed a Memorandum [Doc. # 24] in support
of their Motion to Dismiss, Treasury and Mnuchin filed a
Memorandum [Doc. # 26] in support of their Motion to Dismiss,
Plaintiffs filed a combined Memorandum [Doc. # 32] in opposition
to Defendants’ Motions to Dismiss and in support of their Motion
for Summary Judgment, the FHFA and Watt filed a Reply [Doc.
# 37] in support of their Motion to Dismiss, Treasury and Mnuchin
filed a Reply [Doc. # 38] in support of their Motion to Dismiss,
Plaintiffs filed a combined Reply [Doc. # 41], the FHFA and Watt
filed a Reply [Doc. # 49] in support of their Motion for Summary
Judgment on Constitutional Claim, Plaintiffs filed a Sur-Reply
[Doc. # 45], and Defendants filed a Response [Doc. # 48] to
Plaintiffs’ Sur-Reply.

App. 285
(“Fannie Mae”) and the Federal Home Loan Mortgage
Corporation (“Freddie Mac”) became major players in
the United States housing market. By 2008, they
controlled combined mortgage portfolios valued at $5
trillion, nearly half of the United States mortgage
market.
In 2008, the United States housing market suffered
a severe decline. Fannie Mae and Freddie Mac suffered
a precipitous drop in the value of their mortgage
portfolios. As a result, Congress enacted the Housing
and Economic Recovery Act (“HERA”), which
established FHFA. HERA classified Fannie Mae and
Freddie Mac as “regulated entities” subject to the direct
supervision of FHFA. See 12 U.S.C. § 4511(b)(1).
Fannie Mae and Freddie Mac were subject also to the
general regulatory authority of FHFA’s Director. See 12
U.S.C. § 4511(b)(1), (2). HERA charged FHFA’s
Director with overseeing the prudential operations of
Fannie Mae and Freddie Mac, and ensuring that they
operated in a safe and sound manner, consistent with
the public interest. See 12 U.S.C. § 4513(a)(1)(A), (B)(i),
(B)(v).
HERA also authorized the FHFA Director to
appoint FHFA as either conservator or receiver for
Fannie Mae and Freddie Mac, “for the purpose of
reorganizing, rehabilitating, or winding up the[ir]
affairs.” 12 U.S.C. § 4617(a)(2). HERA grants to FHFA
as conservator broad authority and discretion over the
operation of Fannie Mae and Freddie Mac. For
example, upon appointment as conservator of a
regulated entity, FHFA immediately succeeds to “all
rights, titles, powers, and privileges of the regulated

App. 286
entity, and of any stockholder, officer, or director of
such regulated entity with respect to the regulated
entity and the assets of the regulated entity.” 12 U.S.C.
§ 4617(b)(2)(A). Additionally, FHFA is authorized to
“take over the assets of and operate the regulated
entity,” and to “preserve and conserve the assets and
property of the regulated entity.” 12 U.S.C.
§ 4617(b)(2)(B)(i), (iv).
HERA also grants to FHFA expansive general
powers, authorizing FHFA to, inter alia, “take such
action as may be . . . necessary to put the regulated
entity in a sound and solvent condition” and
“appropriate to carry on the business of the regulated
entity and preserve and conserve [its] assets and
property[.]” 12 U.S.C. § 4617(b)(2), (2)(D). FHFA is also
authorized, in its discretion, to “transfer or sell any
asset or liability of the regulated entity in default . . .
without any approval, assignment, or consent.” 12
U.S.C. § 4617(b)(2)(G). Additionally, FHFA is
authorized to “disaffirm or repudiate [certain]
contract[s] or lease[s].” 12 U.S.C. § 4617(d)(1). HERA,
to enable the FHFA Director to protect the “public
interest,” granted to FHFA as conservator the
authority to exercise its statutory authority and any
necessary “incidental powers” in the manner that
FHFA “determines is in the best interests of the
regulated entity or the Agency.” 12 U.S.C.
§ 4617(b)(2)(J).
Separately, HERA granted Treasury temporary
authority to “purchase any obligations and other
securities issued by” Fannie Mae and Freddie Mac. 12
U.S.C. §§ 1455(l)(1)(A), 1719. This enabled Treasury to

App. 287
buy large numbers of Fannie Mae and Freddie Mac
shares, and thereby infuse the companies with capital
to ensure their continued liquidity and stability. HERA
conditioned such purchases of stock on Treasury’s
specific determination that the terms of the purchase
would “protect the taxpayer.” 12 U.S.C.
§ 1719(g)(1)(B)(iii). A sunset provision terminated
Treasury’s authority to purchase shares after
December 31, 2009. 12 U.S.C. § 1719(g)(4). Thereafter,
Treasury was authorized only “to hold, exercise any
rights received in connection with, or sell, any
obligations or securities purchased.” 12 U.S.C.
§ 1719(g)(2)(D).
Importantly for the pending lawsuit, HERA sharply
limits judicial review of FHFA’s conservatorship
activities, directing that “no court may take any action
to restrain or affect the exercise of powers or functions
of the Agency as a conservator.” 12 U.S.C. § 4617(f)
(emphasis added).
On September 6, 2008, FHFA’s Director placed both
Fannie Mae and Freddie Mac into conservatorship. The
next day, Treasury entered into Preferred Stock
Purchase Agreements (“PSPAs”) with Fannie Mae and
Freddie Mac, under which Treasury committed to
invest billions of dollars in the two companies to keep
them from defaulting. In exchange for Treasury’s
capital infusion, Treasury received one million senior
preferred shares in each company. Those shares
entitled Treasury to: (i) a $1 billion senior liquidation
preference – a priority right above all other
shareholders, whether preferred or otherwise, to
receive distributions from assets if the entities were

App. 288
dissolved; (ii) a dollar-for-dollar increase in that
liquidation preference each time Fannie Mae and
Freddie Mac drew upon Treasury’s funding
commitment; (iii) quarterly dividends that the
companies could either pay at a rate of 10% of
Treasury’s liquidation preference or a commitment to
increase the liquidation preference by 12%;
(iv) warrants allowing Treasury to purchase up to
79.9% of Fannie Mae’s and Freddie Mac’s common
stock; and (v) the possibility of periodic commitment
fees over and above any dividends. The PSPAs also
included a covenant that Fannie Mae and Freddie Mac
could not “declare or pay any dividend (preferred or
otherwise) or make any other distribution (by reduction
of capital or otherwise), whether in cash, property,
securities or a combination thereof” without Treasury’s
advance consent (unless the dividend or distribution
was for Treasury’s Senior Preferred Stock or warrants).
The PSPAs initially capped Treasury’s commitment
to invest capital at $100 billion per company. When it
appeared that Fannie Mae and Freddie Mac would
require even greater capital infusions by Treasury,
FHFA and Treasury adopted the First Amendment to
the PSPAs in May 2009, under which Treasury agreed
to double the funding commitment to $200 billion for
each company. Seven months later, in a Second
Amendment to the PSPAs, FHFA and Treasury again
agreed to raise the cap, this time to an adjustable
figure determined in part by the amount of Fannie
Mae’s and Freddie Mac’s quarterly cumulative losses
between 2010 and 2012. As of June 30, 2012, Fannie
Mae and Freddie Mac together had drawn $187.5
billion from Treasury’s funding commitment.

App. 289
Through the first quarter of 2012, Fannie Mae and
Freddie Mac repeatedly struggled to generate enough
capital to pay the 10% dividend they owed to Treasury
under the amended PSPAs. As a result, FHFA and
Treasury adopted the Third Amendment to the PSPAs
on August 17, 2012. The Third Amendment to the
PSPAs replaced the previous quarterly 10% dividend
formula with a requirement that Fannie Mae and
Freddie Mac pay as dividends only the amount, if any,
by which their net worth for the quarter exceeded a
capital buffer of $3 billion, with that buffer decreasing
annually down to zero by 2018. Stated differently, the
Third Amendment requires Fannie Mae and Freddie
Mac to pay to Treasury quarterly dividends equal to
their excess net worth. Under the new dividend
formula in the Third Amendment, Fannie Mae and
Freddie Mac would no longer incur additional debt in
order to make their quarterly dividend payments, but
they would no longer accrue capital during good
quarters. Under the Third Amendment, Fannie Mae
and Freddie Mac together paid Treasury $130 billion in
dividends in 2013, and another $40 billion in 2014. In
2015, however, Fannie Mae’s and Freddie Mac’s
quarterly net worth was much lower, such that Fannie
Mae paid Treasury $10.3 billion and Freddie Mac paid
Treasury $5.5 billion. By comparison, without the
Third Amendment, Fannie Mae and Freddie Mac
together would have been required to pay Treasury $19
billion in 2015. If they had been unable to make the
2015 payments, the companies would have been
required to draw on Treasury’s commitment of funds
and thereby increase Treasury’s liquidation preference.
In the first quarter of 2016, Fannie Mae paid Treasury

App. 290
$2.9 billion and Freddie Mac paid Treasury no dividend
at all.
Plaintiffs in this case are shareholders in Fannie
Mae and/or Freddie Mac. They filed this lawsuit in
October 2016. Counts 1-3 of the Complaint [Doc. # 1]
seek relief under the Administrative Procedure Act
(“APA”). Count 4 challenges the provision in HERA
that requires cause for removal of the FHFA Director
(“Removal Provision”), arguing that it is an
unconstitutional violation of the separation of powers.
Plaintiffs seek a declaratory judgment that the Third
Amendment violated HERA, that Treasury acted
arbitrarily and capriciously by executing the Third
Amendment, and that FHFA’s structure violates the
separation of powers. Plaintiffs also seek an injunction
requiring a “return” to Fannie Mae and Freddie Mac of
all dividend payments made pursuant to the Third
Amendment, and enjoining the FHFA from applying
the Third Amendment in the future. Plaintiffs ask this
Court to vacate and set aside the Third Amendment.
Defendants moved to dismiss Counts 1-3 based on
the limit on judicial review set forth in 12 U.S.C.
§ 4617(f). Both sides moved for summary judgment on
Count 4, the constitutional challenge. The pending
motions have been exhaustively briefed and are now
ripe for decision.
II. APA CLAIMS
A. Count 1 - FHFA
Plaintiffs allege in Count 1 that the FHFA exceeded
its statutory authority by adopting the Third
Amendment. Specifically, Plaintiffs allege that the

App. 291
FHFA acted in contravention of its statutory duty to
rehabilitate Fannie Mae and Freddie Mac and its duty
to preserve and conserve Fannie Mae’s and Freddie
Mac’s assets. Plaintiffs allege also that the FHFA
exceeded its statutory authority by acting to benefit
taxpayers. Defendants seek dismissal of this claim as
precluded by the limitation on judicial review set forth
in § 4617(f).
This issue was addressed in Perry Capital, and this
Court finds the District of Columbia Circuit’s reasoning
to be persuasive. As noted in Perry Capital, the “plain
statutory text [of § 4617(f)] draws a sharp line in the
sand against litigative interference – through judicial
injunctions, declaratory judgments, or other equitable
relief – with FHFA’s statutorily permitted actions as
conservator or receiver.” Perry Capital, 848 F.3d at
1087. As explained by the District of Columbia Circuit,
“adoption of the Third Amendment falls within FHFA’s
statutory conservatorship powers.” Id. This is true
because HERA “endows FHFA with extraordinarily
broad flexibility to carry out its role as conservator.” Id.
“Entirely absent from [HERA’s] text is any mandate,
command, or directive to build up capital for the
financial benefit of [Fannie Mae’s and Freddie Mac’s]
stockholders.” Id. at 1088. To avoid the limitation of
§ 4617(f), Plaintiffs’ burden “is to show that FHFA’s
actions were frolicking outside of statutory limits as a
matter of law.” Id. at 1093. For the reasons set forth in
Perry Capital, the arguments asserted by Plaintiffs
here – the same arguments asserted by the plaintiffs in
Perry Capital – fail to demonstrate that the FHFA’s
conduct was outside the scope of its broad statutory

App. 292
authority as conservator. Therefore, Plaintiffs’ APA
claim against the FHFA is barred by § 4617(f).
B. Counts 2 and 3 - Treasury
Plaintiffs allege that Treasury’s conduct in
connection with the Third Amendment exceeded its
statutory authority under HERA and was arbitrary
and capricious. As explained by the District of
Columbia Circuit in Perry Capital, these claims are
barred by § 4617(f). See Perry Capital, 848 F.3d at
1096-97. “Section 4617(f) also forecloses judicial relief
that would ‘affect’ the exercise of FHFA’s ‘powers or
functions’ as conservator or receiver.” Id. at 1096. Here,
“the effect of any injunction or declaratory judgment
aimed at Treasury’s adoption of the Third Amendment
would have just as direct and immediate an effect as if
the injunction operated directly on FHFA.” Id.
“Accordingly, Section 4617(f)’s prohibition on relief that
‘affect[s] FHFA applies here because the requested
injunction’s operation would have exactly the same
force and effect as enjoining FHFA directly.” Id.
Therefore, § 4617(f) bars Counts 2 and 3 of Plaintiffs’
Complaint.
III. CONSTITUTIONAL CLAIMS
The FHFA is governed by a Director who can be
removed only for cause. See 12 U.S.C. § 4512(b)(2)
(“The Director shall be appointed for a term of 5 years,
unless removed before the end of such term for cause
by the President”). Plaintiffs argue that this structure
violates the constitutional separation of powers.
Plaintiffs argue that, as a result, the FHFA is
unconstitutional and the Third Amendment is invalid

App. 293
as entered into by an unconstitutional entity. The
Court concludes that the for-cause removal provision
for the FHFA’s Director does not violate the United
States Constitution.
Article II of the United States Constitution charges
the President to “take Care that the Laws be faithfully
executed.” U.S. CONST. Art. II, § 3. The Constitution
specifically defines the President’s appointment power:
He shall nominate, and by and with the Advice
and Consent of the Senate, shall appoint
Ambassadors, other public Ministers and
Consuls, Judges of the supreme Court, and all
other Officers of the United States, whose
Appointments are not herein otherwise provided
for, and which shall be established by Law: but
the Congress may by law vest the Appointment
of such inferior Officers, as they think proper, in
the President alone, in the Courts of Law, or in
the Heads of Departments.
U.S. CONST. Art. II, § 2, cl. 2.
The Constitution, however, “is conspicuously silent”
regarding the President’s removal authority. See
Consumer Fin. Prot. Bureau v. ITT Educ. Servs., Inc.,
__ F.3d __, 2015 WL 1013508, *7 (S.D. Ind. Mar. 6,
2015) (appeal dismissed). Nonetheless, the United
States Supreme Court has held that “some degree of
discretion in removing executive officers is inherent in
the President’s powers and must be protected from
excessive legislative encroachment.” Id. First, in Myers
v. United States, 272 U.S. 52 (1926), the Supreme

App. 294
Court held that Congress was prohibited from unduly
limiting the President’s removal power.
In Humphrey’s Executor v. United States, 295 U.S.
602 (1935), the Supreme Court held that the
President’s removal power was not absolute with
respect to removal of officers of federal agencies that
are not “purely executive” but that, instead, engage in
activities that are quasi-judicial, quasi-legislative, or
otherwise not exclusively the execution and
enforcement of the laws enacted by Congress. See 295
U.S. at 627-29.
Later, in Morrison v. Olson, 487 U.S. 654 (1988), the
Supreme Court held that the Attorney General’s
appointment of an “independent counsel” did not
unconstitutionally violate the President’s appointment
and removal powers. See Morrison, 487 U.S. at 691-92.
The Supreme Court noted that the President retained
some control over the independent counsel through his
control over the Attorney General, the President’s atwill appointee. See id. at 692.
Most recently, in 2010, the Supreme Court noted
that it previously held that “Congress can, under
certain circumstances, create independent agencies run
by principal officers appointed by the President, whom
the President may not remove at will but only for good
cause.” Free Enter. Fund v. Pub. Co. Accounting
Oversight Bd., 561 U.S. 477, 483 (2010) (citing
Humphrey’s Executor). At issue in Free Enterprise was
a “for cause” requirement for the removal of
commissioners of the Public Company Accounting
Oversight Board, an entity under the Securities and
Exchange Commission whose own commissioners could

App. 295
be removed only for cause. The Supreme Court held
that this “second level of tenure protection changes the
nature of the President’s review.” Id. at 496. The
Supreme Court held this structure providing two levels
of “for cause” removal protection to be unconstitutional.
See id. at 498.
Viewed in light of this Supreme Court rubric, the
structure of the FHFA does not violate the
Constitution. As noted in Morrison, “the real question
is whether the removal restrictions are of such a nature
that they impede the President’s ability to perform his
constitutional duty.” Morrison, 487 U.S. at 691. A “for
cause” requirement for removal has been approved by
the Supreme Court where, as here, the agency’s
mission is not “purely executive.” See Humphrey’s
Executor, 295 U.S. at 619, 632; see also Consumer Fin.
Prot. Bureau v. Morgan Drexen, Inc., 60 F. Supp. 3d
1082, 1087-88 (C.D. Cal. 2014); Consumer Fin. Prot.
Bureau v. ITT Educ. Servs., Inc., 2015 WL 1013508 at
*9. Indeed, the challenged Third Amendment was
adopted by the FHFA in its capacity as conservator of
Fannie Mae and Freddie Mac, not as an executive
enforcing the laws of the United States.
Plaintiffs in their Motion for Summary Judgment
on Constitutional Claim rely primarily on PHH Corp.
v. Consumer Fin. Prot. Bureau, 839 F.3d 1 (D.C. Cir.
2016), which held that the Consumer Financial
Protection Bureau was unconstitutionally governed by
a single Director removable only for cause. The District
of Columbia Circuit has granted rehearing en banc and
has vacated the panel’s opinion on which Plaintiffs
rely. Moreover, the panel’s decision was based on the

App. 296
view that the single-Director structure of the CFPB
was “novel” and that the independent counsel statute
upheld in Morrison was a mistake. In addition to the
CFPB and the FHFA at issue in this case, the Social
Security Administration’s Commissioner is a single
agency head who is removable only for cause. See 42
U.S.C. § 902(a). Whether the independent counsel
statute was wise or a mistake, it was upheld as
constitutional by the Supreme Court in Morrison. As a
result, the Court finds the reasoning of the panel
decision in PHH Corp. to be unpersuasive even if it had
not been vacated.
Plaintiffs argue that the single director structure is
a “second layer” that renders the structure of the FHFA
unconstitutional under Free Enterprise. The existence
of a single director is not, however, a “second level of
tenure protection” that is prohibited by Free Enterprise.
Indeed, the existence of a single director rather than a
board or commission offers no “tenure protection” at
all. Additionally, the Supreme Court did not limit its
decision in Humphrey’s Executor to a multimember
board rather than a single director, holding simply that
a “for cause” removal provision for agencies that are
not “purely executive” was not an unconstitutional
violation of the separation of powers. The FHFA’s
removal provision, when viewed in light of the agency’s
overall structure and purpose, does not impede the
President’s ability to perform his constitutional duty to
take care that the laws are faithfully executed. As a
result, Plaintiffs’ Motion for Summary Judgment on
this constitutionality issue is denied and Defendants’
Motion for Summary Judgment on this issue is
granted.

App. 297
IV. CONCLUSION AND ORDER
Based on the foregoing, particularly the District of
Columbia Circuit’s well-reasoned decision in Perry
Capital, the Court grants Defendants’ Motions to
Dismiss the APA claims as precluded by § 4617(f).
Additionally, the Court concludes that the removal for
cause provision applicable to the FHFA Director is not
unconstitutional. Accordingly, it is hereby
ORDERED that the Motion to Dismiss [Doc. # 23]
filed by Defendants Federal Housing Finance Agency
and Melvin L. Watt is GRANTED; the Motion to
Dismiss [Doc. # 25] filed by the United States
Department of Treasury (“Treasury”) and Steven
Mnuchin is GRANTED; Plaintiffs’ Motion for
Summary Judgment on Constitutional Claim [Doc.
# 33] is DENIED; and the Cross-Motion for Summary
Judgment on Constitutional Claim [Doc. # 35] filed by
the FHFA and Watt is GRANTED.
The Court will issue a separate final order.
SIGNED at Houston, Texas, this 22nd day of May,
2017.

P:\ORDERS\11-2016\3113MsD.wpd 170522.1330

App. 298
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CIVIL ACTION NO. H-16-3113
[Filed May 22, 2017]
________________________________
PATRICK J. COLLINS, et al.,
)
Plaintiffs,
)
)
v.
)
)
FEDERAL HOUSING FINANCE )
AGENCY, et al.,
)
Defendants.
)
________________________________ )
FINAL JUDGMENT
For the reasons stated in the accompanying
Memorandum and Order, it is hereby
ORDERED that the Motion to Dismiss [Doc. # 23]
filed by Defendants Federal Housing Finance Agency
(“FHFA”) and Melvin L. Watt is GRANTED; the
Motion to Dismiss [Doc. # 25] filed by the United States
Department of Treasury and Steven Mnuchin is
GRANTED; Plaintiffs’ Motion for Summary Judgment
on Constitutional Claim [Doc. # 33] is DENIED; and
the Cross-Motion for Summary Judgment on
Constitutional Claim [Doc. # 35] filed by Defendants
FHFA and Watt is GRANTED. It is further

App. 299
ORDERED that this case is DISMISSED WITH
PREJUDICE, with taxable costs assessed against
Plaintiffs.
This is a final, appealable order.
SIGNED at Houston, Texas, this 22nd day of May,
2017.

P:\ORDERS\11-2016\3113FO.wpd 170522.1333

